***THIS IS A CAPITAL CASE***
No.
IN THE SUPREME COURT OF THE UNITED STATES
JEFFREY HESSLER,
Petitioner,
v.
STATE OF NEBRASKA,
Respondent.

On Petition for a Writ of Certiorari
To the Nebraska Supreme Court
PETITION FOR A WRIT OF CERTIORARI
JERRY M. HUG
209 S. 19th St, #323
Omaha, NE 68102
(402) 346-1733
jerry.hug@gmail.com
*Counsel for Jeffrey Hessler

QUESTIONS PRESENTED
On August 17, 2016, Mr. Hessler filed a verified motion for postconviction relief
asserting that Hurst v. Florida, 136 S. Ct. 616 (2016)—a case yet to be decided at the
time of the decision on his latest petition—was applicable to his case and provided
him a basis for relief. The district court held that the Hurst case did not create a new
legal rule but rather applies the principles in Ring v. Arizona, 536 U.S. 584, 122 S.
Ct 2428 (2002). Furthermore, it cited State v. Lotter, 301 Neb. 125 (2018) as having
an “identical” claim for relief, the denial of which was affirmed on appeal. The district
court found that Nebraska Revised Statute § 29-3001(4)(d) did not apply, meaning
that Mr. Hessler’s claim—like Lotter’s—was time barred. It therefore denied his
motion without an evidentiary hearing. Mr. Hessler appealed to the Nebraska
Supreme Court. The Nebraska Supreme Court affirmed the district court in its April
3, 2020 order, holding that Lotter is dispositive of the issues presented in this appeal.
The question presented is:
Are the Sixth, Eighth and Fourteenth Amendments, as well as Ring and

Hurst, violated when eligibility for the death penalty is asserted to be
decided when a jury finds aggravating circumstances, but eligibility—in
practice—is actually decided by a three-judge panel?

i

LIST OF PARTIES
The caption of the case, as denoted on the cover page, contains the names of
all parties to this proceeding.

ii

QUESTION PRESENTED …………………………………………………………………....i
TABLE OF CONTENTS ……………………………………………………………………..iii
INDEX TO APPENDICES …………………………………………………………………..iv
TABLE OF AUTHORITIES …………………………………………………………………vi
PETITION FOR WRIT OF CERTIORARI …………………………………………………1
DECISIONS BELOW …………………………………………………………………………1
STATEMENT OF JURISDICTION …………………………………………………………2
CONSTITUTIONAL PROVISIONS INVOLVED …………………………………………5
STATEMENT OF THE CASE ……………………………………………………………….5
REASONS FOR GRANTING THE PETITION ………………………………………….10
I.

Whether the Sixth, Eighth and Fourteenth Amendments, as well as
Ring and Hurst, are violated when eligibility for the death penalty is
asserted to be decided when a jury finds aggravating circumstances, but
eligibility—in practice—is actually decided by a three-judge panel. ….10

CONCLUSION ……………………………………………………………………………….21

iii

INDEX TO APPENDICES
Appendix A:

Nebraska Supreme Court Opinion, Hessler v. State, 305
Neb. 451 (2020)

Appendix B:

District Court Order Denying Amended Motion for
State
v.
Hessler,
No.
Postconviction
Relief,
D21CR030000039 (June 5, 2019).

Appendix C:

Nebraska Supreme Court Opinion Affirming Denial of
Motion for Postconviction Relief and Petition for Writ of
Error Coram Nobis Challenging No contest Plea for First
Degree Sexual Assault of a Child, State v. Hessler, 295
Neb. 70 (2016)

Appendix D:

District Court Memorandum Order Denying Motion for
Postconviction Relief and Petition for Writ of Error Coram
Nobis, State v. Hessler, No. CR-03-40 (September 25,
2015).

Appendix E:

District Court Memorandum Order Granting an
Evidentiary Hearing on Motion for Postconviction Relief
and Petition for Writ of Error Coram Nobis, State v.
Hessler, No. CR-03-40 (May 31, 2013).

Appendix F:

Nebraska Supreme Court Opinion Affirming Denial of
Successive Petition for Postconviction Relief and Petition
for Writ of Error Coram Nobis, State v. Hessler, 288 Neb.
670 (2014).

Appendix G:

District Court Order Denying Evidentiary Hearing and
Successive Petition for Postconviction Relief and Petition
for Writ of Error Coram Nobis, No. CR 03-39 (September
11, 2013).

Appendix H:

Nebraska Supreme Court Opinion Affirming Denial of
Postconviction Relief, State v. Hessler, No. S-11-379, 2011
WL 6450616, 282 Neb. 935 (Neb.).

Appendix I:

District Court Order Denying Motion for Postconviction
Relief, No. CR 03-39 (April 11, 2011).
iv

Appendix J:

Nebraska Supreme Court Opinion Affirming the District
Court on Direct appeal, State v. Hessler, 274 Neb. 478
(2007).

v

Cases

TABLE OF AUTHORITIES

Apprendi v. United States, 530 U.S. 466, 120 S. Ct. 2348 (2000) ……….......11, 12, 20
Clemons v. Mississippi, 494 U.S. 738, 745, 110 S.Ct. 1441, 1446 (1990) ……….10, 16
Eddings v. Oklahoma, 455 U.S. 104, 113-114, 102 S.Ct. 869) ………………………...16
Hamling v. United States, 418 U.S. 87, 117, 94 S.Ct. 2887 (1974) …………………..11
Hessler v. State, 305 Neb. 451 (2020) ………………………………………………………2
Hurst v. Florida, 136 S.Ct. 616 (2016) ………………….....4, 6, 9, 13, 14, 16, 19, 20, 21
Jones v. United States, 526 U.S. 227, 119 S. Ct. 1215 (1999) ………………………...11
McKinney v. Arizona, 140 S.Ct.702 (2020) ………………………………………9, 16, 18
Poland v. Arizona, 476 U.S. 147, 106 S.Ct. 1749, 1755 (1986) ……………………….10
Ring v. Arizona, 536 U.S. 584 (2002) ………………………..…4, 6, 9, 12, 16, 19, 20, 21
State v. Ellis, 281 Neb. 571, 577, 799 N.W.2d 267, 280 (2011) ……………………….20
State v. Hessler, 274 Neb. 478, 741 N.W.2d 406 (2007) ………………………………..13
State v. Hessler, No. CR-03-39 (April 11, 2011) ……………………………….………….1
State v. Hessler, No. S-11-379, 2011 WL 6450616 (Neb.) ………………………….……1
State v. Hessler, No. CR-03-40 (May 31, 2013) …………………………………………...2
State v. Hessler, No. CR-03-39 (September 11, 2013) ……………………………….…..1
State v. Hessler, 288 Neb. 670 (2014) ………………………………………………………1
State v. Hessler, No. CR-03-40 (September 25, 2015) ……………………………………2
State v. Hessler, 295 Neb. 70 (2016) ………………………………………………….........2
State v. Hessler, No. D21CR030000039 (June 5, 2019) …………………………………2
State v. Lotter, 301 Neb. 125 (2018) ………………………………………………………16
State v. Sandoval, 280 Neb. 309, 319, 788 N.W.2d 172, 191 (2010) ………………….20
United States v. Gaudin, 515 U.S. 506, 509–510, 115 S.Ct. 2310 (1995) ……………11
Walton v. Arizona, 497 U.S. 639, 110 S.Ct. 3047 (1990) …………………………..10, 12
vi

Table of Authorities (cont.)
Statutes and Rules
28 U.S.C. § 1257(a) ……………………………………………………………………………3
Fla. Stat. Ann. § 921.14 …………………………………………………………………..…14
Neb. Rev. State. § 29-2520–29-2525 ………………………………………………………..6
Neb. Rev. Stat. § 29-2520 ……………………………………………………...14, 15, 18, 19
Neb. Rev. Stat. § 29-2521 …………………………………………………………………...15
Neb. Rev. Stat. § 29-2522 ………………………………………………………………16, 19
Neb. Rev. Stat. § 29-2523 …………………………………………………………………….6
Supreme Court Rule 13.1 ………………………………………………………………….....4
Supreme Court Rule 29 ………………………………………………………………………4
Constitutional Provisions
U.S. Const. Amend. VI 1…………………………………………………….. 5, 6, 14, 19, 21
U.S. Const. Amend VIII ………………………………………………………5, 6, 14, 19, 21
U.S. Const. Amend XIV ………………………………………………………5, 6, 14, 19, 21

vii

PETITION FOR WRIT OF CERTIORARI
Petitioner, Jeffrey Hessler, respectfully requests that a writ of certiorari issue
to review the decision of the Nebraska Supreme Court that affirmed the district
court’s holding that Hessler’s motion for postconviction relief was time barred, which
it denied without a hearing.
DECISIONS BELOW
The Nebraska Supreme Court’s November 30, 2007 opinion affirming the
district court on direct appeal is reported at 274 Neb. 478 (2007). It appears in the
Appendix at App. J. The district court’s April 11, 2011 order denying Mr. Hessler’s
motion for postconviction relief is not reported. It appears in the Appendix at I. The
Nebraska Supreme Court’s December 23, 2011 order affirming the denial of Mr.
Hessler’s petition for postconviction relief is found at 2011 WL 6450616 (Neb.); it
appears in the Appendix at App. H.
On August 24, 2012, Mr. Hessler filed a successive petition for postconviction
relief and petition for writ of error coram nobis in the District Court for Scotts Bluff
County, Nebraska. The district court denied relief on this petition on September 11,
2013. It appears in the Appendix at App. G. This denial was appealed to the Nebraska
Supreme Court, which affirmed the denial of relief on July 25, 2014 and is reported
at 288 Neb. 670 (2014). It appears in the Appendix at App. F.
Mr. Hessler also challenged his conviction of First Degree Sexual Assault on a
Child in a petition filed in the District Court of Scotts Bluff County, Nebraska, on
1

August 24, 2012. This prior conviction was alleged by the State of Nebraska and found
by the sentencing jury to be an aggravating circumstance. After considering this
petition, the district court determined the allegations in the petition merited an
evidentiary hearing. This order, dated May 31, 2013, appears in the Appendix at App.
E.
The evidentiary hearing was held on April 13, 2015, and the district court
denied the motion on September 25, 2015. It appears in the Appendix at App D.
Hessler appealed the denial to the Nebraska Supreme Court, which affirmed the
district court’s denial on October 28, 2016. It is reported at 295 Neb. 70 (2016) and
appears in the Appendix at App. C.
A verified motion for post-conviction relief was filed on August 14, 2016
challenging Nebraska’s sentencing scheme as unconstitutional under Hurst v.

Florida, 136 S.Ct. 616 (2016) and Ring v. Arizona, 536 U.S. 584 (2002). An amended
motion was filed on October 25, 2016. The motion was denied via an unreported order
dated June 5, 2019, that appears in the Appendix at App. B. Mr. Hessler appealed
the denial to the Nebraska Supreme Court, which affirmed the district court’s denial
in its April 3, 2020 order reported at 305 Neb. 451 (2020); the order appears in the
Appendix at App. A.
STATEMENT OF JURISDICTION
The Nebraska Supreme Court’s decision denying Mr. Hessler’s motion for
postconviction relief is a final decree rendered by the highest court of the State of
2

Nebraska. Accordingly, certiorari is proper under 28 U.S.C. § 1257(a) which provides
“Final judgments or decrees rendered by the highest court of a State in which a
decision could be had, may be reviewed by the Supreme Court by writ of certiorari
where the validity of a treaty or statute of the United States is drawn in question or
where the validity of a statute of any State is drawn in question on the ground of its
being repugnant to the Constitution, treaties, or laws of the United States, or where
any title, right, privilege, or immunity is specially set up or claimed under the
Constitution or the treaties or statutes of, or any commission held or authority
exercised under, the United States.”
The Nebraska Supreme court issued its opinion affirming the district court on
direct appeal, on November 30, 2007. Thereafter, on August 24, 2012, Mr. Hessler
filed two separate motions for postconviction relief and petitions for writ of error
coram nobis in Scotts Bluff County: one motion dealt with his capital murder
conviction and sentence and the other motion dealt with his accepted guilty plea to
first degree sexual assault on a child, which served as the basis for an aggravating
circumstance in his capital murder trial. The former, capital-murder related petition
was denied by the district court on September 11, 2013, and affirmed by the Nebraska
Supreme Court on July 25, 2014. The latter, sexual-assault-related petition led the
district court to grant Mr. Hessler an evidentiary hearing in an order entered May
31, 2013. The evidentiary hearing was held on April 13, 2015, with the district court
entering its order denying Mr. Hessler’s motion on September 25, 2015. Hessler
3

appealed the denial to the Nebraska Supreme Court, which affirmed the district
court’s denial on October 28, 2016.
A verified motion for post-conviction relief was filed on August 14, 2016,
challenging Nebraska’s sentencing scheme as unconstitutional under Hurst v.

Florida, 136 S.Ct. 616 (2016) and Ring v. Arizona, 536 U.S. 584 (2002). An amended
motion was filed on October 25, 2016. The district court denied the motion in a June
5, 2019 order. Mr. Hessler appealed the denial to the Nebraska Supreme Court, which
affirmed the district court’s denial in an April 3, 2020 order. Mr. Hessler filed a
motion to stay the mandate in order to allow a certiorari petition to be filed with this
Court on Mr. Hessler’s behalf. The motion was granted in an order dated April 21,
2020.
This petition is timely under Supreme Court Rule 13.1, which provides that a
petition for writ of certiorari to review a judgment entered by a state court of last
resort is timely when filed with the Clerk of this Court within 90 days after entry of
the judgment. This petition has been filed in accordance with Supreme Court Rule
29.

4

CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Amendment provides: “In all criminal prosecutions, the accused
shall enjoy the right to a speedy and public trial, by an impartial jury[.]” The Eighth
Amendment states: “Excessive bail shall not be required, nor excessive fines imposed,
nor cruel and unusual punishments inflicted.” The Fourteenth Amendment provides
in pertinent part that no State shall “deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.”
STATEMENT OF THE CASE
Mr. Hessler seeks review of the Nebraska Supreme Court’s order affirming the
district court’s denial of his amended motion for postconviction relief on claims that
his conviction and sentence were imposed in violation of the Sixth, Eighth and
Fourteenth Amendments, as well as the decisions in Ring and Hurst.
Mr. Hessler was convicted of capital murder and sentenced to death by a
Scottsbluff, Nebraska jury in 2004. On December 8, 2004, an aggravation hearing
was held. Mr. Hessler was not present in court for the hearing. Despite Mr. Hessler’s
absence from the hearing, on December 9, 2004, the same jury found the existence of
the three aggravating circumstances alleged by the prosecution. This would be the
extent of the jury’s role in determining Mr. Hessler’s sentence.
On May 16, 2005, a three-judge panel, including the trial judge, was convened
pursuant to Nebraska’s statutory-capital-sentencing scheme to determine whether
5

Mr. Hessler should be sentenced to death or life imprisonment. See Neb. Rev. Stat. §
29-2520—§ 29-2525 (1995 reissue). Mr. Hessler—who had previously been found on
March 31, 2005, to have “knowingly, intelligently, and voluntarily decided to
represent himself”—continued pro se during this proceeding.
After hearing the evidence, the three-judge panel found all three aggravating
circumstances beyond a reasonable doubt under Nebraska Revised Statute § 29-2523:
under (1)(a) that the “offender was previously convicted of another murder or a crime
involving the use or threat of violence to the person, or has a substantial prior history
of serious assaultive or terrorizing criminal activity”; under (1)(b) that the “murder
was committed in an effort to conceal the commission of a crime, or to conceal the
identity of the perpetrator of such crime”; and under (1)(d) that the “murder was
especially heinous, atrocious, cruel, or manifested exceptional depravity by ordinary
standards of morality and intelligence[.]” The panel then considered mitigating
circumstances but unanimously concluded that no statutory or non-statutory
mitigating factors were established in this case.
Finding that the aggravating circumstances were severe and mitigating
circumstances, if any, were far from compelling, the three-judge panel unanimously
concluded that an imposition of death in this case would not be excessive or
disproportionate to the sentences previously imposed in the same or similar
circumstances. It then sentenced Mr. Hessler to death for first-degree premeditated
murder. Following Mr. Hessler’s direct appeal, the Nebraska Supreme Court, issued
6

an opinion affirming the district court on November 30, 2007.
Thereafter, Mr. Hessler petitioned for postconviction relief in Scotts Bluff
County asserting that both trial and appellant counsel were ineffective. This district
court denied the petition, which was affirmed by the Nebraska Supreme Court on
December 23, 2011, asserting that Mr. Hessler failed to prove prejudice.
On August 24, 2012, Mr. Hessler filed a successive verified petition for
postconviction relief and petition for writ of error coram nobis challenging his
conviction and sentence in the District Court for Scotts Bluff County, Nebraska.
Therein, he asserted that the claims he then made were unavailable to him at the
time of the trial and would have “prevented” the outcome. He specifically raised
sixteen claims that can be grouped into four categories—evidentiary claims,
ineffective-assistance claims, mental-competency claims, and unfair-trial claims—in
addition to a claim that the cumulative error of the claims entitled him to
postconviction or coram nobis relief.
The district court found that Mr. Hessler failed to show that had counsel called
for a competency hearing, he would have been found incompetent to stand trial and
waive counsel. It further found that the majority of Mr. Hessler’s claims were issues
previously known to him and either were or could have been litigated either on direct
appeal or in the first postconviction claim. Accordingly, it denied that Mr. Hessler
was entitled to an evidentiary hearing and denied the relief he requested in a
Memorandum Order entered September 11, 2013. The Nebraska Supreme Court
7

affirmed the denial on July 25, 2014.
Mr. Hessler also challenged his conviction of first degree sexual assault on a
child in the District Court of Scotts Bluff County, Nebraska, in a separately-filed
verified petition for postconviction relief and petition for writ of error coram nobis on
August 24, 2012. This prior conviction was alleged by the State of Nebraska, and the
three-judge panel accepted the jury’s recommendation of the same, as an aggravating
circumstance.
Therein, Mr. Hessler sought to vacate or set aside his accepted no contest plea
for first degree sexual assault on a child—and his resulting sentence—from which he
failed to appeal. Mr. Hessler argued that he was not competent to plead no contest to
the charge and that his counsel was ineffective for 1) advising him to plead no contest
to the charge, 2) failing to discover and present mitigating evidence at the sentencing
hearing and 3) failing to advise him to appeal. The district court granted Mr. Hessler
an evidentiary hearing in an order dated May 31, 2013.
The evidentiary hearing was held on April 13, 2015. Following the evidentiary
hearing, the district court denied Mr. Hessler’s motion on September 25, 2015. It
found that Mr. Hessler’s evidence “failed to demonstrate a reasonable probability that
he was, in fact, incompetent to enter a [plea] of no-contest . . . or that the trial court
would have found him incompetent had a hearing been conducted[;]” failed to prove
his “trial counsel were not effective by attempting novel legal defenses[,]” i.e. that
counsel’s actions were trial strategy; and that Mr. Hessler failed to provide any
8

evidence that he ever requested to appeal his conviction or sentence and had shown
no prejudice from counsel’s failure to file an appeal. Mr. Hessler appealed the denial
to the Nebraska Supreme Court, which affirmed the district court’s denial on October
28, 2016.
A verified motion for post-conviction relief was filed on August 14, 2016,
challenging Nebraska’s sentencing scheme as unconstitutional under Hurst v.

Florida, 136 S.Ct. 616 (2016) and Ring v. Arizona, 536 U.S. 584 (2002). An amended
motion was filed on October 25, 2016.
In its June 5, 2019 order, the district court denied the motion, finding that
“[t]he holding in the Hurst case does not create a new legal rule but rather applies
the principles in Ring v. Arizona.” Mr. Hessler appealed the denial to the Nebraska
Supreme Court, which affirmed the district court’s denial in an April 3, 2020 order,
and added even if Mr. Hessler’s motion was not time-barred, “there is no merit to the
underlying premise of Hessler’s postconviction claims” because:

McKinney [v. Arizona, 140 S.Ct.702 (2020)] explained:
Under Ring and Hurst, a jury must find the aggravating circumstance
that makes the defendant death eligible. But importantly, in a capital
sentencing proceeding just as in an ordinary sentencing proceeding, a
jury (as opposed to a judge) is not required to weigh the aggravating and
mitigating circumstances or to make the ultimate sentencing decision
within the relevant sentencing range.
Despite affirming the denial of Mr. Hessler’s motion, the Nebraska Supreme Court
stayed issuance of its mandate to allow Mr. Hessler to seek review in this Court.

9

REASONS FOR GRANTING THE PETITION
I.

The Sixth, Eighth and Fourteenth Amendments, as well as Ring and
Hurst, are violated when eligibility for the death penalty is asserted to
be decided when a jury finds aggravating circumstances, but
eligibility—in practice—is actually decided by a three-judge panel.

The United States Supreme Court, in a series of decisions spanning a number
of years, has addressed the issue of what facts are required to be submitted for jury
determination. In Walton v. Arizona, 497 U.S. 639, 110 S.Ct. 3047 (1990)—where the
defendant was sentenced to death by a trial court after a jury found the defendant
guilty of committing first-degree murder—the United States Supreme Court stated
that “[a]ny argument that the Constitution requires that a jury impose the sentence
of death or make the findings prerequisite to imposition of such a sentence has been
soundly rejected by prior decisions of this Court.” Walton, 497 U.S. at 647–48, 110 S.
Ct. at 3054 (quoting Clemons v. Mississippi, 494 U.S. 738, 745, 110 S.Ct. 1441, 1446
(1990)). It further held that Walton’s suggestion that Arizona’s aggravating factors
were “elements of the offense” as opposed to sentencing “considerations” lacked merit
because “[a]ggravating circumstances are not separate penalties or offenses, but are
‘standards to guide the making of [the] choice’ between the alternative verdicts of
death and life imprisonment. Thus, under Arizona’s capital sentencing scheme, the
judge’s finding of any particular aggravating circumstance does not of itself ‘convict’
a defendant (i.e., require the death penalty), and the failure to find any particular
aggravating circumstance does not ‘acquit’ a defendant (i.e., preclude the death
penalty).” Walton, 497 U.S. at 648, 110 S. Ct. at 3054 (quoting Poland v. Arizona, 476
10

U.S. 147, 106 S.Ct. 1749, 1755 (1986)).
In Jones v. United States, 526 U.S. 227, 119 S. Ct. 1215 (1999), the Court
stated “[m]uch turns on the determination that a fact is an element of an offense
rather than a sentencing consideration, given that elements must be charged in the
indictment, submitted to a jury, and proven by the Government beyond a reasonable
doubt. Jones, 526 U.S. at 232, 119 S. Ct. at 1219 (citing Hamling v. United States,
418 U.S. 87, 117, 94 S.Ct. 2887 (1974); United States v. Gaudin, 515 U.S. 506, 509–
510, 115 S.Ct. 2310 (1995)). The Jones Court went on to state that “under the Due
Process Clause of the Fifth Amendment and the notice and jury trial guarantees of
the Sixth Amendment, any fact (other than prior conviction) that increases the
maximum penalty for a crime must be charged in an indictment, submitted to a jury,
and proven beyond a reasonable doubt.” Jones, 526 U.S. at 243, n. 6, 119 S. Ct. at
1215.
Then in Apprendi v. United States, 530 U.S. 466, 120 S. Ct. 2348 (2000), the
Court ultimately held that “[o]ther that the fact of a prior conviction, any fact that
increases the penalty for a crime beyond the prescribed statutory maximum must be
submitted to a jury, and proved beyond a reasonable doubt.”Apprendi, 530 U.S. at
490, 120 S. Ct. at 2362–63. It stated, regarding the elemental nature of a factor, the
relevant inquiry is not one of form but effect, namely, “does the required finding
expose the defendant to a great punishment than that authorized by the jury’s guilty
verdict?” Apprendi, 530 U.S. at 494, 120 S. Ct. at 2365. In answering the question, it
11

held that the New Jersey Supreme Court’s recognition that “[l]abels do not afford an
acceptable answer” to whether a finding is characterized as one of intent or motive,
likewise applies to the “constitutionally novel and elusive distinction between
‘elements’ and ‘sentencing factors.’” Apprendi, 530 U.S. at 494, 120 S. Ct. at 2365.
Two years later in Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428 (2002), the
United States Supreme Court overruled Walton “to the extent that it allows a
sentencing judge, sitting without a jury, to find an aggravating circumstance
necessary for imposition of the death penalty.” Ring, 536 U.S. at 609, 122 S.Ct. at
2443 (citing Walton, 497 U.S., at 647–649, 110 S.Ct. 3047). The Ring Court stated
Arizona’s enumerated aggravating factors operate as “the functional equivalent of an
element of a greater offense,” which is required by the Sixth Amendment to be found
be a jury. Ring, 536 U.S. at 609, 122 S. Ct. at 2443 (citing Apprendi, 530 U.S., at 494,
n. 19, 120 S.Ct. 2348. This years-long back-and-forth was the legal backdrop at the
time of Mr. Hessler’s case.
Mr. Hessler was charged by an information filed on February 26, 2003, with
the premeditated murder of Heather Guerrero, the felony murder of Ms. Guerrero as
well as kidnaping, first degree sexual assault, and the use of a firearm to commit first
degree murder. The information also alleged three aggravating circumstances: that
1) Mr. Hessler has a substantial prior history of serious assaultive or terrorizing
criminal activity; 2) the murder was committed in an effort to conceal the commission
of the crimes of kidnaping and first degree sexual assault of Heather Guerrero and
12

the crime of first degree sexual assault of J. B.; and 3) the murder was especially
heinous, atrocious, cruel, or manifested exceptional depravity by ordinary standards
of morality and intelligence. In July of 2003, in a separate case, Mr. Hessler pled
guilty to the sexual assault charge alleged as an aggravating circumstance in this,
his capital murder case. He was sentenced in that case in August of 2003.
On November 30, 2004, trial began in this matter in Scotts Bluff County. A
jury found Mr. Hessler guilty of first degree murder, kidnapping, first degree sexual
assault and use of a firearm to commit a felony. Immediately thereafter, the same
jury found the existence of the three aggravating circumstances alleged by the
prosecution. On May 16, 2005, a panel of three judges conducted a sentencing
determination hearing. This same panel then sentenced Mr. Hessler to death. The
Nebraska Supreme Court affirmed this conviction and sentence of death on direct
appeal. State v. Hessler, 274 Neb. 478, 741 N.W.2d 406 (2007). Multiple filings,
denials and affirmances, followed the affirmance of Mr. Hessler’s direct appeal,
during which time Hurst v. Florida, 288 Neb. 670, 850 N.W2d 777 (2014) was decided.
The Hurst court held unconstitutional Florida’s sentencing scheme in which a
penalty-phase jury made a sentencing recommendation, but state law required a
judge to hold a separate hearing and determine whether sufficient aggravating
circumstances existed to justify imposing the death penalty. Hurst, 136 S. Ct. at 619;

13

see Fla. Stat. Ann. § 921.14. 1 It held “the Sixth Amendment requires a jury, not a
judge, to find each fact necessary to impose a sentence of death[,]” not just to offer a
recommendation. Hurst, 136 S. Ct. at 619.
A verified Motion for Post-Conviction relief was filed by Mr. Hessler on August
14, 2016, challenging Nebraska’s sentencing scheme as unconstitutional under

Hurst—a case yet to be decided at the time of the decision on his latest petition—and
the Sixth and Fourteenth Amendments because Nebraska’s death penalty statutes
do not require a unanimous jury recommendation regarding whether a death
sentence should be imposed. An amended motion was filed on October 25, 2016,
adding an Eighth Amendment violation to Claim One and incorporating the Florida
Supreme Court’ s decision in Hurst on remand. Mr. Hessler argued that Nebraska’s
sentencing scheme was in violation of not only the Sixth Amendment for allowing a
three-judge panel, instead of a jury, to determine facts necessary to impose a death
sentence, but also the Eighth and Fourteenth Amendments to the extent that the
Nebraska’s statutes do not require a unanimous recommendation from a jury
regarding whether a death sentence should be imposed. 2

14
1
The court refers to the jury as an “advisory jury”, Hurst, 136 S. Ct. at 620, 622 and its recommendation as an
“advisory sentence” that Hurst, 136 S. Ct. at 620.

The aggravating circumstance findings must be unanimously determined by the jury, but the death sentence
determination is made by a unanimous three-judge panel, not a unanimous jury determination. (See Neb. Rev. Stat. §
29-2520(4)(f)).
2

Nebraska’s statutes provide that “[w]hen a person has been found guilty of
murder in the first degree and a jury renders a verdict finding the existence of one or
more aggravating circumstances as provided in section 29-2520 [. . .] the sentence of
such person shall be determined by: [a] panel of three judges, including the judge who
presided at the trial of guilt or who accepted the plea and two additional active district
court judges named at random by the Chief Justice of the Supreme Court.” Neb. Rev.
Stat. § 29-2521(1)(a). Accordingly, the jury finds the existence of aggravating factors
only; not mitigating factors. See Neb. Rev. Stat. § 29-2521(1); see also Neb. Rev. Stat.
§ 29-2520(4)(a) (“At an aggravation hearing before a jury for the determination of the
alleged aggravating circumstances, the state may present evidence as to the existence
of the aggravating circumstances alleged in the information.”), (4)(c) (“If the jury
serving at the aggravation hearing is the jury which determined the defendant’s guilt,
the jury may consider evidence received at the trial of guilt for purposes of reaching
its verdict as to the existence or nonexistence of aggravating circumstances in
addition to the evidence received at the aggravation hearing.”), (4)(f) (“The jury at the
aggravation hearing shall deliberate and return a verdict as to the existence or
nonexistence of each alleged aggravating circumstance.”), and (4)(g) (“Upon rendering
its verdict as to the determination of the aggravating circumstances, the jury shall be
discharged.”). Evidence regarding mitigation and sentence excessiveness or
disproportionality is only submitted to the three-judge panel. See Neb. Rev. Stat. §
29-2521(3).
15

After a jury finds a defendant guilty of first-degree murder, and determines
whether one or more statutory aggravating circumstances existed, Nebraska Revised
Statute § 29-2522 states “[t]he panel of judges for the sentencing determination
proceeding shall either unanimously fix the sentence at death or, if the sentence of
death was not unanimously agreed upon by the panel, fix the sentence at life
imprisonment.” It goes on to state that the “sentence determination must be made
on” certain, enumerated considerations, specifically:
(1) Whether the aggravating circumstances as determined to exist justify
imposition of a sentence of death;
(2) Whether sufficient mitigating circumstances exist which approach or
exceed the weight given to the aggravating circumstances; or
(3) Whether the sentence of death is excessive or disproportionate to the
penalty imposed in similar cases, considering both the crime and the
defendant.
Neb. Rev. Stat. § 29-2522(1)–(3).
In its June 5, 2019 order, the district court denied Mr. Hessler’s motion, finding
that “[t]he holding in the Hurst case does not create a new legal rule but rather
applies the principles in Ring[.]” It cited State v. Lotter, 301 Neb. 125 (2018) as having
an “identical” claim for relief, the denial of which was affirmed on appeal.
Mr. Hessler appealed the denial to the Nebraska Supreme Court, which
affirmed the district court’s denial in an April 3, 2020 order, and added even if Mr.
Hessler’s motion was not time-barred, “there is no merit to the underlying premise of
Hessler’s postconviction claims” because:
16

McKinney [v. Arizona, 140 S.Ct.702 (2020)] explained:
Under Ring and Hurst, a jury must find the aggravating circumstance that
makes the defendant death eligible. But importantly, in a capital sentencing
proceeding just as in an ordinary sentencing proceeding, a jury (as opposed to
a judge) is not required to weigh the aggravating and mitigating circumstances
or to make the ultimate sentencing decision within the relevant sentencing
range.
The pertinent facts are that nearly 20 years later, on federal habeas corpus
review, an en banc panel of the U.S. Court of Appeals for the Ninth Circuit held that
the sentencing judge had failed to properly consider McKinney’s posttraumatic stress
disorder, further stating that a capital sentencer may not refuse as a matter of law
to consider relevant mitigating evidence. Id. (citing Eddings v. Oklahoma, 455 U.S.
104, 113-114, 102 S.Ct. 869). Upon remand, the Arizona Supreme Court agreed with
the state that it was proper for the Court to conduct a reweighing of the aggravating
and mitigating circumstances as permitted by Clemons v. Mississippi, 494 U.S. 738,
110 S.Ct. 1441, 108 L.Ed.2d 725 (1990), rather than to have McKinney’s resentencing
heard by a jury, for which McKinney had argued. McKinney, 140 S. Ct. at 706. The

McKinney Court held that Ring and Hurst did not require jury weighing of
aggravating circumstances and mitigating circumstances, and that Ring and Hurst
did not overrule Clemons so as to prohibit appellate reweighing of aggravating
circumstances and mitigating circumstances. McKinney, 140 S. Ct. at 708. Both the
facts and Nebraska’s statutes make it clear that the jury did not weigh aggravating
circumstances and mitigating circumstances for mitigating circumstances are not
submitted to the jury. Evidence of mitigating circumstances—and any other evidence
17

that may have been relevant to context of who Mr. Hessler was, the crime he
committed and the appropriate sentence he should receive—were never before the
jury. According to Nebraska statutes, the only evidence received by the jury at the
aggravation hearing is any evidence supporting the aggravating circumstance and
“may” also include “evidence received at the trial of guilt for purposes of reaching its
verdict[.]” Neb. Rev. Stat. § 29-25020(4)(c) (“If the jury serving at the aggravation
hearing is the jury which determined the defendant's guilt, the jury may consider
evidence received at the trial of guilt for purposes of reaching its verdict as to the
existence or nonexistence of aggravating circumstances in addition to the evidence
received at the aggravation hearing.”).
Mr. Hessler does not here argue that the Nebraska statutes are invalid because
they allow a three-judge panel to weigh aggravating circumstances and mitigating
circumstances, though he avers that aggravating circumstances should not be
permitted to be submitted to the jury in a vacuum for mitigating circumstances and
evidence of sentence excessiveness or disproportionality—which are provided to the
three-judge panel—give context to both the crime and appropriateness of the
sentence. He affirms that there is no reweighing here where the jury is not allowed
to weigh aggravating circumstances against mitigating circumstances to begin with.
However, Mr. Hessler does contend that because he does not argue that the Nebraska
statutes are unconstitutional for allowing a three-judge panel to weigh relevant
evidence, McKinney does not apply. More importantly, Mr. Hessler argues that the
18

Sixth, Eighth and Fourteenth Amendments, as well as Ring and Hurst, are violated
when eligibility for the death penalty is asserted to be decided when a jury finds
aggravating circumstances, but eligibility—in practice—is actually decided by a
three-judge panel.
Nebraska Revised Statute § 29-2520 requires, upon the jury’s determination
that an aggravating factor exists, that a sentencing hearing be held before a threejudge panel. Neb. Rev. Stat. § 29-2520(4)(h) (“If one or more aggravating
circumstances are found to exist, the court shall convene a panel of three judges to
hold a hearing to receive evidence of mitigation and sentence excessiveness or
disproportionality as provided in subsection (3) of section 29-2521”.). Nebraska
Revised Statute § 29-2522 states “[t]he panel of judges for the sentencing
determination proceeding shall either unanimously fix the sentence at death or, if the
sentence of death was not unanimously agreed upon by the panel, fix the sentence at
life imprisonment.” Neb. Rev. Stat. § 29-2522. According to statute, if the jury finds
that an aggravating factor exists, it is up to the three-judge panel to determine
“[w]hether the aggravating circumstances as determined to exist justify imposition of
a sentence of death.” Neb. Rev. Stat. § 29-2522(1).
Regardless of the statutes’ form in stating that the three-judge panel simply
decides whether imposition of the death sentence is justified; the actual, practical
effect of the statutes is that the three-judge panel determines whether the
aggravating factor exists and correspondingly, whether a death sentence is
19

warranted. Apprendi, 530 U.S. at 494, 120 S.Ct. at 2365 (it is the effect, not the form,
that determines the nature of a fact as elemental or a sentencing factor). A death
sentence cannot be imposed on the jury’s findings alone. A sentencing determination
hearing must be held by a three judge panel and it is not until that panel makes
certain required findings that a sentence of death may be entered. E.g. State v.

Sandoval, 280 Neb. 309, 319, 788 N.W.2d 172, 191 (2010) (“After the jury determined
the existence of four aggravating factors, the court proceeded with the mitigation and
sentencing phase of the trial. [. . . ] The three-judge panel received evidence of
mitigation and sentence excessiveness or disproportionality.”); State v. Ellis, 281
Neb. 571, 577, 799 N.W.2d 267, 280 (2011) (“The jury found Ellis guilty of first degree
murder, and an aggravation hearing was held at which the jury found two
aggravating circumstances to exist. A three-judge sentencing panel sentenced Ellis
to death.”). This scheme violates Ring. Under Nebraska’s statutory scheme, the jury
is yet another impermissible “advisory jury” giving yet another impermissible
“advisory sentence.” See Fn. 1 citing Hurst, 136 S.Ct. at 620, 622. The jury’s
determination is therefore unconstitutional, as was held in Hurst.
In accordance with Nebraska’s statutes, Mr. Hessler was convicted by a jury
which, in effect, recommended that three aggravating circumstances existed and
recommended a death sentence. It was not until the statutorily-mandated hearing
that the aggravating circumstances were actually deemed to exist. It was not until
the statutorily-mandated hearing that Mr. Hessler was actually sentenced to death.
20

Mr. Hessler could not have been sentenced to death without the statutorilymandated hearing. Because, in practical effect, it is the three-judge panel’s
determination that sentenced Mr. Hessler to death—and not the jury’s
determination—the court should find that such an effect invalidates the asserted
form of Nebraska’s statutes and is unconstitutional in violation of the Sixth, Eighth
and Fourteenth Amendments, as well as Ring and Hurst.
CONCLUSION
WHEREFORE, for all the reasons set forth above, this Court should grant the
writ of certiorari to review the decision below.

Respectfully Submitted,
s/ Jerry M. Hug
209 S. 19th St, #323
Omaha, NE 68102
(402) 346-1733
jerry.hug@gmail.com
*Counsel for Jeffrey Hessler

21

State v. Hessler, 305 Neb. 451 (2020)
940 N.W.2d 836

305 Neb. 451
Supreme Court of Nebraska.

STATE of Nebraska, appellee,
v.
Jeffrey HESSLER, appellant.
No. S-19-652.
|
Filed April 3, 2020
Synopsis
Background: Inmate convicted of capital murder, 274 Neb. 478, 741 N.W.2d 406, filed petition for post-conviction relief,
alleging death sentence was invalid because Nebraska’s capital sentencing statutes violated his rights under the 6th, 8th, and
14th Amendments to the U.S. Constitution. The District Court, Scotts Bluff County, Andrea D. Miller, J., denied the petition,
and inmate appealed.

[Holding:] The Supreme Court, Stacy, J., held that United States Supreme Court ruling in Hurst v. Florida, 136 S. Ct. 616, did
not announce a new rule of law and thus did not trigger one-year limitations period for filing motion for postconviction relief.
Affirmed.
See also 282 Neb. 935, 288 Neb. 670.

West Headnotes (4)
[1]

Criminal Law

Review De Novo

In appeals from postconviction proceedings, an appellate court reviews de novo a determination that the defendant
failed to allege sufficient facts to demonstrate a violation of his or her constitutional rights or that the record and files
affirmatively show that the defendant is entitled to no relief.
2 Cases that cite this headnote
[2]

Criminal Law

Interlocutory, Collateral, and Supplementary Proceedings and Questions

Whether a claim raised in a postconviction proceeding is procedurally barred is a question of law which is reviewed
independently of the lower court’s ruling.
3 Cases that cite this headnote
[3]

Criminal Law

Time for proceedings

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

AppendixA
A
Appendix
1

State v. Hessler, 305 Neb. 451 (2020)
940 N.W.2d 836

United States Supreme Court ruling in Hurst v. Florida, 136 S. Ct. 616, did not announce a new rule of law, but rather
applied constitutional rule from Ring, and thus ruling did not trigger one-year limitations period for filing motion for
postconviction relief under the Nebraska Postconviction Act. Neb. Rev. Stat. § 29-3001(4)(d).

[4]

Constitutional Law
Jury

Fourteenth Amendment in general

Death penalty

Sentencing and Punishment

Procedure

Nebraska’s capital sentencing statutes do not violate the 6th, 8th, and 14th Amendments by allowing a panel of
judges, and not a jury, to make factual findings in imposing a death sentence, and by not requiring a unanimous
recommendation from a jury regarding whether a sentence of death should be imposed; jury is not constitutionally
required to weigh the aggravating and mitigating circumstances or to make the ultimate sentencing decision within
the relevant sentencing range. U.S. Const. Amends. 6, 8, 14.

Syllabus by the Court
*451 1. Postconviction: Constitutional Law: Appeal and Error. In appeals from postconviction proceedings, an appellate
court reviews de novo a determination that the defendant failed to allege sufficient facts to demonstrate a violation of his or her
constitutional rights or that the record and files affirmatively show that the defendant is entitled to no relief.
2. Postconviction: Judgments: Appeal and Error. Whether a claim raised in a postconviction proceeding is procedurally
barred is a question of law which is reviewed independently of the lower court’s ruling.
Appeal from the District Court for Scotts Bluff County: Andrea D. Miller, Judge. Affirmed.
Attorneys and Law Firms
Jerry M. Hug, Omaha, for appellant.
Douglas J. Peterson, Attorney General, and James D. Smith, Solicitor General, for appellee.
Heavican, C.J., Miller-Lerman, Cassel, Stacy, Funke, and Papik, JJ.
Opinion
Stacy, J.
**837 In October 2016, Jeffrey Hessler filed this motion for postconviction relief. The motion relies on the U.S. Supreme
Court’s decision in Hurst v. Florida1 and alleges Hessler’s death sentence is invalid because Nebraska’s capital sentencing
statutes violate Hessler’s rights under the 6th, 8th, and *452 14th Amendments to the U.S. Constitution. We addressed an
identical argument in State v. Lotter2 and held Hurst was not a proper triggering event for the 1-year limitations period of the
Nebraska Postconviction Act.3 Citing Lotter, the district court found Hessler’s motion was time barred and denied it without
conducting an evidentiary hearing. Hessler appeals, and we affirm.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

AppendixA
A
Appendix
2

State v. Hessler, 305 Neb. 451 (2020)
940 N.W.2d 836

FACTS
In 2004, Hessler was convicted by a jury of first degree murder, kidnapping, first degree sexual assault, and use of a firearm
to commit a felony. He was sentenced to death on the murder conviction. He unsuccessfully challenged his convictions and
sentences on direct appeal4 and in two prior postconviction proceedings.5
On January 12, 2016, the U.S. Supreme Court decided Hurst.6 Hurst found that Florida’s capital sentencing scheme was
unconstitutional, because it required the trial court alone to find both that sufficient aggravating circumstances existed to
justify imposition of the death penalty and that there were insufficient mitigating circumstances to outweigh the aggravating
circumstances. Roughly 10 months after Hurst was decided, Hessler filed this successive motion for postconviction relief. The
motion asserts:
Jurisdiction is proper in this Court as the decision in Hurst v. Florida ... was issued by the United States Supreme Court on
January 12, 2016 and ... Hessler is asserting that Hurst is applicable in his case and therefore has one year from the date of
that decision to file this motion pursuant to ...§ 29-3001 ....
*453 Hessler’s motion relies on Hurst and alleges that Nebraska’s capital sentencing statutes7 violate the 6th, 8th, and 14th
Amendments. It specifically alleges the Sixth amendment is violated because the Nebraska statutes allow a panel of judges, and
not a jury, to “make factual findings in imposing a death sentence.” The motion further alleges “to the extent that Nebraska’s
death-penalty statutes do not require **838 a unanimous recommendation from a jury regarding whether a sentence of death
should be imposed, [the statutes] violate[ ] the 8th and 14th Amendments.”
Identical 6th, 8th, and 14th Amendment claims based on Hurst were raised in a successive motion for postconviction relief in
Lotter,8 and we rejected them in an opinion released September 28, 2018. We reasoned that the Nebraska Postconviction Act
contains a 1-year limitations period for filing a verified motion for postconviction relief, which runs from one of four triggering
events or from August 27, 2011, whichever is later.9 The triggering events under § 29-3001(4) are:
(a) The date the judgment of conviction became final by the conclusion of a direct appeal or the expiration of the time for
filing a direct appeal;
(b) The date on which the factual predicate of the constitutional claim or claims alleged could have been discovered through
the exercise of due diligence;
(c) The date on which an impediment created by state action, in violation of the Constitution of the United States or the
Constitution of Nebraska or any law of this state, is removed, if the prisoner was prevented from filing a verified motion
by such state action;
(d) The date on which a constitutional claim asserted was initially recognized by the Supreme Court of the United States
or the Nebraska Supreme Court, if the *454 newly recognized right has been made applicable retroactively to cases on
postconviction collateral review[.]
Like Hessler’s postconviction claims, the claims alleged in Lotter regarding the 6th, 8th, and 14th Amendments were all based
on Hurst, and the defendant in Lotter relied on the triggering event in § 29-3001(4)(d) to contend the claims were timely. We
rejected this contention.
We held in Lotter that Hurst could not trigger the 1-year statute of limitations under § 29-3001(4)(d), because Hurst did not
announce a new rule of law and merely applied the constitutional rule from the 2002 case of Ring v. Arizona.10 Lotter also held
that the “plain language of Hurst reveals no holding that a jury must find beyond a reasonable doubt that the aggravating factors
outweigh the mitigating circumstances.”11 Finally, Lotter reasoned that even if Hurst announced a new rule of law, it would not
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

AppendixA
A
Appendix
3

State v. Hessler, 305 Neb. 451 (2020)
940 N.W.2d 836

apply retroactively to cases on collateral review, because it was based on Ring and the U.S. Supreme Court has held that Ring
announced a procedural rule that does not apply retroactively.12 Having concluded in Lotter that Hurst did not announce a new
rule of law, we rejected the defendant’s contention that Hurst could trigger the 1-year statute of limitations under § 29-3001(4)
(d), and we found the defendant’s postconviction claims were time barred.13 The defendant’s petition for a writ of certiorari
was denied by the U.S. Supreme Court on June 17, 2019.14
Citing to our analysis and holding in Lotter, the district court here found that Hessler’s motion was time barred, and it **839
dismissed the motion without an evidentiary hearing. Hessler timely appealed.

*455 ASSIGNMENT OF ERROR
Hessler assigns, restated, that the district court erred in denying his postconviction motion without an evidentiary hearing,
because Nebraska’s capital sentencing scheme violates Hurst and the 6th, 8th, and 14th Amendments to the U.S. Constitution.

STANDARD OF REVIEW
[1] In appeals from postconviction proceedings, an appellate court reviews de novo a determination that the defendant failed
to allege sufficient facts to demonstrate a violation of his or her constitutional rights or that the record and files affirmatively
show that the defendant is entitled to no relief.15
[2] Whether a claim raised in a postconviction proceeding is procedurally barred is a question of law which is reviewed
independently of the lower court’s ruling.16

ANALYSIS
At oral argument before this court, Hessler conceded the claims made in his successive motion for postconviction relief are
identical to those raised and rejected by this court in Lotter. Hessler further conceded there was no factual distinction between his
postconviction claims and those asserted in Lotter, and he pointed to no change in the relevant law since our decision in Lotter.
[3] Our decision in Lotter is dispositive of the issues presented in this appeal, and Hessler does not contend otherwise. Hurst
did not announce a new rule of law, and thus it cannot trigger the 1-year statute of limitations under § 29-3001(4)(d). Because
this is the only triggering event relied upon by Hessler in contending that his postconviction claims are timely, we agree with
the district court that Hessler’s postconviction claims are time barred.
[4] For the sake of completeness, we note that even if Hessler’s claims were not time barred, they would not entitle him
to *456 postconviction relief. After oral arguments in this case, the U.S. Supreme Court decided McKinney v. Arizona.17
McKinney explained:
Under Ring and Hurst, a jury must find the aggravating circumstance that makes the defendant death eligible. But importantly,
in a capital sentencing proceeding just as in an ordinary sentencing proceeding, a jury (as opposed to a judge) is not
constitutionally required to weigh the aggravating and mitigating circumstances or to make the ultimate sentencing decision
within the relevant sentencing range.18
As such, McKinney makes clear there is no merit to the under-lying premise of Hessler’s postconviction claims.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

AppendixA
A
Appendix
4

State v. Hessler, 305 Neb. 451 (2020)
940 N.W.2d 836

We thus affirm the district court’s order denying postconviction relief without an evidentiary hearing.
Affirmed.

Freudenberg, J., not participating.
All Citations
305 Neb. 451, 940 N.W.2d 836
Footnotes
Hurst v. Florida, ––– U.S. ––––, 136 S. Ct. 616, 193 L. Ed. 2d 504 (2016).
1
State v. Lotter, 301 Neb. 125, 917 N.W.2d 850 (2018).
2
Neb. Rev. Stat. § 29-3001(4) (Reissue 2016).
3
State v. Hessler, 274 Neb. 478, 741 N.W.2d 406 (2007).
4
State v. Hessler, 282 Neb. 935, 807 N.W.2d 504 (2011); State v. Hessler, 288 Neb. 670, 850 N.W.2d 777 (2014).
5
Hurst, supra note 1.
6
See Neb. Rev. Stat. §§ 29-2521 to 29-2522 (Cum. Supp. 2018).
7
Lotter, supra note 2.
8
§ 29-3001(4).
9
Ring v. Arizona, 536 U.S. 584, 122 S. Ct. 2428, 153 L. Ed. 2d 556 (2002).
10
Lotter, supra note 2, 301 Neb. at 144, 917 N.W.2d at 864.
11
Schriro v. Summerlin, 542 U.S. 348, 124 S. Ct. 2519, 159 L. Ed. 2d 442 (2004).
12
Accord State v. Mata, 304 Neb. 326, 934 N.W.2d 475 (2019).
13
Lotter
v. Nebraska, ––– U.S. ––––, 139 S. Ct. 2716, 204 L. Ed. 2d 1114 (2019).
14
Mata, supra note 13.
15
Id.
16
McKinney v. Arizona, ––– U.S. ––––, 140 S. Ct. 702, –––, ––– L.Ed.2d –––– (2020).
17
Id., 140 S. Ct. at 707.
18
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

AppendixA
A
Appendix
5

Filed in Scotts Bluff District Court
*** EFILED ***
Case Number: D21CR030000039
Transaction ID: 0008787540
Filing Date: 06/05/2019 10:30:06 AM MDT

ORDER

IN THE DISTRICT COURT OF SCOTTS BLUFF COUNTY, NEBRASKA
STATE V. JEFFREY HESSLER

Case ID: CR03-39

This is a subsequent postconviction relief matter filed by Jeffrey
Hessler.

Mr. Hessler has filed prior postconviction relief motions which have

been denied by this court and upheld on appeal.

Mr. Hessler was found guilty

by a jury and sentenced to death by a three (3) judge panel.

Mr. Hessler now

claims his conviction is void or voidable under the findings of the United
State Supreme Court in Hurst v. Florida, 136 S.Ct. 616, (2016).
A brief schedule was set forth by Judge Randall Lippstreau prior to his
retirement.

The briefs have been submitted to Judge Andrea Miller and the

matter is ready for decision.
The requested relief by Mr. Hessler is denied.

The holding in the Hurst case

does not create a new legal rule but rather applies the principles in Ring v.
Arizona, 536 U.S. 584, 122 S.Ct 2428 (2002).

The Nebraska Supreme Court has

upheld a postconviction challenge to the dealth penalty based on the Hurst
decision.

State v. Lotter, 301 Neb. 125 (2018).

In the Lotter case, the

identical claim for relief was made to the district court in a postconviction
relief motion.

Mr. Lotter appealed his denial of relief which was affirmed on

appeal See State v. Lotter supra.

The Court in Lotter stated:

Even if we found that Hurst did announce a new law, it would not
apply retroactively to Lotter.
applied Ring.

As we concluded above, Hurst merely

And it is well established that Ring does not apply

retroactively to cases on collateral review.

The U.S. Supreme Court

Appendix B

declared that “Ring announced a new procedural rule that does not
apply retroactively to cases already final on direct review.” And in
one of Lotter’s previous postconviction appeals, we explained in
great detail why Ring did not apply retroactively to his case.
Likewise, Hurst has no retroactive application to cases on collateral
review.

Because Hurst is tethered to Ring, we see no reason why

Hurst would apply retroactively on collateral review when Ring does
not.

In considering an identical issue raised in Lotter’s petition

for habeas corpus, the Nebraska federal district court reached the
same conclusion.

Lotter appealed that decision, but the Eighth

Circuit denied his application for a certificate of appealability and
the U.S. Suprme Court denied his petition for certiorari.

We

observed that several federal circuit courts of appeals have found
that Hurst does not apply retroactively to cases on collateral
review.

Other federal courts agree.

Most state courts have reached

the same conclusion.
Hurst does not create a newly recognized right; under Neb. Rev. Stat. §29-3001
(4) as a consequence, the Motion for Post-Conviction Relief is dismissed.
IT IS SO ORDERED.

Andrea D Miller

Appendix B

I, the undersigned, certify that on June 5, 2019
, I served a copy of the foregoing
document upon the following persons at the addresses given, by mailing by United States Mail,
postage prepaid, or via E-mail:
Jeffrey Hessler
#59078, P.O. Box 2500
Lincoln, NE 68542-2500

Date:

June

5, 2019

Douglas L Warner
doug.warner@nebraska.gov

BY THE COURT:

_____________________________________
CLERK

Appendix B

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

295 Neb. 70
Supreme Court of Nebraska.

STATE of Nebraska, appellee,
v.
Jeffrey HESSLER, appellant.
No. S-15-960.
|
Filed October 28, 2016.
Synopsis
Background: Movant filed postconviction relief motion and petition for writ of error coram nobis challenging conviction
pursuant to no contest plea for first degree sexual assault on a child. The District Court, Scotts Bluff County, Randall L. Lippstreu,
J., overruled motion and denied petition. Movant appealed.

Holdings: The Supreme Court, Miller-Lerman, J., held that:
[1] claims relating to movant's mental incompetence and for ineffective assistance of counsel did not warrant coram nobis relief;
[2] movant was legally competent to enter no contest plea at the time of his conviction;
[3] trial counsel's advice to enter no contest plea did not constitute ineffective assistance of counsel;
[4] counsel's failure to discover and present mitigating evidence at sentencing was not ineffective assistance; and
[5] trial counsel's failure to advise movant to appeal and to raise certain issues on appeal did not constitute ineffective assistance.
Affirmed.

West Headnotes (24)
[1]

Criminal Law

Post-conviction relief

Findings of district court in connection with its ruling on a motion for a writ of error coram nobis will not be disturbed
unless they are clearly erroneous. Neb. Rev. Stat. § 49-101.

[2]

Criminal Law

Questions of law or fact

In an evidentiary hearing on a motion for postconviction relief, trial judge, as trier of fact, resolves conflicts in evidence
and questions of fact. Neb. Rev. Stat. § 29-3001 et seq.
1 Cases that cite this headnote

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 1

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

[3]

Criminal Law

Interlocutory, Collateral, and Supplementary Proceedings and Questions

Criminal Law

Post-conviction relief

Appellate court upholds trial court's findings in proceedings on motion for postconviction relief unless they are clearly
erroneous; in contrast, appellate court independently resolves questions of law. Neb. Rev. Stat. § 29-3001 et seq.
1 Cases that cite this headnote
[4]

Criminal Law

Interlocutory, Collateral, and Supplementary Proceedings and Questions

With regard to the questions of counsel's performance or prejudice to the defendant as part of the two-pronged test
for ineffective assistance of counsel claims, appellate court reviews such legal determinations independently of the
lower court’s decision in proceedings on motion for postconviction relief. U.S. Const. Amend. 6; Neb. Rev. Stat. §
29-3001 et seq.
1 Cases that cite this headnote
[5]

Criminal Law

Error Coram Nobis

Purpose of writ of error coram nobis is to bring before the court rendering judgment matters of fact which, if known
at the time the judgment was rendered, would have prevented its rendition. Neb. Rev. Stat. § 49-101.
1 Cases that cite this headnote
[6]

Criminal Law

Error Coram Nobis

Writ of error coram nobis reaches only matters of fact unknown to applicant at the time of judgment, not discoverable
through reasonable diligence, and which are of a nature that, if known by the court rendering judgment, would have
prevented entry of judgment. Neb. Rev. Stat. § 49-101.
2 Cases that cite this headnote
[7]

Criminal Law

Error Coram Nobis

Writ of error coram nobis is not available to correct errors of law. Neb. Rev. Stat. § 49-101.

[8]

Criminal Law

Factual questions or errors

Criminal Law

Burden of proof

Burden of proof in a proceeding to obtain a writ of error coram nobis is upon the applicant claiming error, and alleged
error of fact must be such as would have prevented a conviction; it is not enough to show that it might have caused
a different result. Neb. Rev. Stat. § 49-101.
1 Cases that cite this headnote
[9]

Criminal Law

Denial of fair trial

Criminal Law

Effectiveness of Counsel

Claims of error or misconduct at trial and ineffective assistance of counsel are inappropriate for coram nobis relief.
U.S. Const. Amend. 6; Neb. Rev. Stat. § 49-101.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 2

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

[10]

Criminal Law

Competency to stand trial

Criminal Law

Effectiveness of Counsel

Claims related to petitioner's alleged mental incompetence at time he pled no contest to first degree sexual assault on
a child and for ineffective assistance of trial counsel did not warrant coram nobis relief; petitioner did not identify a
fact that would have prevented entry of judgment, and substance of petitioner's claims was either not appropriate for
coram nobis relief or was without merit. U.S. Const. Amend. 6; Neb. Rev. Stat. § 49-101.

[11]

Criminal Law

Adequacy of Representation

Proper ineffective assistance of counsel claim alleges a violation of the fundamental constitutional right to a fair trial.
U.S. Const. Amend. 6.
1 Cases that cite this headnote
[12]

Criminal Law

Deficient representation and prejudice in general

To prevail on a claim of ineffective assistance of counsel, defendant must show that his or her counsel’s performance
was deficient and that this deficient performance actually prejudiced defendant. U.S. Const. Amend. 6.
5 Cases that cite this headnote
[13]

Constitutional Law
Criminal Law

Incompetency or Mental Illness

Right to plead guilty; mental competence

Defendant was legally competent to enter no contest plea at the time of his conviction for sexual assault on a child, and
thus trial court did not violate defendant's due process rights by accepting plea; at the time of his conviction, defendant
was able to provide counsel with background information and appeared reasonably intelligent and to understand the
evidence and strategy of the case, psychologist who treated defendant at time of conviction stated that defendant was
able to understand important aspects of the proceedings against him, and psychiatric nurse who treated defendant
stated that medications defendant was given helped him and that defendant's responses to nurse's questions were
appropriate. U.S. Const. Amend. 14.

[14]

Criminal Law

Right to plead guilty; mental competence

Mental Health

Mental disorder at time of trial

A person is competent to plead or stand trial if he or she has the capacity to understand the nature and object of the
proceedings against him or her, to comprehend his or her own condition in reference to such proceedings, and to
make a rational defense.
4 Cases that cite this headnote
[15]

Criminal Law

Right to plead guilty; mental competence

Mental Health

Mental disorder at time of trial

Test of mental capacity to plead is the same as that required to stand trial.
4 Cases that cite this headnote

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 3

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

[16]

Criminal Law

Right to plead guilty; mental competence

Criminal Law

Waiver of right to counsel

Court is not required to make a competency determination in every case in which a defendant seeks to plead guilty
or to waive his or her right to counsel; competency determination is necessary only when court has reason to doubt
defendant's competence. U.S. Const. Amend. 6.
5 Cases that cite this headnote
[17]

Criminal Law

Competence to stand trial; sanity hearing

In order to demonstrate prejudice, as element of ineffective assistance of counsel claim, from counsel’s failure to
investigate competency and for failing to seek a competency hearing, defendant must demonstrate that there is a
reasonable probability that he or she was, in fact, incompetent and that trial court would have found him or her
incompetent had a competency hearing been conducted. U.S. Const. Amend. 6.
7 Cases that cite this headnote
[18]

Criminal Law

Plea

Trial counsel's advice to enter no contest plea did not constitute deficient performance and, thus, was not ineffective
assistance of counsel, in prosecution for sexual assault on a child, though the advice was partly based on unsuccessful
and untested strategy to prevent current offense from being used as aggravator in separate murder case against
defendant; defendant agreed to the strategy with knowledge of its uncertainty, there was overwhelming evidence
against defendant, including that defendant had confessed to the sexual assault of victim and that DNA evidence was
consistent with the confession, and defendant had stated his desire to avoid trial. U.S. Const. Amend. 6.

[19]

Criminal Law

Plea

To show prejudice, as element of ineffective assistance of counsel claim, when the alleged ineffective assistance relates
to the entry of a plea, defendant must show that there is a reasonable probability that, but for counsel’s errors, he or
she would not have entered the plea and would have insisted on going to trial. U.S. Const. Amend. 6.
4 Cases that cite this headnote
[20]

Criminal Law

Plea

Trial counsel's advice to enter no contest plea did not prejudice defendant and, thus, was not ineffective assistance of
counsel, in prosecution for sexual assault on a child, absent showing that defendant would have gone to trial but for
counsel's advice; given the strength of state's case against defendant and defendant's own stated desire to avoid trial,
defendant had sufficient reason to enter plea independently of counsel's advice. U.S. Const. Amend. 6.

[21]

Criminal Law

Adequacy of investigation of sentencing issues

Criminal Law

Presentation of evidence regarding sentencing

Trial counsel's failure to discover and present mitigating evidence at sentencing, after defendant pled no contest to
first-degree sexual assault on a child, was not ineffective assistance, although defendant claimed counsel should have
presented evidence regarding defendant's alleged mental incompetence; record indicated that defendant was able to
understand the proceedings against him, including sentencing, and psychologist indicated that defendant understood

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 4

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

the potential consequences of the charges and that he would go to the penitentiary as a result of entering a plea. U.S.
Const. Amend. 6.

[22]

Criminal Law

Appeal

Prejudice, as element of ineffective assistance of counsel claim, would not be presumed based on trial counsel's failure
to appeal from conviction and sentence pursuant to no contest plea for sexual assault on a child, where there was no
showing that defendant ever requested counsel appeal conviction and sentence, and there was indication that defendant
was in agreement with counsel's strategy to enter a plea and refrain from filing a direct appeal in order to have a final
judgment before trial in unrelated murder case. U.S. Const. Amend. 6.

[23]

Criminal Law

Counsel

Criminal Law

Appeal

After trial, conviction, and sentencing, if counsel deficiently fails to file or perfect an appeal after being so directed by
criminal defendant, prejudice will be presumed and counsel will be deemed ineffective, thus entitling the defendant
to postconviction relief. U.S. Const. Amend. 6; Neb. Rev. Stat. § 29-3001 et seq.
1 Cases that cite this headnote
[24]

Criminal Law

Appeal

Trial counsel's failure to advise defendant to appeal conviction and sentence pursuant to no contest plea for sexual
assault on a child and to raise certain issues on appeal did not constitute deficient performance and, thus, was not
ineffective assistance of counsel; although defendant described certain issues that could have been raised on appeal,
defendant did not demonstrate that such issues would have been successful on appeal, and defendant did not show
that any of the issues were of such merit that counsel's advice to enter plea was deficient. U.S. Const. Amend. 6.
1 Cases that cite this headnote

Syllabus by the Court
*70 1. Judgments: Appeal and Error. The findings of the district court in connection with its ruling on a motion for a writ
of error coram nobis will not be disturbed unless they are clearly erroneous.
2. Postconviction: Evidence: Appeal and Error. In an evidentiary hearing on a motion for postconviction relief, the trial
judge, as the trier of fact, resolves conflicts in the evidence and questions of fact. An appellate court upholds the trial court’s
findings unless they are clearly erroneous. In contrast, an appellate court independently resolves questions of law.
3. Effectiveness of Counsel: Appeal and Error. With regard to the questions of counsel’s performance or prejudice to the
defendant as part of the two-pronged test articulated in Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984), an appellate court reviews such legal determinations independently of the lower court’s decision.
4. Judgments: Constitutional Law: Legislature: Appeal and Error. The common-law writ of error coram nobis exists in this
state under Neb. Rev. Stat. § 49–101 (Reissue 2010), which adopts English common law to the extent that it is not inconsistent
with the Constitution of the United States, the organic law of this state, or any law passed by our Legislature.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 5

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

5. Judgments: Evidence: Appeal and Error. The purpose of the writ of error coram nobis is to bring before the court rendering
judgment matters of fact which, if known at the time the judgment was rendered, would have prevented its rendition. The writ
reaches only matters of fact unknown to the applicant at the time of judgment, not discoverable through reasonable diligence,
and which are of a nature that, if known by the court, would have prevented entry of judgment. The writ is not available to
correct errors of law.
*71 6. Convictions: Proof: Appeal and Error. The burden of proof in a proceeding to obtain a writ of error coram nobis is
upon the applicant claiming the error, and the alleged error of fact must be such as would have prevented a conviction. It is not
enough to show that it might have caused a different result.
7. Trial: Effectiveness of Counsel: Appeal and Error. Claims of errors or misconduct at trial and ineffective assistance of
counsel are inappropriate for coram nobis relief.
8. Postconviction: Judgments: Constitutional Law. The Nebraska Postconviction Act, Neb. Rev. Stat. § 29–3001 et seq.
(Reissue 2008 & Cum. Supp. 2014), provides that postconviction relief is available to a prisoner in custody under sentence
who seeks to be released on the ground that there was a denial or infringement of his or her constitutional rights such that the
judgment was void or voidable.
9. Constitutional Law: Effectiveness of Counsel. A proper ineffective assistance of counsel claim alleges a violation of the
fundamental constitutional right to a fair trial.
10. Effectiveness of Counsel: Proof: Appeal and Error. To prevail on a claim of ineffective assistance of counsel **284
under Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), the defendant must show that his or her
counsel’s performance was deficient and that this deficient performance actually prejudiced the defendant.
11. Trial: Pleas: Mental Competency. A person is competent to plead or stand trial if he or she has the capacity to understand
the nature and object of the proceedings against him or her, to comprehend his or her own condition in reference to such
proceedings, and to make a rational defense.
12. Pleas: Mental Competency: Right to Counsel: Waiver. A court is not required to make a competency determination in
every case in which a defendant seeks to plead guilty or to waive his or her right to counsel; a competency determination is
necessary only when a court has reason to doubt the defendant’s competence.
13. Effectiveness of Counsel: Mental Competency: Proof. In order to demonstrate prejudice from counsel’s failure to
investigate competency and for failing to seek a competency hearing, the defendant must demonstrate that there is a reasonable
probability that he or she was, in fact, incompetent and that the trial court would have found him or her incompetent had a
competency hearing been conducted.
14. Effectiveness of Counsel: Pleas: Proof. To show prejudice when the alleged ineffective assistance relates to the entry of
a plea, the defendant must show that there is a reasonable probability that, but for counsel’s errors, he or she would not have
entered the plea and would have insisted on going to trial.
*72 15. Postconviction: Effectiveness of Counsel: Presumptions: Appeal and Error. After a trial, conviction, and
sentencing, if counsel deficiently fails to file or perfect an appeal after being so directed by the criminal defendant, prejudice
will be presumed and counsel will be deemed ineffective, thus entitling the defendant to postconviction relief.
**283 Appeal from the District Court for Scotts Bluff County: Randall L. Lippstreu, Judge. Affirmed.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 6

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

Attorneys and Law Firms
Alan G. Stoler and Jerry M. Hug, of Alan G. Stoler, P.C., L.L.O., Omaha, for appellant.
Douglas J. Peterson, Attorney General, and James D. Smith, Lincoln, for appellee.
Wright, Miller–Lerman, Cassel, Stacy, Kelch, and Funke, JJ.
Miller–Lerman, J.
I. NATURE OF CASE
Jeffrey Hessler appeals the order of the district court for Scotts Bluff County which overruled his motion for postconviction
relief and denied his petition for a writ of error coram nobis. Hessler claimed that he had received ineffective assistance of
trial counsel and was not competent to enter the plea on which his conviction for first degree sexual assault on a child was
based. We affirm.

II. STATEMENT OF FACTS
In 2003, Hessler pled no contest to a charge of first degree sexual assault on a child. Hessler had been charged with sexually
assaulting J.B., a girl under 16 years of age, on August 20, 2002. The district court accepted Hessler’s plea and sentenced him
to imprisonment for 30 to 42 years. No direct appeal was taken from the conviction and sentence.
While Hessler was facing the charge in that first case, he was also facing charges in a second case: first degree murder, **285
kidnapping, first degree sexual assault on a child, and use of a firearm in connection with the assault and death of another girl
*73 under 16 years of age, Heather Guerrero. Hessler pled no contest in the first case before the jury trial was held in the second
case. Following the jury trial in the second case, Hessler was convicted and sentenced to death for Guerrero’s murder. Hessler’s
convictions and sentences for the charges relating to Guerrero were affirmed on direct appeal to this court. State v. Hessler, 274
Neb. 478, 741 N.W.2d 406 (2007). This court also affirmed the overruling of Hessler’s subsequent motions for postconvction
relief relating to such convictions. State v. Hessler, 282 Neb. 935, 807 N.W.2d 504 (2011) (first postconviction motion); State
v. Hessler, 288 Neb. 670, 850 N.W.2d 777 (2014) (second postconviction motion and motion for writ of error coram nobis).
On August 24, 2012, Hessler filed a pleading he titled as “Verified Motion for Postconviction Relief and Petition for Writ of
Error Coram Nobis” in the instant case involving the sexual assault of J.B. That filing gives rise to the present appeal. Hessler
alleged that the claims set forth in the filing entitled him to postconviction relief or, in the alternative, a writ of error coram nobis.
The district court determined that Hessler was entitled to an evidentiary hearing on claims which the court characterized as
follows:
(1) a claim that Hessler was not competent to enter a plea of no contest, because at the time of the plea “he was suffering from
bipolar disorder, severe, with psychotic features”; and
(2) claims that trial counsel was ineffective in
(a) “[f]ailing to investigate, raise, and prove” a claim that Hessler was not competent to enter a plea of no contest;
(b) “[a]dvising Hessler to plead ‘no contest’ ”;

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 7

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

(c) “[a]dvising Hessler that a plea of ‘no contest’ [in this case] would benefit him” by providing him with a double jeopardy
defense to the pending charges involving the assault and death of Guerrero;
(d) “[f]ailing to investigate, discover, and present mitigating evidence at the sentencing hearing”; and
*74 (e) “[f]ailing to advise Hessler to file a direct appeal” or to advise him that he “had a right to appeal and a right to counsel
to pursue his appeal.”
At the evidentiary hearing, the court received evidence including, inter alia, depositions of the two attorneys who had represented
Hessler in the original conviction, depositions of a psychologist and a psychiatric nurse who had worked with Hessler in 2003,
and the deposition of a psychiatrist who had reviewed Hessler’s records and had met with Hessler in 2012 and 2013. Hessler did
not testify. Following the evidentiary hearing, the court rejected all of Hessler’s claims, overruled his motion for postconviction
relief, and denied his petition for a writ of error coram nobis.
With regard to the claim that Hessler was not competent to enter a plea of no contest, the court noted that both attorneys who
had represented Hessler in the original conviction were experienced criminal defense attorneys and that both had determined
there was nothing indicating that Hessler was not competent to stand trial or that a mental health defense would be successful.
The court noted trial counsel had stated that Hessler “was able to provide counsel with background information” and that he
“appeared reasonably intelligent and appeared to understand the evidence and strategy of the case.”
The court further noted that the psychologist who treated Hessler at the time **286 of the conviction stated that although
Hessler “suffered from a bi-polar mood disorder, depression, and paranoid delusional disorder,” Hessler still “understood the
release he signed, understood the potential consequences of his charges,” “understood he was charged with sexual assault[,]
and knew he was going to plead and would go to the penitentiary.” The court noted the psychologist also stated that at the
time of the plea, Hessler “was well aware of who [trial counsel] was and understood [trial counsel’s] role in the case.” The
court further noted that the psychiatric nurse who treated Hessler stated that the medications he was given to treat his bipolar
depression would clear his thinking such that he would *75 be “ ‘more in reality’ ” and that Hessler “appeared to understand
her questions and his responses were appropriate.”
In connection with the issue pertaining to Hessler’s competence to enter a plea, the court noted that Hessler presented the
deposition of a psychiatrist who had been hired in connection with this postconviction action to review Hessler’s records from
the original conviction in 2003. Although the psychiatrist opined that in 2003, Hessler was “depressed” and had “paranoid
thinking,” the court noted that the psychiatrist stated he did not have adequate information to form a definitive opinion on “what
[e]ffect [such conditions] would have on Hessler’s ability for rational choices about entering a plea of no contest.”
Considering the evidence presented, the court concluded that “Hessler’s evidence failed to demonstrate a reasonable probability
that he was, in fact, incompetent to enter a plea of no-contest to sexually assaulting J.B., or that the trial court would have found
him incompetent had a competency hearing been conducted.” The court further determined that because the record showed
Hessler to be competent, “his counsel could not have been ineffective in not raising an issue of competency.”
The court then considered Hessler’s other claims directed at ineffective assistance of counsel. Regarding Hessler’s claim that
counsel was ineffective for advising him to plead no contest, the court noted that prior to trial in this case, counsel knew “(1)
that Hessler had confessed to the sexual assault of J.B., (2) efforts to suppress Hessler’s confession had not been successful, and
(3) DNA testing had scientifically confirmed his confession.” The court also noted that “Hessler had advised [counsel] early
on that he did not want a trial in the J.B. sexual assault case.” The court further noted that the same counsel who represented
Hessler in this case represented him in connection with the charges related to the assault and killing of Guerrero. Counsel knew
that Hessler would be at risk of a death sentence for the murder of Guerrero and that the *76 State would attempt to use the
sexual assault of J.B. to prove an aggravating circumstance in the murder trial. The postconviction court found that “counsel
embarked on a global strategy encompassing both cases with the ultimate goal of saving [Hessler’s] life.” Because counsel had

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 8

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

determined that there was “no viable defense to the J.B. sexual assault case,” counsel attempted to “preclude use of the sexual
assault of J.B. as an aggravating circumstance in the [Guerrero] homicide case.”
Counsel’s strategy was to have “a final conviction and sentence in the sexual assault case [involving J.B.] prior to trial in the
homicide case [involving Guerrero]” and then “to later present a double jeopardy / plea in bar argument against its use as an
aggravating circumstance in the homicide trial.” The court noted that counsel had explained this strategy to Hessler and had
advised him that the double jeopardy or plea in bar “theory was untested.” **287 Hessler agreed to the strategy and advised
counsel he wanted to plead in the instant case.
The postconviction court noted that the strategy to preclude the sexual assault conviction in this case from being used in the
homicide case ultimately proved to be unsuccessful and that the sexual assault of J.B. was allowed to be used to prove an
aggravating circumstance in the homicide sentencing trial. The court concluded, however, that counsel was not ineffective for
advising Hessler to plead no contest or for so advising him as part of the global strategy for both cases. The court concluded
that “[c]onfronted with overwhelming evidence of guilt, Hessler’s trial counsel were not ineffective by attempting novel legal
defenses.” The court further noted that counsel’s advice was “consistent with Hessler’s expressed desire to admit to the sexual
assault” of J.B.
With respect to Hessler’s claim that counsel was ineffective for failing to investigate, discover, and present mitigating evidence
at the sentencing hearing, the postconviction court did not explicitly reject the claim. However, the court found that “[c]ounsel
were never concerned about a sentence in the sexual *77 assault [of J.B.] case because Hessler would never live outside prison
in the homicide [of Guerrero] case.” The court considered such lack of focus on the sentence in the instant case to be part of
the global strategy that encompassed counsel’s advice to plead no contest in this case in hopes of improving Hessler’s outcome
in the homicide case. The court determined that such global strategy did not constitute ineffective assistance of counsel.
Finally, with respect to Hessler’s claim that counsel was ineffective for failing to advise him to file a direct appeal in this case,
the court found that “Hessler provided no evidence that he ever requested counsel appeal his conviction and sentence in this
case.” The court further concluded that Hessler had “shown no prejudice by the failure to file a direct appeal.”
Hessler appeals the order which overruled his motion for postconviction relief and denied his petition for a writ of error coram
nobis.

III. ASSIGNMENTS OF ERROR
Hessler claims that the postconviction district court erred when it rejected his claims that (1) he was denied due process and
effective assistance of counsel because he was not competent to enter a plea of no contest, (2) trial counsel’s advice to plead no
contest was ineffective assistance of counsel, (3) trial counsel’s failure to discover and present mitigating evidence at sentencing
was ineffective assistance of counsel, and (4) trial counsel’s failure to advise him to file a direct appeal was ineffective assistance
of counsel.

IV. STANDARDS OF REVIEW
[1] The findings of the district court in connection with its ruling on a motion for a writ of error coram nobis will not be
disturbed unless they are clearly erroneous. State v. Harrison, 293 Neb. 1000, 881 N.W.2d 860 (2016).
[2] [3] In an evidentiary hearing on a motion for postconviction relief, the trial judge, as the trier of fact, resolves conflicts in
the evidence and questions of fact. An appellate court *78 upholds the trial court’s findings unless they are clearly erroneous.
In contrast, an appellate court independently resolves questions of law. State v. Saylor, 294 Neb. 492, 883 N.W.2d 334 (2016).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 9

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

[4] With regard to the questions of counsel’s performance or prejudice to the defendant as part of the two-pronged test
articulated in **288 Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), an appellate court reviews
such legal determinations independently of the lower court’s decision. State v. Saylor, supra.

V. ANALYSIS
1. District Court Did Not Err When It Denied Hessler’s Petition for Writ of Error Coram Nobis
In this action Hessler set forth various claims and alleged that such claims entitled him to postconviction relief or, in the
alternative, a writ of error coram nobis. A writ of error coram nobis is relief distinct from relief available under the Nebraska
Postconviction Act, Neb. Rev. Stat. § 29–3001 et seq. (Reissue 2008 & Cum. Supp. 2014). As we noted in State v. Harris,
292 Neb. 186, 871 N.W.2d 762 (2015), § 29–3003 provides that relief under that act “is not intended to be concurrent with
any other remedy existing in the courts of this state,” including a writ of error coram nobis. Therefore, we consider whether
Hessler’s claims would entitle him to a writ of error coram nobis separately from our consideration of Hessler’s claims for
relief under the Nebraska Postconviction Act. We conclude that the district court did not err when it denied Hessler’s petition
for a writ of error coram nobis.
[5] [6] [7] [8] The common-law writ of error coram nobis exists in this state under Neb. Rev. Stat. § 49–101 (Reissue
2010), which adopts English common law to the extent that it is not inconsistent with the Constitution of the United States, the
organic law of this state, or any law passed by our Legislature. State v. Sandoval, 288 Neb. 754, 851 N.W.2d 656 (2014). The
*79 purpose of the writ of error coram nobis is to bring before the court rendering judgment matters of fact which, if known at
the time the judgment was rendered, would have prevented its rendition. State v. Harrison, supra. The writ reaches only matters
of fact unknown to the applicant at the time of judgment, not discoverable through reasonable diligence, and which are of a
nature that, if known by the court, would have prevented entry of judgment. Id. The writ is not available to correct errors of
law. Id. The burden of proof in a proceeding to obtain a writ of error coram nobis is upon the applicant claiming the error, and
the alleged error of fact must be such as would have prevented a conviction. It is not enough to show that it might have caused
a different result. State v. Harris, supra.
[9] [10] In State v. Hessler, 288 Neb. 670, 850 N.W.2d 777 (2014), we affirmed the denial of Hessler’s request for a writ
of error coram nobis in connection with his convictions related to the assault and murder of Guerrero. In that case, Hessler
raised claims that were similar to claims he raises here. In that appeal, we stated that claims of errors or misconduct at trial
and ineffective assistance of counsel are inappropriate for coram nobis relief. Similarly, most of Hessler’s claims in the present
action are claims of ineffective assistance of trial counsel, and thus, such claims are inappropriate for coram nobis relief.
Hessler’s claim in this case with regard to his mental competence was based in part on his claim of a denial of his right to
effective assistance of counsel, but the claim was also based in part on an alleged denial of his due process rights. Hessler made
similar allegations with regard to his mental competence in his request for a writ of error coram nobis in connection with the
convictions related to the homicide of Guerrero. See id. Without explicitly deciding whether a meritorious claim of a denial of
due process based on a defendant’s mental incompetence would **289 be appropriate for coram nobis relief, we determined
on appeal that Hessler’s claim relating to mental competence was without merit and therefore did not *80 entitle him to coram
nobis relief. Id. As discussed below in connection with Hessler’s request for postconviction relief in this case, Hessler’s claims
related to mental competence are also without merit and similarly do not entitle him to a writ of error coram nobis.
Hessler has not identified a fact which would have prevented entry of judgment. The substance of Hessler’s claims in this action
either is not appropriate for coram nobis relief or is without merit. Accordingly, we conclude that the district court did not err
when it denied Hessler’s petition for a writ of error coram nobis.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 10

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

2. District Court Did Not Err When It Overruled Hessler’s Motion for Postconviction Relief
Before considering Hessler’s specific claims for postconviction relief, we review the applicable general standards. The Nebraska
Postconviction Act, § 29–3001 et seq., provides that postconviction relief is available to a prisoner in custody under sentence
who seeks to be released on the ground that there was a denial or infringement of his or her constitutional rights such that the
judgment was void or voidable. State v. Starks, 294 Neb. 361, 883 N.W.2d 310 (2016).
[11] [12] Most of Hessler’s claims in this action center on the alleged ineffective assistance provided by his trial counsel. A
proper ineffective assistance of counsel claim alleges a violation of the fundamental constitutional right to a fair trial. Id. To
prevail on a claim of ineffective assistance of counsel under Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
674 (1984), the defendant must show that his or her counsel’s performance was deficient and that this deficient performance
actually prejudiced the defendant. See State v. Saylor, 294 Neb. 492, 883 N.W.2d 334 (2016).

(a) Mental Competence
[13] Hessler first claims that the district court erred when it rejected his claim that because he was not competent to enter *81
a plea of no contest, he was denied due process and effective assistance of counsel. Hessler argues both that he was denied due
process because the court accepted his plea when he was mentally incompetent and that trial counsel was ineffective for failing
to investigate and pursue a claim that he was not competent to stand trial or enter a plea. We find no merit to this assignment
of error.
[14] [15] [16] [17] A person is competent to plead or stand trial if he or she has the capacity to understand the nature and
object of the proceedings against him or her, to comprehend his or her own condition in reference to such proceedings, and
to make a rational defense. State v. Dunkin, 283 Neb. 30, 807 N.W.2d 744 (2012). The test of mental capacity to plead is the
same as that required to stand trial. Id. A court is not required to make a competency determination in every case in which a
defendant seeks to plead guilty or to waive his or her right to counsel; a competency determination is necessary only when a
court has reason to doubt the defendant’s competence. Id. In order to demonstrate prejudice from counsel’s failure to investigate
competency and for failing to seek a competency hearing, the defendant must demonstrate that there is a reasonable probability
that he or she was, in fact, incompetent and that the trial court would have found him or her incompetent had a competency
hearing been conducted. Id.
**290 At the evidentiary hearing in this case, Hessler’s trial counsel testified that there was nothing that indicated that Hessler
was not competent to stand trial or that a mental health defense would be successful. To the contrary, the court noted that trial
counsel testified that Hessler “was able to provide counsel with background information” and “appeared reasonably intelligent
and appeared to understand the evidence and strategy of the case.” In addition, the court noted the psychologist who treated
Hessler at the time of the conviction stated that although Hessler suffered from conditions including “bi-polar mood disorder,
depression, and paranoid delusional disorder,” Hessler was still able to understand important aspects of the *82 proceedings
against him including “the release he signed, ... the potential consequences of his charges, [that] he was charged with sexual
assault and [that] he was going to plead and would go to the penitentiary.” The psychologist stated that Hessler knew who his trial
counsel were and their role in the proceedings. In addition, the court noted the psychiatric nurse who treated Hessler stated that
the medications he was given helped him and that he “appeared to understand her questions and his responses were appropriate.”
Such evidence would indicate that Hessler was mentally competent at the time of his conviction under the legal standards set
forth above. The evidence indicated that he had “the capacity to understand the nature and object of the proceedings against
him ..., to comprehend his ... own condition in reference to such proceedings, and to make a rational defense.” See State v.
Dunkin, 283 Neb. at 44, 807 N.W.2d at 756. The evidence recounted above indicated that Hessler was competent, and Hessler
failed to present evidence to call his competence into question. With regard to the latter proposition, Hessler presented the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 11

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

deposition of a psychiatrist who had been retained in connection with this postconviction action to review Hessler’s records
from the original conviction in 2003. Although the psychiatrist opined that in 2003, Hessler was “depressed” and had “paranoid
thinking,” the court noted that the psychiatrist stated that he did not have adequate information to form a definitive opinion on
“what [e]ffect [such conditions] would have on Hessler’s ability for rational choices about entering a plea of no contest.” As
noted above, the psychologist who treated Hessler at the time of the conviction also determined that Hessler had mental health
issues, but that despite such conditions, he was able to understand the proceedings.
The record indicates that Hessler was legally competent at the time of his conviction, and in this postconviction action, he failed
to present evidence to dispute such determination. Because there was nothing to indicate to either the trial court *83 or counsel
that Hessler was not competent to stand trial or enter a plea, there is no merit to Hessler’s claims that the court violated his
due process rights by accepting his plea and that counsel provided ineffective assistance by failing to investigate or pursue a
claim that he was not competent. The district court therefore did not err when it denied postconviction relief on Hessler’s claims
related to mental competence.

(b) Plea Advice
[18] Hessler next claims that the district court erred when it rejected his claim that trial counsel’s advice to plead no contest
was ineffective assistance of counsel. Hessler argues that counsel’s advice was deficient because it was based on a strategy
pursuant to which he would enter a plea in this case in order to prevent the sexual assault of J.B. from being used to prove an
aggravator in the murder case **291 involving Guerrero. The strategy did not work out, and the sexual assault of J.B. was
ultimately used to prove an aggravator in the murder case. We find no merit to this assignment of error.
[19] To show prejudice when the alleged ineffective assistance relates to the entry of a plea, the defendant must show that there
is a reasonable probability that, but for counsel’s errors, he or she would not have entered the plea and would have insisted on
going to trial. State v. Crawford, 291 Neb. 362, 865 N.W.2d 360 (2015). Therefore, Hessler needed to show that if counsel had
not given the allegedly erroneous advice to enter a plea in this case, he would have insisted on going to trial.
Hessler contends that counsel’s strategy was unreasonable because it was based on a mistaken reading of the law as it existed
at the time of his conviction. However, whether or not the strategy was based on a good reading of the law at the time, we
note that counsel testified that the strategy had been explained to Hessler, and the court observed that Hessler had been told
that the strategy was “untested.” Counsel made no guarantee that the strategy would be successful, and Hessler agreed to the
strategy with knowledge of its uncertainty.
*84 Furthermore, even without considering the global strategy relating to the separate homicide case against Hessler, the record
indicates that counsel had reasons to advise Hessler to plead in this case. The district court in this postconviction action noted
in its order that Hessler had confessed to the sexual assault of J.B., that efforts to suppress the confession were unsuccessful,
and that DNA evidence was consistent with the confession. The court also noted that Hessler had advised counsel that he did
not want a trial in this case. As the district court concluded, counsel’s advice to enter a plea was not deficient in light of the
“overwhelming evidence” against Hessler and his stated desire to avoid a trial.
[20] Whether or not counsel’s advice regarding the global strategy proved erroneous, Hessler has not shown that if counsel had
not given such advice, he would have insisted on going to trial. The record indicates that given the strength of the State’s case
against him in this case and his own stated desire to avoid a trial, Hessler had sufficient reason to enter a plea independently
of counsel’s advice regarding the global strategy. Therefore, Hessler has not shown that but for the allegedly erroneous advice
he would have gone to trial. We conclude that the district court did not err when it rejected Hessler’s claim that counsel was
ineffective for advising him to enter a plea.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 12

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

(c) Mitigating Evidence
[21] Hessler next claims that the district court erred when it rejected his claim that trial counsel’s failure to discover and present
mitigating evidence at sentencing was ineffective assistance of counsel. Hessler’s arguments focus on counsel’s alleged failure
to adequately investigate and address issues of his mental competence; he argues that if the trial court had been made aware
of his mental health issues, the court would have determined that he was not competent to understand the sentencing process.
We find no merit to this assignment of error.
*85 As we discussed above, Hessler did not present evidence to show that he did not meet the legal standard of competence,
and instead, the record indicated that he was able to understand the proceedings against him, including the sentencing aspects
of the proceedings. We note in particular with regard to sentencing that the psychologist who treated Hessler at the **292
time of the conviction stated that Hessler “understood the potential consequences of his charges” and that Hessler knew that
by entering a plea, he “would go to the penitentiary.”
Other than his alleged mental incompetence, Hessler presented no evidence of mitigating circumstances that counsel should
have discovered and presented at his sentencing. We therefore conclude that the district court did not err when it rejected
Hessler’s claim that trial counsel was ineffective for failing to discover and present mitigating evidence at sentencing.

(d) Direct Appeal
[22] Hessler finally claims that the district court erred when it rejected his claim that trial counsel’s failure to advise him to
appeal was ineffective assistance of counsel. Hessler contends various issues could have been raised on appeal. We find no
merit to this assignment of error.
[23] After a trial, conviction, and sentencing, if counsel deficiently fails to file or perfect an appeal after being so directed
by the criminal defendant, prejudice will be presumed and counsel will be deemed ineffective, thus entitling the defendant to
postconviction relief. State v. Dunkin, 283 Neb. 30, 807 N.W.2d 744 (2012). The court in this postconviction case found that
“Hessler provided no evidence that he ever requested counsel appeal his conviction and sentence in this case.” Such finding was
consistent with the court’s determination that Hessler was in agreement with counsel’s global strategy to enter a plea in this case
and refrain from filing a direct appeal in order to have a final judgment before the trial in the murder case. The postconviction
court’s finding that Hessler has not shown that counsel failed to file a direct appeal after *86 being directed to do so is not
clearly erroneous. See State v. Saylor, 294 Neb. 492, 883 N.W.2d 334 (2016).
[24] In connection with the direct appeal issue, Hessler contends that trial counsel was deficient because counsel should have
advised him to appeal and to raise certain issues on appeal. In this respect, the district court in this postconviction action
concluded that Hessler has “shown no prejudice by the failure to file a direct appeal.” Although Hessler describes certain issues
which could have been raised on appeal, such as the denial of his motion to discharge the jury panel and the denial of his motions
to suppress, he did not demonstrate that such issues would have been successful on appeal. Furthermore, because Hessler entered
a plea, certain issues related to his conviction were waived. See State v. Lee, 290 Neb. 601, 861 N.W.2d 393 (2015) (noting that
normally, voluntary guilty plea waives all defenses to criminal charge). We have recognized that in a postconviction proceeding
brought by a defendant convicted because of a guilty plea or a plea of no contest, a court will consider an allegation that the
plea was the result of ineffective assistance of counsel. Id. Above, we considered and rejected Hessler’s allegation that his plea
was the result of ineffective assistance of counsel, and Hessler has not shown that any of the issues he suggests could have been
raised on direct appeal were of such merit that counsel’s advice to enter the plea was deficient.
To illustrate Hessler’s assertion that colorable issues should have been presented on appeal, we note that Hessler contends that
on direct appeal, he could have shown a denial of due process because the trial court and court reporter failed to make a verbatim

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 13

State v. Hessler, 295 Neb. 70 (2016)
886 N.W.2d 280

record of the plea hearing. He asserts that an appellate court would have vacated his conviction and remanded the matter for new
proceedings to be held in the presence of a court reporter. The district **293 court in this postconviction action acknowledged
that a verbatim record of the plea hearing was unavailable and that the court reporter was now incompetent to provide such
a record. The district court *87 determined, however, that the lack of a verbatim record did not prejudice Hessler, because
counsel’s strategy was to enter a plea with no appeal.
In its order, the court cited State v. Deckard, 272 Neb. 410, 722 N.W.2d 55 (2006), in which we concluded that the lack of
a verbatim record did not violate defendant’s due process rights with respect to his postconviction proceeding because the
trial court’s journal entries were sufficient to review the defendant’s postconviction claims. Hessler asserts that Deckard does
not apply here because the record in this case is not sufficient to review his various claims, including that he was mentally
incompetent, and that without the verbatim record, it cannot be determined whether the trial court knew of his mental health
issues and therefore whether the court properly considered whether he was competent to enter his plea.
However, as we determined above, Hessler has not shown that he was not mentally competent to enter a plea, and instead, the
evidence and record indicated that he was competent, as the postconviction court found. The court’s acceptance of his plea
indicates that the court viewed him as competent to enter the plea, and a verbatim record of the proceeding was not necessary
to review that claim.
Hessler has not shown either that counsel ignored his request to file a direct appeal or that counsel was ineffective for failing to
advise him to take a direct appeal. We therefore conclude that the district court did not err when it rejected this claim.

VI. CONCLUSION
Having rejected each of Hessler’s claims on appeal, we affirm the district court’s order which overruled his motion for
postconviction relief and denied his petition for a writ of error coram nobis.
Affirmed.

Heavican, C.J., not participating.
All Citations
295 Neb. 70, 886 N.W.2d 280
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix C 14

Appendix D

Appendix D

Appendix D

Appendix D

Appendix D

Appendix D

Appendix D

Appendix D

Appendix D

Appendix D

Appendix D

Appendix D

I, the undersigned, certify that on September 25, 2015, I served a copy of the foregoing
document upon the following persons at the addresses given, by mailing by United States Mail,
postage prepaid, or via E-mail:
Alan G Stoler
astoler@ix.netcom.com

Date:

September 25, 2015

Douglas L Warner
dpwarn9@gmail.com

BY THE COURT:

_____________________________________
CLERK

Appendix D

Appendix E

Appendix E

Appendix E

Appendix E

Appendix E

Appendix E

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

288 Neb. 670
Supreme Court of Nebraska.

STATE of Nebraska, appellee,
v.
Jeffrey A. HESSLER, appellant.
No. S–13–850
|
Filed July 25, 2014
Synopsis
Background: After convictions and sentences for capital murder and related offenses were affirmed on direct appeal, 274
Neb. 478, 741 N.W.2d 406, and denial of first motion for postconviction relief was affirmed, 282 Neb. 935, 807 N.W.2d 504,
defendant filed second motion for postconviction and for writ of error coram nobis. The District Court, Scotts Bluff County,
Randall L. Lippstreu, J., denied postconviction motion as procedurally barred, and denied motion for writ of error coram nobis.
Defendant appealed.

Holdings: The Supreme Court, Cassel, J., held that:
[1] defendant's claims that, due to mental illness, he was mentally incompetent to waive his rights to stand trial, to remain silent,
to counsel, and right to be present at trial were procedurally barred;
[2] defendant was procedurally barred from obtaining successive postconviction review of claim that he was deprived of right
to impartial jury due to pretrial publicity;
[3] defendant was procedurally barred from obtaining successive postconviction review of claim of improper comments made
by trial judge and prosecution, juror misconduct, prosecutorial misconduct, improperly admitted evidence, and cumulative error;
[4] defendant was procedurally barred from obtaining successive postconviction review of claims of ineffective assistance of
trial and direct appeal counsel;
[5] defendant did not have Sixth Amendment right to effective assistance of postconviction counsel; and
[6] writ of error coram nobis would not issue to permit successive postconviction review of procedurally barred claims.
Affirmed.

West Headnotes (24)
[1]

Criminal Law

Post-conviction relief

Criminal Law

Burden of proof

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 1

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

A defendant requesting postconviction relief must establish the basis for such relief, and the findings of the district
court will not be disturbed unless they are clearly erroneous.
1 Cases that cite this headnote
[2]

Criminal Law

Necessity for Hearing

An evidentiary hearing on a motion for postconviction relief must be granted when the motion contains factual
allegations which, if proved, constitute an infringement of the movant's rights under the Nebraska or federal
Constitution.
3 Cases that cite this headnote
[3]

Criminal Law

Necessity for Hearing

If a motion for postconviction relief alleges only conclusions of fact or law, or the records and files in the case
affirmatively show that the movant is entitled to no relief, no evidentiary hearing is required.
3 Cases that cite this headnote
[4]

Criminal Law

Questions of law or fact

Whether a claim raised in a postconviction proceeding is procedurally barred is a question of law.
1 Cases that cite this headnote
[5]

Criminal Law

Scope of Inquiry

When reviewing a question of law, an appellate court reaches a conclusion independent of the lower court's ruling.

[6]

Criminal Law

Necessity

The Supreme Court would review merits of death-sentenced defendant's claims that trial court's “mental anguish”
jury instruction was unconstitutional and that defendant was incompetent to stand trial for capital murder and related
offenses, even though he failed to assign them as error, where it was clear he intended to do so, but instead mistakenly
duplicated two other assignments of error, and in view of seriousness of death sentence.

[7]

Criminal Law

Necessity

An appellate court does not consider errors which are argued but not assigned.

[8]

Criminal Law

Excuses for Failure to Raise Issue in Previous Post-Conviction Proceeding

A defendant is entitled to bring a second proceeding for postconviction relief only if the grounds relied upon did not
exist at the time the first motion was filed.
2 Cases that cite this headnote
[9]

Criminal Law

Matters which either were or could have been adjudicated previously, in general

The need for finality in the criminal process requires that a defendant bring all claims for relief at the first opportunity.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 2

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

1 Cases that cite this headnote
[10]

Criminal Law

Counsel

Criminal Law

Newly discovered evidence

There are two circumstances which provide a new ground for postconviction relief constituting an exception to the
procedural bar in successive postconviction proceedings: first, if a defendant brings a motion for postconviction relief
based on ineffective assistance of trial or direct appeal counsel which could not have been raised earlier, and second,
if a defendant brings a successive motion for postconviction relief based on newly discovered evidence that was not
available at the time the prior motion was filed, as the evidence did not exist at the time of the prior proceeding because
it was not available to the defendant. U.S. Const. Amend. 6.
5 Cases that cite this headnote
[11]

Criminal Law

Particular issues and cases

Defendant's claims that, due to mental illness, he was mentally incompetent to waive his rights to stand trial, to remain
silent, to counsel, and right to be present at trial for capital murder and related offenses were procedurally barred
on second motion for postconviction relief, where defendant challenged his competency to waive right to counsel at
sentencing on direct appeal, and claims relating to his competency to waive other rights to remain silent, to stand trial,
and to be present could have been asserted on direct appeal. U.S. Const. Amends. 5, 6.

[12]

Criminal Law

Post-conviction proceeding not a substitute for appeal

A motion for postconviction relief cannot be used to secure review of issues which were or could have been litigated
on direct appeal.
3 Cases that cite this headnote
[13]

Criminal Law

Particular issues and cases

Defendant was procedurally barred from obtaining successive postconviction review of claim that he was deprived
of right to impartial jury, due to pretrial publicity, in trial for capital murder and related offenses, where claim was
raised and rejected on direct appeal. U.S. Const. Amend. 6.

[14]

Criminal Law

Particular issues and cases

Defendant was procedurally barred from obtaining successive postconviction review of claim of alleged improper
comments made by trial judge and prosecution that diminished jury's role in sentencing for capital murder and related
offenses, alleged juror misconduct, alleged prosecutorial misconduct, alleged improperly admitted evidence, and
cumulative error, where claims were known to defendant at time of direct appeal, and therefore, should have been
raised then.

[15]

Criminal Law

Particular issues and cases

Defendant was procedurally barred from obtaining successive postconviction review of claims of ineffective
assistance of trial and direct appeal counsel, based on trial counsel's alleged failure to take various actions regarding
competency, juror bias and misconduct, venue, cross-examination of witnesses, jury instructions, evidence, and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 3

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

prosecutorial misconduct, and appellate counsel's alleged failure to adequately raise and argue all meritorious issues,
where claims were raised and rejected in prior motion for postconviction relief. U.S. Const. Amend. 6.
1 Cases that cite this headnote
[16]

Criminal Law

Right to counsel

Defendant did not have Sixth Amendment right to effective assistance of postconviction counsel. U.S. Const. Amend.
6.
2 Cases that cite this headnote
[17]

Criminal Law

Other proceedings following conviction

Postconviction relief cannot be obtained on the basis of ineffective assistance of postconviction counsel.
3 Cases that cite this headnote
[18]

Criminal Law

Other proceedings following conviction

Criminal Law

Right to counsel

There is no constitutional guarantee of effective assistance of counsel in a postconviction action and therefore no
claim for ineffective assistance of postconviction counsel. U.S. Const. Amend. 6.
5 Cases that cite this headnote
[19]

Criminal Law

Right to counsel

Habeas Corpus

Ineffectiveness or want of counsel

Habeas Corpus

State court decision on procedural grounds, and adequacy of such independent state grounds

United States Supreme Court's holding in Martinez v. Ryan, 132 S.Ct. 1309, that a state procedural default does not
bar a federal habeas court from hearing a substantial claim of ineffective assistance of counsel at trial if, in the initialreview collateral proceeding, there was no counsel or counsel in that proceeding was ineffective, did not recognize
a constitutional right to effective assistance of postconviction counsel; rather, based upon principles of equity, it
expanded only the types of cause permitting a federal habeas court to excuse a procedural default in a federal habeas
proceeding, and nothing in Martinez prevented state courts from enforcing procedural defaults in accordance with
state law. U.S. Const. Amend. 6.
3 Cases that cite this headnote
[20]

Criminal Law

Error Coram Nobis

The common-law writ of error coram nobis exists in Nebraska under a statute which adopts English common law to
the extent that it is not inconsistent with the Constitution of the United States, the organic law of Nebraska, or any
law passed by the Legislature. Neb. Rev. Stat. § 49-101.
3 Cases that cite this headnote
[21]

Criminal Law

Error Coram Nobis

The purpose of the writ of error coram nobis is to bring before the court rendering judgment matters of fact which, if
known at the time the judgment was rendered, would have prevented its rendition. Neb. Rev. Stat. § 49-101.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 4

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

2 Cases that cite this headnote
[22]

Criminal Law

Error Coram Nobis

A writ of error coram nobis enables the court to recall some adjudication that was made while some fact existed which
would have prevented rendition of the judgment but which, through no fault of the party, was not presented. Neb.
Rev. Stat. § 49-101.
2 Cases that cite this headnote
[23]

Criminal Law

Error Coram Nobis

Criminal Law

Burden of proof

The burden of proof in a proceeding to obtain a writ of error coram nobis is upon the applicant claiming the error, and
the alleged error of fact must be such as would have prevented a conviction; it is not enough to show that it might
have caused a different result. Neb. Rev. Stat. § 49-101.
4 Cases that cite this headnote
[24]

Criminal Law

Particular issues and cases

Writ of error coram nobis would not issue to permit successive postconviction review of defendant's claims challenging
his mental competency to waive constitutional rights to stand trial, to counsel, to be present at trial and to remain
silent, alleged trial errors, and alleged ineffective assistance of counsel, which were otherwise procedurally barred,
where he did not allege facts not presented in prior proceedings which would have prevented his convictions. U.S.
Const. Amends. 5, 6; Neb. Rev. Stat. § 49-101.
1 Cases that cite this headnote

Syllabus by the Court
*670 1. Postconviction: Proof: Appeal and Error. A defendant requesting postconviction relief must establish the basis for
such relief, and the findings of the district court will not be disturbed unless they are clearly erroneous.
2. Postconviction: Constitutional Law: Proof. An evidentiary hearing on a motion for postconviction relief must be granted
when the motion contains factual allegations which, if proved, constitute an infringement of the movant's rights under the
Nebraska or federal Constitution. However, if the motion alleges only conclusions of fact or law, or the records and files in the
case affirmatively show that the movant is entitled to no relief, no evidentiary hearing is required.
3. Postconviction: Judgments: Appeal and Error. Whether a claim raised in a postconviction proceeding is procedurally
barred is a question of law. When reviewing a question of law, an appellate court reaches a conclusion independent of the lower
court's ruling.
4. Appeal and Error. An appellate court does not consider errors which are argued but not assigned.
*671 5. Postconviction. A defendant is entitled to bring a second proceeding for post-conviction relief only if the grounds
relied upon did not exist at the time the first motion was filed.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 5

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

6. Postconviction. The need for finality in the criminal process requires that a defendant bring all claims for relief at the first
opportunity.
7. Postconviction: Effectiveness of Counsel: Appeal and Error. If a defendant brings a motion for postconviction relief based
on ineffective assistance of trial or direct appeal counsel which could not have been raised earlier, this is a basis for relief that
did not exist at the time of the prior proceeding.
8. Postconviction: Appeal and Error. If a defendant brings a successive motion for postconviction relief based on newly
discovered evidence that was not available at the time the prior motion was filed, this is a basis for relief that did not exist at
the time of the prior proceeding because it was not available to the defendant.
9. Postconviction: Appeal and Error. A motion for postconviction relief cannot be used to secure review of issues which were
or could have been litigated on direct appeal.
10. Postconviction: Effectiveness of Counsel. Postconviction relief cannot be obtained on the basis of ineffective assistance
of postconviction counsel.
11. Postconviction: Constitutional Law: Effectiveness of Counsel. There is no constitutional guarantee of effective assistance
of counsel in a postconviction action and therefore no claim for ineffective assistance of postconviction counsel.
12. Postconviction: Constitutional Law: Effectiveness of Counsel: Habeas Corpus: States. Martinez v. Ryan, ––– U.S.
––––, 132 S.Ct. 1309, 182 L.Ed.2d 272 (2012), did not recognize a constitutional right to effective assistance of postconviction
counsel. Based upon principles of equity, it expanded only the types of cause permitting a federal habeas court to excuse a
procedural default in a federal habeas proceeding. Nothing in Martinez prevents state courts from enforcing procedural defaults
in accordance with state law.
13. Judgments: Constitutional Law: Legislature: Appeal and Error. **781 The common-law writ of error coram nobis
exists in this state under Neb.Rev.Stat. § 49–101 (Reissue 2010), which adopts English common law to the extent that it is not
inconsistent with the Constitution of the United States, the organic law of this state, or any law passed by our Legislature.
14. Judgments: Evidence: Appeal and Error. The purpose of the writ of error coram nobis is to bring before the court
rendering judgment matters of fact which, if known at the time the judgment was rendered, would have prevented its rendition.
It enables the court to recall some adjudication that was made while some fact existed which would have prevented rendition
of the judgment but which, through no fault of the party, was not presented.
15. Convictions: Proof: Appeal and Error. The burden of proof in a proceeding to obtain a writ of error coram nobis is upon
the applicant claiming the error, and the alleged error of fact must be such as would have prevented a conviction. It is not enough
to show that it might have caused a different result.
16. Judgments: Appeal and Error. The writ of error coram nobis is not available to correct errors of law.
**780 Appeal from the District Court for Scotts Bluff County: Randall L. Lippstreu, Judge. Affirmed.
Attorneys and Law Firms
Alan G. Stoler and Jerry M. Hug, of Alan G. Stoler, P.C., L.L.O., for appellant.
Jon Bruning, Attorney General, James D. Smith, and, on brief, J. Kirk Brown for appellee.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 6

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

Wright, Connolly, Stephan, McCormack, Miller–Lerman, and Cassel, JJ., and Inbody, Chief Judge.
Cassel, J.
*672 I. INTRODUCTION
Jeffrey A. Hessler appeals the order of the district court denying his second action for postconviction relief and a writ of error
coram nobis. All of his claims—relating to mental competency, errors or misconduct at trial, and ineffective assistance of
counsel—were or could have been litigated on direct appeal or in his first postconviction action. Thus, they were procedurally
barred. And his reference to two recent decisions of the U.S. Supreme Court provides no basis to deviate from our procedural
rules. Finally, he failed to raise any basis warranting coram nobis relief. We affirm.

II. BACKGROUND
Hessler was convicted of first degree murder, kidnapping, first degree sexual assault on a child, and use of firearm to commit a
felony for the sexual assault and killing of 15–year–old Heather Guerrero. He was sentenced to death on the murder conviction
and various terms of imprisonment on the other convictions. The circumstances which led to Hessler's convictions and sentences
may be found in State v. Hessler.1
We affirmed Hessler's convictions and sentences on direct appeal.2 We summarized the assignments of error raised in his
appellate brief, in pertinent part, as follows:
*673 [T]he district court erred in ... (3) failing to excuse for cause potential jurors who had formed opinions regarding
**782 Hessler's guilt; (4) overruling his motion to change venue; [and] (7) granting his request to waive counsel and appear
pro se at sentencing and failing to make a determination regarding his competency to waive counsel.3
After we affirmed his convictions and sentences, Hessler filed his first action for postconviction relief. In his first postconviction
motion, Hessler asserted claims related to ineffective assistance of trial and appellate counsel, errors at trial, and prosecutorial
misconduct. He claimed that his trial counsel was ineffective for failing to take various actions regarding his mental competency,
juror bias, and venue. And he alleged that his appellate counsel was ineffective for failing to raise and argue those issues. Finally,
he asserted that the trial court erred by failing to order a competency evaluation and that the State committed prosecutorial
misconduct by failing to suggest such an evaluation.
The district court ordered an evidentiary hearing on the sole issue of whether Hessler's trial counsel was ineffective for failing to
raise the issue of competency after Hessler's convictions but prior to the determination of any mitigating factors and sentencing.
Before the mitigation portion of the sentencing phase began, Hessler moved the court to proceed pro se. He had been represented
by counsel up until that point. The court ultimately rejected Hessler's ineffective assistance claim, finding that the record
affirmatively showed that he was competent. It therefore denied postconviction relief. We affirmed the denial of postconviction
relief on appeal.4
Hessler then filed the present, second motion for postconviction relief. As noted above, the claims asserted in the present motion
related to mental competency, errors or misconduct at trial, and ineffective assistance of counsel. The district court summarized
Hessler's 17 claims as follows:
*674 1. Custodial statement made on February 11, 2003, and February 12, 2003[,] violated Hessler's constitutional rights.
A mental disease prevented Hessler from knowingly and intelligently waiving his constitutional right to remain silent.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 7

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

2. Hessler was denied a fair and impartial jury due to pretrial publicity and the trial court's denial of his motion to change
venue.
3. Hessler's waiver of counsel violated his constitutional rights. Mental illness rendered Hessler incompetent to waive counsel.
4. Hessler's waiver of his right to be present in court was invalid. Hessler's mental illness rendered him incompetent to waive
his presence during court proceedings.
5. Comments by the Court and prosecutor violated Hessler's right to a fair trial.
6. Trial counsel was ineffective during the guilt—innocence stage of Hessler's trial including, but not limited to, not
aggressively pursuing suppression of Hessler's statements, not effectively pursuing a change of venue, not adequately
investigating Hessler's competency, etc.
7. Trial counsel failed to adequately investigate and litigate Hessler's lack of mental capacity to waive his Fourth Amendment
rights.
8. The trial court's “mental anguish” jury instruction was unconstitutional. **783 Trial and appellate counsel were ineffective
by not pursuing that issue.
9. Trial counsel was ineffective for failing to object to the State's use of testimonial hearsay evidence, specifically DNA
reports and lab analysis.
10. Hessler was incompetent to stand trial due to debilitating mental disease or defect.
11. Trial counsel was ineffective because Hessler was innocent due to an incapacity to act with deliberate and premeditated
malice.
12. Trial counsel was generally ineffective at the aggravation hearing.
*675 13. Hessler was denied a fair trial due to juror bias and misconduct.
14. Appellate counsel and post conviction counsel were generally ineffective.
15. The prosecutor generally committed prosecutorial misconduct at all stages of the proceedings.
16. Witness [Mark] Bohaty was allowed to present “pseudo-scientific” evidence regarding firearms.
17. Cumulative error.
The district court found that Hessler's second postconviction motion failed to raise any ground for relief not previously available
to him. It noted that the issues of mental competency and ineffective assistance of trial and appellate counsel were litigated on
direct appeal or in his first postconviction action. And his various assertions of errors or misconduct at trial were previously
litigated or were known and could have been raised in the prior proceedings. Finally, it observed that no constitutional basis
existed for his claim of ineffective assistance of postconviction counsel. It therefore denied postconviction and coram nobis
relief and dismissed the motion. Hessler timely appeals.

III. ASSIGNMENTS OF ERROR
We consolidate and restate Hessler's numerous assignments of error. Hessler assigns that the district court erred in failing to
grant an evidentiary hearing on each of his 17 claims.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 8

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

IV. STANDARD OF REVIEW
[1]

[2]

[3] A defendant requesting postconviction relief must establish the basis for such relief, and the findings of the

district court will not be disturbed unless they are clearly erroneous.5 An evidentiary hearing on a motion for postconviction
relief must be granted when the motion contains factual allegations which, if proved, constitute an infringement of the movant's
rights under the Nebraska or federal Constitution.6 However, if the motion alleges only conclusions of fact or *676 law, or the
records and files in the case affirmatively show that the movant is entitled to no relief, no evidentiary hearing is required.7
[4]

[5] Whether a claim raised in a postconviction proceeding is procedurally barred is a question of law.8 When reviewing

a question of law, an appellate court reaches a conclusion independent of the lower court's ruling.9

V. ANALYSIS
[6] [7] We first dispose of a preliminary issue. Hessler assigned as error the district court's denial of an evidentiary hearing
**784 on the claims raised in his second motion for postconviction relief. In his brief, he assigned 17 errors and argued the
merits of each of his 17 claims. But he omitted claims 8 and 10 from his assignments of error by duplicating other claims. We
recognize our precedent that an appellate court does not consider errors which are argued but not assigned.10 But we do not treat
claims 8 and 10 as being waived. The sentences imposed in this case are grave, and the duplications of the other claims make it
clear that he intended to assign error to the district court's disposition of each of his claims but committed a typographical error.

1. Denial of Postconviction Relief
[8]

[9] This is Hessler's second motion for postconviction relief. A defendant is entitled to bring a second proceeding for

postconviction relief only if the grounds relied upon did not exist at the time the first motion was filed.11 The need for finality
in the criminal process requires that a defendant bring all claims for relief at the first opportunity.12
[10] We have recognized two circumstances which provide a new ground for relief constituting an exception to *677 the
procedural bar in postconviction proceedings. First, if a defendant brings a motion for postconviction relief based on ineffective
assistance of trial or direct appeal counsel which could not have been raised earlier, this is a basis for relief that did not exist at
the time of the prior proceeding.13 Second, if a defendant brings a successive motion for postconviction relief based on newly
discovered evidence that was not available at the time the prior motion was filed, this is a basis for relief that did not exist at
the time of the prior proceeding because it was not available to the defendant.14
None of the 17 claims asserted by Hessler raised a new ground for relief constituting an exception to the procedural bar. Thus, the
district court correctly denied Hessler's motion. For the sake of brevity, we organize our analysis in accordance with the common
themes shared among the 17 claims: mental competency, errors or misconduct at trial, and ineffective assistance of counsel.

(a) Mental Competency

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 9

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

[11] Claims 1, 3, 4, and 10 pertain to Hessler's mental competency during the proceedings against him. Hessler asserted that
due to mental illness, he was incompetent to stand trial and unable to waive his right to remain silent, his right to counsel, and
his right to be present.
[12] But Hessler challenged his competency to waive the right to counsel on direct appeal.15 He alleged that the trial court
erred in granting his request to waive counsel and appear pro se at sentencing and in failing to make a determination regarding
his competency to do so.16 We rejected this claim because the trial court had no reason to doubt Hessler's competency to waive
counsel.17 Having already litigated this claim, Hessler was procedurally barred from raising it in the **785 present motion.
A motion for postconviction relief cannot be *678 used to secure review of issues which were or could have been litigated
on direct appeal.18
Hessler's three remaining claims regarding his mental competency were similarly barred. These claims were known and could
have been litigated on direct appeal. Consequently, we find no error in the district court's denial of an evidentiary hearing on
claims 1, 3, 4, and 10.

(b) Errors or Misconduct at Trial
Claims 2, 5, 13, 15, 16, and 17 relate to errors or misconduct at trial. Briefly, Hessler asserted that his convictions and sentences
must be overturned because of a biased jury, comments made by the trial judge and prosecution that diminished the jury's role
in sentencing, juror misconduct, prosecutorial misconduct, improperly admitted evidence, and cumulative error.
[13] Hessler asserted that his jury was biased on direct appeal.19 He alleged that the trial court erred in failing to excuse
potential jurors who had formed opinions of his guilt and in overruling his motion to change venue because he could not receive
a fair trial in Scotts Bluff County, Nebraska.20 As this claim was previously asserted and rejected, Hessler was barred from
asserting it again.
[14] Hessler's remaining claims of errors or misconduct at trial were similarly barred. These claims were known to Hessler
and could have been raised on direct appeal. But he did not do so. We therefore find no error in the district court's denial of
an evidentiary hearing on claims 2, 5, 13, 15, 16, and 17.

(c) Ineffective Assistance of Counsel
Claims 6 through 9, 11, 12, and 14 pertain to ineffective assistance of counsel. Hessler asserted that his trial counsel was
ineffective for failing to take various actions regarding competency, juror bias and misconduct, venue, cross-examination of
witnesses, jury instructions, evidence, and prosecutorial *679 misconduct. He further alleged that his counsel on direct appeal
and in his first postconviction action were ineffective for failing to raise and argue all meritorious issues.
[15] As noted above, a new basis for relief may exist if a defend ant brings a motion for postconviction relief based on ineffective
assistance of trial or direct appeal counsel which could not have been raised earlier.21 But Hessler was able to assert ineffective
assistance of trial and appellate counsel in his first postconviction action and did so.22 He was not entitled to do so again.
Consequently, his present claims of ineffective assistance of trial and appellate counsel were procedurally barred.
[16] [17] [18] But Hessler also claimed that he received ineffective assistance of counsel in his first postconviction action.
He argued that the ineffectiveness of his first postconviction counsel constituted a new basis for relief and rendered any claims
not raised in the prior proceedings unavailable to him until the present action. This argument has no merit. Postconviction

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 10

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

relief cannot be obtained on the basis of ineffective assistance of postconviction counsel.23 There is no constitutional guarantee
**786 of effective assistance of counsel in a postconviction action and therefore no claim for ineffective assistance of
postconviction counsel.24
In his brief, Hessler cites Martinez v. Ryan25 as a basis for deviating from our procedural rules and granting an evidentiary
hearing on his 17 claims. In Martinez, the U.S. Supreme Court held that a state procedural default does not bar a federal habeas
court from hearing a substantial claim of ineffective assistance at trial if, in the initial-review collateral proceeding, there was
no counsel or counsel in that proceeding was ineffective. This holding was initially limited *680 to state procedural systems in
which ineffective assistance of trial counsel claims were required to be litigated in the initial-review collateral proceeding.26 But
the Court later expanded its holding to include state systems in which ineffective assistance of trial counsel claims were highly
unlikely to be given a meaningful opportunity for review on direct appeal.27 We assume, without deciding, that Nebraska's
postconviction review procedures fall within the purview of the Court's expanded holding.
[19] Martinez did not recognize a constitutional right to effective assistance of postconviction counsel. Based upon principles
of equity, it expanded only the types of cause permitting a federal habeas court to excuse a procedural default in a federal habeas
proceeding.28 Nothing in Martinez prevents state courts from enforcing procedural defaults in accordance with state law.
Other state courts have reached similar conclusions regarding the effect of Martinez.29 The Supreme Court of Pennsylvania
made several observations worthy of note.30 First, it described the Martinez holding as creating a “federal safety valve to
allow for a third level of review—exclusively federal—if the subject claim involved a trial default, and initial collateral *681
review counsel did not recognize it.”31 Second, it recognized that the new federal habeas consequence jeopardizes both a
state procedural default rule and the state's power and right to pass upon constitutional claims in the first instance. Third, it
acknowledged that federal courts sitting in habeas corpus review of final Pennsylvania convictions may review claims of trial
counsel ineffectiveness not raised by postconviction counsel on the merits, in the first instance, as an “ ‘equitable’ ” matter.32
**787 However, the Pennsylvania court declined to modify its framework for collateral review of criminal convictions. It
recognized that the question of “whether to take measures to otherwise account for the concerns of Martinez ” is one of policy.33
It elected to await either the action of its state legislature or a case where the issue was properly joined.
Similarly, we conclude that such matters of policy should be addressed in the first instance to the Legislature. Our Legislature
has enacted postconviction relief limited to a single proceeding. Neb.Rev.Stat. § 29–3001 (Cum.Supp.2012) permits a prisoner
to file a verified motion asking the sentencing court to vacate or set aside the sentence and stating the grounds entitling him
or her to relief. It expressly authorizes a court to reject a second or successive motion for similar relief.34 Whether Nebraska
should provide a second round of collateral review as of right to capture claims of ineffective assistance of trial counsel which
have been defaulted in the initial postconviction proceeding is a matter for the Legislature. It should make that decision in light
of the consequences that follow from Martinez as accurately summarized by the Pennsylvania court. But until that time, this
court continues to enforce our procedural rules in accordance with our well-settled postconviction jurisprudence. Accordingly,
we reject Hessler's argument regarding Martinez and affirm the district *682 court's denial of an evidentiary hearing on claims
6 through 9, 11, 12, and 14.

2. Denial Of Coram Nobis Relief
[20] [21] [22] [23] Hessler also sought relief under the common-law writ of error coram nobis. The common-law writ of
error coram nobis exists in this state under Neb.Rev.Stat. § 49–101 (Reissue 2010), which adopts English common law to the
extent that it is not inconsistent with the Constitution of the United States, the organic law of this state, or any law passed by

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 11

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

our Legislature.35 The purpose of the writ of error coram nobis is to bring before the court rendering judgment matters of fact
which, if known at the time the judgment was rendered, would have prevented its rendition.36 It enables the court to recall some
adjudication that was made while some fact existed which would have prevented rendition of the judgment but which, through
no fault of the party, was not presented.37 The burden of proof in a proceeding to obtain a writ of error coram nobis is upon
the applicant claiming the error, and the alleged error of fact must be such as would have prevented a conviction.38 It is not
enough to show that it might have caused a different result.39
[24] But Hessler's second motion for postconviction relief failed to allege any fact not presented in the prior proceedings which
would have prevented his convictions. As previously noted, the claims raised in the present motion shared three common themes:
mental competency, errors or misconduct at trial, and ineffective assistance of counsel. As to his mental competency, Hessler
alleged that the trial court was not presented with information regarding his various mental illnesses and **788 the medications
he was taking at the time of trial. But in his first postconviction action, this information was adduced at an evidentiary hearing,
and we concluded that the record *683 affirmatively showed that Hessler had met the legal standard of competency.40
As to his claims of errors or misconduct at trial and ineffective assistance of counsel, such claims were inappropriate for coram
nobis relief. The writ of error coram nobis is not available to correct errors of law.41 We find no error in the district court's
denial of a writ of error coram nobis.

VI. CONCLUSION
Except for Hessler's argument citing to Martinez, the claims raised in Hessler's second motion for postconviction relief either
were litigated in the prior proceedings or were known and could have been litigated. As such, they were procedurally barred.
And Hessler's claim of ineffective assistance of postconviction counsel, relying upon Martinez, was without constitutional
support. He similarly failed to raise any basis warranting coram nobis relief. We affirm the denial of Hessler's second motion
for postconviction relief and writ of error coram nobis.
Affirmed.

Heavican, C.J., not participating.
All Citations
288 Neb. 670, 850 N.W.2d 777
Footnotes
State v. Hessler, 274 Neb. 478, 741 N.W.2d 406 (2007).
1
Id.
2
Id. at 488, 741 N.W.2d at 416.
3
State v. Hessler, 282 Neb. 935, 807 N.W.2d 504 (2011).
4
State v. Golka, 281 Neb. 360, 796 N.W.2d 198 (2011).
5
Id.
6
Id.
7
State v. Ortiz, 266 Neb. 959, 670 N.W.2d 788 (2003).
8
Id.
9
See, e.g., State v. Duncan, 278 Neb. 1006, 775 N.W.2d 922 (2009).
10

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 12

State v. Hessler, 288 Neb. 670 (2014)
850 N.W.2d 777

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29

30
31
32
33
34
35
36
37
38
39
40
41

State v. Ryan, 257 Neb. 635, 601 N.W.2d 473 (1999).
Id.
Id.
Id.
See Hessler, supra note 1.
See id.
See id.
State v. Suggs, 259 Neb. 733, 613 N.W.2d 8 (2000).
See Hessler, supra note 1.
Id.
See Ryan, supra note 11.
See Hessler, supra note 4.
See State v. Becerra, 263 Neb. 753, 642 N.W.2d 143 (2002).
State v. Deckard, 272 Neb. 410, 722 N.W.2d 55 (2006).
Martinez v. Ryan, ––– U.S. ––––, 132 S.Ct. 1309, 182 L.Ed.2d 272 (2012).
See id.
See Trevino v. Thaler, ––– U.S. ––––, 133 S.Ct. 1911, 185 L.Ed.2d 1044 (2013).
See Martinez, supra note 25.
See, Gore v. State, 91 So.3d 769 (Fla.2012) (Martinez directed toward federal habeas proceedings); People v. Miller, 2013 IL App
(1st) 111147, 988 N.E.2d 1051, 370 Ill.Dec. 695 (2013) (Martinez applies to federal courts considering habeas petitions and expressly
not constitutionally based decision); Yarberry v. State, 372 S.W.3d 568 (Mo.App.2012) (holding in Martinez limited to determination
that procedural default will not bar federal habeas court from hearing ineffective assistance of trial counsel claims); Com. v. Holmes,
79 A.3d 562 (Pa.2013) (procedural default will not bar federal habeas court from hearing substantial claim of ineffective assistance
at trial); Kelly v. State, 404 S.C. 365, 745 S.E.2d 377 (2013) (Martinez limited to federal habeas corpus review and not applicable
to state postconviction relief actions).
See Holmes, supra note 29.
Id. at 583.
See id. at 584.
Id.
See § 29–3001(3).
State v. Diaz, 283 Neb. 414, 808 N.W.2d 891 (2012).
Id.
Id.
Id.
Id.
See Hessler, supra note 4.
Diaz, supra note 35.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix F 13

Appendix G

Appendix G

Appendix G

Appendix G

Appendix G

Appendix G

Appendix G

Appendix G

Appendix G

Appendix G

Appendix G

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

282 Neb. 935
Supreme Court of Nebraska.

STATE of Nebraska, appellee,
v.
Jeffrey A. HESSLER, appellant.
No. S–11–379.
|
Dec. 23, 2011.
Synopsis
Background: After affirmance of defendant's conviction for first-degree murder and death sentence, 274 Neb. 478, 741 N.W.2d
406, defendant filed motion for postconviction relief. After an evidentiary hearing, the District Court, Scotts Bluff County,
Randall L. Lippstreu, J., denied postconviction relief. Defendant appealed.

[Holding:] The Supreme Court, McCormack, J., held that defendant was not prejudiced, as element of ineffective assistance of
counsel, by counsel's allegedly deficient performance in failing to seek a competency hearing before defendant waived counsel
for penalty phase of capital murder trial.
Affirmed.

West Headnotes (22)
[1]

Criminal Law

Mixed questions of law and fact

A claim that defense counsel provided ineffective assistance presents a mixed question of law and fact. U.S.C.A.
Const.Amend. 6.
1 Cases that cite this headnote
[2]

Criminal Law

Post-conviction relief

On appeal from a proceeding for postconviction relief, the trial court's findings of fact will be upheld unless such
findings are clearly erroneous.
2 Cases that cite this headnote
[3]

Criminal Law

Effective assistance

Determinations regarding whether counsel was deficient and whether the defendant was prejudiced, as elements of
ineffective assistance of counsel, are questions of law that are reviewed independently of the lower court's decision.
U.S.C.A. Const.Amend. 6.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 1

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

[4]

Criminal Law

Matters which either were or could have been adjudicated previously, in general

A motion for postconviction relief cannot be used to secure review of issues that were known to the defendant and
could have been litigated on direct review.
9 Cases that cite this headnote
[5]

Criminal Law

Same or different counsel in previous proceedings

When a defendant was represented both at trial and on direct appeal by lawyers employed by the same office, the
defendant's first opportunity to assert ineffective assistance of trial counsel is in a motion for postconviction relief.
U.S.C.A. Const.Amend. 6.
5 Cases that cite this headnote
[6]

Criminal Law

Counsel

In light of the unusual circumstances of defendant's direct appeal from his murder conviction and death sentence
and the gravity of the issues alleged and sentences imposed, appellate court, on appeal from denial of defendant's
postconviction relief motion alleging that counsel had been ineffective in failing to seek a competency hearing
before defendant waived counsel for penalty phase, would treat the postconviction proceedings as defendant's first
opportunity to raise his ineffective assistance claim, so that the claim was not procedurally barred, though defendant
had filed a pro se brief on direct appeal. U.S.C.A. Const.Amend. 6.
4 Cases that cite this headnote
[7]

Criminal Law

Nature of Remedy

Criminal Law

Constitutional or fundamental error

Postconviction relief is a very narrow category of relief available only to remedy prejudicial constitutional violations.
1 Cases that cite this headnote
[8]

Criminal Law

Burden of proof

Criminal Law

Defense counsel

The defendant has the burden in postconviction proceedings of demonstrating ineffectiveness of counsel, and the
record must affirmatively support that claim. U.S.C.A. Const.Amend. 6.
1 Cases that cite this headnote
[9]

Criminal Law

Deficient representation and prejudice in general

A defendant alleging ineffective assistance of counsel must show, in accordance with “Strickland v. Washington,”
that counsel's performance was deficient, that is, counsel's performance did not equal that of a lawyer with ordinary
training and skill in criminal law in the area, and that counsel's deficient performance prejudiced the defense in his
or her case, that is, there was a reasonable probability that but for counsel's deficient performance, the result of the
proceeding would have been different. U.S.C.A. Const.Amend. 6.
3 Cases that cite this headnote

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 2

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

[10]

Criminal Law

Determination

The two prongs of the test for ineffective assistance of counsel, deficient performance and prejudice, may be addressed
in either order. U.S.C.A. Const.Amend. 6.

[11]

Criminal Law

Competence to stand trial; sanity hearing

In order to demonstrate prejudice, as element of ineffective assistance of counsel, from counsel's failure to investigate
competency and failure to seek a competency hearing, the defendant must demonstrate that there is a reasonable
probability that he or she was, in fact, incompetent and that the trial court would have found the defendant incompetent
had a competency hearing been conducted. U.S.C.A. Const.Amend. 6.
5 Cases that cite this headnote
[12]

Criminal Law

Particular Cases and Issues

Counsel is not ineffective for failing to undertake useless procedural challenges merely to create a record impregnable
to assault for claimed inadequacy of counsel. U.S.C.A. Const.Amend. 6.
2 Cases that cite this headnote
[13]

Mental Health

Mental disorder at time of trial

Sentencing and Punishment

Mental Illness or Disorder of Defendant

An individual has a constitutional right not to be put to trial when lacking mental competency, and this includes
sentencing. West's Neb.Rev.St. § 29–1823(1).
2 Cases that cite this headnote
[14]

Mental Health

Mental disorder at time of trial

The test of competency to stand trial is whether the defendant has the capacity to understand the nature and object
of the proceedings against him, to comprehend his own condition in reference to such proceedings, and to make a
rational defense.
6 Cases that cite this headnote
[15]

Criminal Law

In general; right to appear pro se

A criminal defendant has a constitutional right to waive the assistance of counsel and conduct his or her own defense.
U.S.C.A. Const.Amend. 6.
1 Cases that cite this headnote
[16]

Criminal Law

Capacity and requisites in general

A criminal defendant's ability to represent himself has no bearing upon his competence to choose self-representation.
U.S.C.A. Const.Amend. 6.

[17]

Mental Health

Mental disorder at time of trial

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 3

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

There are no fixed or immutable signs of a defendant's incompetence, so that the defendant cannot be put to trial.
1 Cases that cite this headnote
[18]

Mental Health

Mental disorder at time of trial

A defendant can meet the modest aim of legal competency to be put to trial, despite paranoia, emotional disorders,
unstable mental conditions, and suicidal tendencies.
1 Cases that cite this headnote
[19]

Sentencing and Punishment

Counsel

The defendant's desire for capital punishment does not create a reasonable probability of incompetency, for purposes
of waiver of counsel for capital sentencing. U.S.C.A. Const.Amend. 6.

[20]

Mental Health

Mental disorder at time of trial

Hearing voices representing messages from God does not, without evidence of how the messages affect the defendant's
ability to comprehend the trial proceedings and make a rational defense, demonstrate incompetence to be put to trial.
1 Cases that cite this headnote
[21]

Criminal Law

Competence to stand trial; sanity hearing

Defendant was not prejudiced, as element of ineffective assistance of counsel, by counsel's allegedly deficient
performance in failing to seek a competency hearing before defendant waived counsel for penalty phase of capital
murder trial, in absence of a showing of a reasonable probability that defendant would have been found incompetent
if a competency hearing had been held. U.S.C.A. Const.Amend. 6.
4 Cases that cite this headnote
[22]

Criminal Law

Competence to stand trial; sanity hearing

Counsel is not required to move for a competency hearing at every alleged sign of defendant's mental illness.
1 Cases that cite this headnote

**507 Syllabus by the Court
*935 1. Effectiveness of Counsel. A claim that defense counsel provided ineffective assistance presents a mixed question
of law and fact.
2. Postconviction: Appeal and Error. On appeal from a proceeding for postconviction relief, the trial court's findings of fact
will be upheld unless such findings are clearly erroneous.
3. Effectiveness of Counsel: Appeal and Error. Determinations regarding whether counsel was deficient and whether the
defendant was prejudiced are questions of law that an appellate court reviews independently of the lower court's decision.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 4

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

4. Effectiveness of Counsel: Appeal and Error. A motion for postconviction relief cannot be used to secure review of issues
that were known to the defendant and could have been litigated on direct review.
5. Postconviction: Effectiveness of Counsel: Appeal and Error. When a defendant was represented both at trial and on direct
appeal by lawyers employed by the same office, the defendant's first opportunity to assert ineffective assistance of trial counsel
is in a motion for postconviction relief.
6. Postconviction: Constitutional Law. Postconviction relief is a very narrow category of relief available only to remedy
prejudicial constitutional violations.
*936 7. Postconviction: Effectiveness of Counsel: Proof. The defendant has the burden in postconviction proceedings of
demonstrating ineffectiveness of counsel, and the record must affirmatively support that claim.
8. Postconviction: Mental Competency: Effectiveness of Counsel: Proof. In order to demonstrate prejudice from counsel's
failure to investigate competency and for failure to seek a competency hearing, the defendant must demonstrate that there
is a reasonable probability that he or she was, in fact, incompetent and that the trial court would have found the defendant
incompetent had a competency hearing been conducted.
9. Effectiveness of Counsel: Records. Counsel is not ineffective for failing to undertake useless procedural challenges merely
to create a record impregnable to assault for claimed inadequacy of counsel.
10. Constitutional Law: Trial: Mental Competency. An individual has a constitutional right not to be put to trial when lacking
mental competency.
11. Constitutional Law: Right to Counsel: Waiver. A criminal defendant has a constitutional right to waive the assistance
of counsel and conduct his or her own defense.
12. Mental Competency. There are no fixed or immutable signs of incompetence.
Attorneys and Law Firms
Brian J. Lockwood, Deputy Scotts Bluff County Public Defender, for appellant.
Jon Bruning, Attorney General, and J. Kirk Brown, Lincoln, for appellee.
CONNOLLY, GERRARD, STEPHAN, McCORMACK, and MILLER–LERMAN, JJ., and INBODY, Chief Judge, and
PIRTLE, Judge.
McCORMACK, J.
I. NATURE OF CASE
Jeffrey A. Hessler filed a motion for postconviction relief from his current incarceration and sentence to death for crimes
relating to the rape and murder of Heather Guerrero. The district court granted an evidentiary hearing on the limited issue of
whether trial counsel was **508 ineffective in failing to demand a competency hearing before the trial court allowed Hessler
to waive counsel and represent himself at sentencing. The district court denied postconviction relief. Because Hessler failed to
demonstrate a reasonable probability that he was incompetent at the sentencing hearing, we affirm.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 5

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

*937 II. BACKGROUND
Hessler was convicted for first degree murder, kidnapping, first degree sexual assault on a child, and use of a firearm to commit
a felony in relation to the murder of 15–year-old Guerrero. The facts leading to the convictions are set forth in more detail in
our opinion in State v. Hessler (Hessler I ).1
After his convictions in December 2004, Hessler filed three pro se motions to waive his right to be present at the aggravation
hearing. The court excused Hessler's presence, and trial counsel represented Hessler at the aggravation hearing. After the hearing,
the jury found three statutory aggravating circumstances.2 Accordingly, the case was set to proceed before the three-judge panel
for consideration of the death penalty.

1. Motions to Remove Counsel and Proceed Pro Se
On March 31, 2005, Hessler sought to remove counsel, waive his right to counsel, and proceed pro se at the sentencing hearing.
Hessler filed a pro se “Motion to Invoke My Sixth–Amendment Right and to Expurgate the Advocate of the State and to
Delineate Myself.” This motion is set forth in detail in Hessler I.3 In summary, Hessler was unhappy with trial counsel because
they told him they were dutybound to contest the imposition of the death penalty. Hessler wished to be put to death.
At the hearing on the motion, the court presented numerous questions to Hessler in order to determine if his waiver of counsel
was made knowingly, voluntarily, and intelligently. Hessler's responses to the questions were generally appropriate. Hessler
was asked to explain what “ ‘Expurgate the Advocate of the State’ ” in his pro se motion meant. He responded that it was
“[t]o remove [his] advocate.” He told the court that he wished to discharge counsel because they “refuse[d] to comply with
my wishes.” Hessler further explained to the court that given the change of strategy, a scheduled presentencing hearing *938
challenging the constitutionality of the death penalty statute did not “need to happen.”
Hessler informed the court he had been prescribed “antipsychotics” and “antihypnotic” drugs, but he had not taken them that
day. When asked about his ability to represent himself, Hessler said he had God on his side, stating, “I just go by what God tells
me.” The court responded that while it would not dissuade Hessler from “following God,” he would have to represent himself in
a way that complied with court rules. Hessler indicated that he understood this and could do so. The trial court determined that
Hessler had knowingly, intelligently, and voluntarily decided to represent himself. Given the gravity of the possible punishment,
the court instructed counsel to prepare for the sentencing hearing and be there on standby.

**509 2. Sentencing Hearing
At the sentencing hearing conducted on May 16, 2005, Hessler was again questioned about his desire to proceed pro se. Hessler
responded to the questions appropriately, and the court again determined that Hessler knowingly, intelligently, and voluntarily
waived his right to counsel.
Hessler declined to make any opening or closing statement at the sentencing hearing. As evidence, Hessler offered a 9–
page “Interlocutory Statement of the Defendant.” Because indicating each spelling mistake or grammatical error in Hessler's
statement and other documentation would be distracting, we reproduce Hessler's written materials in their original form. Hessler
began: “As God cicerones me through this ascription to show true face I, Jeffrey Alan Hessler, now brings to light my ascription
now before all.” Hessler then explained that he wished to be put to death, under the doctrine of “ ‘an Eye for an Eye.’ ” Hessler
expressed remorse and noted that he suffered “from certain Mental Conditions that may or may not truelly explain My actions
in this here Nightmare that I have caused.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 6

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

Hessler explained why he had to discharge his counsel: “GOD has shown me to move into HIS LIGHT and that is why I had to
finially expuregate my council of Attorney's from continuing from representing Me in this case. They refused to follow GOD's
and My wishes.” More specifically, Hessler *939 described a recent encounter with a “Brother of Christ” at the prison who
was awoken from his sleep and led to Hessler's cell to “bring GOD back into My Life and understanding.” When he took this
man's hand, he “felt this powerful Energy to start to flow through my whole body.... GOD was speaking through him to Me ...
I saw a single tear ... and ... His eyes ... were flaming at me.”
Hessler wished for “nothing to be inveighed on Mybehalf that might change the mind set of the Judges or of the People of this
society within this Matrix.” He asked that his “vermiculate tabernacle be sent to the Reaper's Nirvana and for My vermiculate
tabernacle to be gibbeted as soon as possible and there should be no dialectic or extrospection towards or against GOD's Purpose
and My destiny.”
Despite Hessler's failure to present evidence of mitigation, the three-judge sentencing panel considered possible statutory
mitigators, particularly, the absence of Hessler's prior criminal history and his relative age. The panel found no nonstatutory
mitigating circumstances. It found that the aggravating circumstances outweighed the mitigating circumstances. Accordingly,
the panel sentenced Hessler to the death penalty.

3. Direct Appeal
For Hessler's automatic direct appeal, we appointed Hessler's trial counsel to represent him. Counsel assigned as error the trial
court's grant of Hessler's request to proceed pro se at the sentencing hearing and the trial court's failure to conduct a competency
hearing before allowing Hessler to proceed pro se. Hessler filed a pro se brief in which he expressed his continuing wish to
be put to death.
We held that the trial court did not err when it failed to conduct a competency hearing.4 Further, there was no error when the
court did not make an explicit determination that Hessler was competent to waive counsel.5 We explained that the trial court
did not have reason to suspect Hessler's competence. We noted that **510 when Hessler moved to waive counsel, *940 he
was still represented by counsel, and that counsel did not move for a determination of Hessler's competence at that time or at
any previous time.6 And there was “no indication ... that Hessler was unable to consult with counsel with a reasonable degree
of rational understanding. To the contrary, the record contains references to consultations between Hessler and his counsel.”7
Furthermore, we stated that “the court had observed Hessler over many months prior to trial and at trial.”8 There was no
special significance to the fact that Hessler said he was not on his medications on the day the court considered his request
to waive counsel, because “the court was in a position to be satisfied that any medication Hessler was or was not on did not
compromise his present competence to waive counsel.”9 Finally, we explained that although Hessler's pro se filings before
the trial court “contain[ed] irrelevant matter,” they nevertheless indicated that “Hessler understood the factual nature of the
proceedings against him and the potential consequences of such proceedings.”10 Hessler demonstrated in the filings that he
“had a rational and factual understanding that he was being prosecuted for the death of [Guerrero] and that the death penalty
was a potential punishment for that crime.”11

4. Postconviction
After we affirmed Hessler's convictions and sentences on direct appeal, Hessler changed his mind about wanting to be put
to death. He filed a motion for postconviction relief and obtained appointed counsel. In his amended postconviction motion,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 7

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

Hessler presented several allegations, including the allegation that trial counsel was ineffective in failing to investigate Hessler's
mental state and failing to object to going forward with the sentencing hearing without a formal competency *941 investigation
and hearing. After a preliminary hearing to narrow the issues, the postconviction court concluded that Hessler was entitled to
an evidentiary hearing on the limited issue of whether trial counsel was ineffective for failing to raise issues of competency
after Hessler's convictions but prior to mitigation and sentencing. In addition to the entire trial record, the following evidence
was accepted into evidence at the postconviction evidentiary hearing.

(a) Hessler's Deposition
Hessler explained in his deposition testimony that he had informed trial counsel of his intention to terminate their representation
of him on the day they were going to argue a motion alleging electrocution was unconstitutional, March 31, 2005. Hessler
explained that his motivation for terminating counsel was because he wanted the death penalty and counsel refused to advocate
for the death penalty.
When asked about the unusual wording of his pro se motions before the trial court, Hessler said that he came up with the words
used in those motions from his thoughts and “through certain books I came across.” He no longer could recall the meaning
of many of the words he used. When Hessler was asked, “Was there a point in your life where you were speaking like this?”
Hessler answered, “Never.”
**511 Hessler testified that from the beginning of the trial, he understood the charges against him, the potential consequences
for those charges, the role of the jury and the judge, and the purpose of the trial. He testified he still understood all those things
when he decided to terminate his attorneys' representation and proceed pro se at sentencing. Hessler did not specifically address
whether he had ever heard voices.

(b) Arias' Report
A neuropsychological evaluation was conducted at counsel's request by Dr. Robert G. Arias in March 2003, and a 16–page
report was made of this evaluation. Arias noted that Hessler claimed he “must have been chosen to pass on an evil message” and
that killing Guerrero was completely out of his control. Hessler reported a history of heavy drug use and questioned whether
his brain had been “ ‘fried’ ” by drugs. Hessler *942 expressed some concern that he was a “Mafia target” because he had
associated with local drug dealers.
Arias' “Diagnostic Impressions” of Hessler included “Hallucin[o]gen Persisting Perceptual Disorder” and “Depressive Disorder
Not Otherwise Specified.” However, Arias considered the results of the three principal psychological tests conducted on Hessler
to be invalid due to “an organized attempt to portray himself in an overly negative light.” Specifically: “[Hessler] clearly
attempted to answer in a psychotic fashion, but validity scales revealed this to be an intentional attempt to manipulate his
presentation in a negative fashion.” Arias further stated that the results “reflected a broad tendency to magnify his level of
experienced illness or a characterological inclination to complain or be self-pitying.... A similar pattern of overendorsement of
depressive symptomatology was seen....”
In his conclusions, Arias stated that Hessler was an individual with “a longstanding antisocial, narcissistic personality disorder.”
He stated that Hessler was somewhat depressed, which would be expected under the circumstances, and at moderate to high
risk for suicide during his incarceration. But again, “Valid assessment of his emotional functioning on objective measures was
not obtained ... given the patient's clear and organized attempt to portray himself in an overly negative light, particularly with
regard to psychotic symptoms to explain his behavior.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 8

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

(c) Scharf's Letter
In May 2003, trial counsel asked that a psychologist, Dr. Daniel L. Scharf, provide Hessler with treatment for depression. Scharf
provided Hessler with treatment through the summer of 2003. In a letter written to trial counsel on September 3, 2003, Scharf
explained that while he had not conducted a forensic examination, it was his impression that Hessler suffered from bipolar
mood disorder. He also thought Hessler probably suffered from a “delusion disorder, persecutory type.” Scharf was skeptical
of whether Hessler had a mixed antisocial and narcissistic personality disorder and thought that he might instead experience
“narcissism/grandiosity” as a component of the bipolar mood disorder.

*943 (d) Medical Records
Hessler introduced into evidence at the postconviction hearing approximately 450 pages of prison psychological and medical
records and related correspondence from the time period of 2003 to 2010. The records contain numerous prescriptions at different
points in time. Hessler did not present expert testimony regarding those records, nor did he otherwise attempt to explain their
contents as the records pertained to his competency at sentencing.
**512 A psychological report from the prison medical records, written in September 2003, states that according to personality
assessments performed on Hessler, he was “someone who seems to be either exaggerating his symptomologies or is perhaps
making a cry or plea for help.”
The records demonstrate that Hessler was engaged in a dispute with prison staff over his treatment and medications around
the time of the sentencing hearing. Hessler made numerous written communications to prison staff on this point. Hessler was
demanding a prescription or treatment plan. On April 8, 2005, Hessler wrote to the prison mental health staff “asking you if you
would please advise me on what is being done to correct and restructure my treatment medication plan.” On April 12, Hessler
refused the treatment of a psychiatrist and refused one of his medications. On April 15, Hessler wrote to the mental health staff:
Yes, I wrote you ... at the beginning of this week pretaining to your findings and so feedback to the conversation we had on
the morning of the 8th of April of 2005. And as of to date I have yet to hear a response back from you and you stated to me
at the end of that conversation that you would respond to an interview request form that I would send. Have you reached
your findings so that you can advise back to me with those findings? I have also wrote to the medical director, since the
pharmacy forwarded the information that ordered the restructure of my medication treatment plan to him, but I have yet to
hear a response back from him. I would greatly appreciate your services in getting some type of information.... I thank you
for *944 all your help, time, and services in this important matter at hand.
Similarly worded inmate interview requests were made on April 21 and 29, and a letter to the leading psychiatrist was sent on
April 21, asking that a treatment plan recommended previously by another doctor be implemented.
A segregation mental status review on April 8, 2005, stated that Hessler's thought patterns were appropriate, on track, relevant,
and consistent with reality, although his mood was irritable. A psychiatric consultation note on May 6 described that Hessler
was writing to the staff psychiatrist and others concerning disputes about what medication he should be on. The staff psychiatrist
did not think Hessler's current medication was properly treating his anxiety. Accordingly, the psychiatrist discontinued certain
medications and prescribed others. The psychiatrist did not note any other mental or emotional disturbances requiring treatment.
On May 10, 2005, 6 days before his sentencing hearing, Hessler requested authorization for a specific cold medication that
he had used in the past and found effective. The cold medicine which was available without authorization was not working
to relieve his symptoms. He stated: “I have used the cold tabs on the Unit and they are hard to get when you really need one
and plus they do not help relieve fully My congestion and seasonial type allergies.” Many similar minor complaints are found
throughout the prison records.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 9

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

On May 18, 2005, Hessler filled out a health services request form to “please schedule myself for an appointment soon to fully
discuss my medical/mental conditions and the treatment medications that I am currently prescribed by several doctors,” and
Hessler's disagreement with prison medical and psychiatric staff continued. An intake assessment dated May 19, 2005, stated
that no mental health program involvement was recommended.

**513 (e) Trial Counsel
The deposition testimonies of Hessler's trial counsel, James Mowbray and Jeffrey Pickens, were introduced. Both testified that
their decision not to bring the issue of competency to the *945 trial court's attention was not a strategic one. Rather, they
explained they had no doubt that Hessler met the legal test of competency. In light of this, Mowbray and Pickens were concerned
that calling for a competency hearing would result in divulging confidential attorney-client communications and would violate
their client's wishes.

(i) Pickens
Pickens testified that Hessler “seemed to me to be a bright person and he seemed to understand everything that ... I told him.”
On March 23, 2005, Pickens discussed with Hessler the upcoming hearing on a motion for new trial and challenging the
constitutionality of electrocution, as well as the upcoming sentencing hearing. Hessler expressed that he wanted the death
penalty. Hessler also told Pickens that Hessler felt he had “lost his mind over the case.” He told Pickens he was “hearing voices,”
or “thoughts which resemble voices,” which gave him messages relating to what he perceived as his destiny. Hessler conveyed
that he thought these messages were coming from God. In particular, God was telling Hessler not to fight the death penalty.
This was God's “command,” and Hessler told Pickens he had no choice.
Pickens told Hessler they could not ethically pursue a strategy seeking the death penalty. Hessler informed Pickens that,
accordingly, he was thinking about firing Mowbray and Pickens and representing himself.
When Pickens asked Hessler if he believed he was competent, Hessler refused to answer. Hessler also refused to be seen
by another psychologist in order to evaluate his competency. Upon further questioning by Pickens, however, Hessler assured
Pickens that he understood the nature of the upcoming sentencing proceedings and that he was able to help with the defense of
his case. Pickens explained he was trying to determine Hessler's competency under the standard set forth in State v. Guatney.12
Pickens testified that based on Hessler's answers to his questions, he believed Hessler was competent.

*946 (ii) Mowbray
Mowbray testified that from the beginning, Hessler went back and forth on whether he wanted to be put to death or sentenced
to life imprisonment. Later, Hessler became more religious and ultimately insisted on the death penalty. Mowbray said that
although they were not sure what was driving Hessler “in terms of his decision-making,” “[t]here wasn't any question in our
mind from a legal standpoint that he understood” the nature of the upcoming hearings and the penalties he was facing.
When asked whether he had noticed any change in Hessler's understanding of the proceedings from the beginning of their
representation to the time they were discharged, Mowbray said, “No, I think he always understood what was going on. There
was a change in at least what he was communicating as to who was making his decisions. But he certainly understood what
we were telling him.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 10

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

(f) Disposition
The district court denied postconviction relief. The court concluded that the record affirmatively showed Hessler was competent
at the time of the sentencing hearing; therefore, counsel could not have **514 been ineffective in not raising the issue of
competency. Hessler appeals.

III. ASSIGNMENTS OF ERROR
Hessler assigns that the postconviction court erred by failing to find that trial counsel was ineffective in failing to raise and
preserve the issue of competence.

IV. STANDARD OF REVIEW
[1]

A claim that defense counsel provided ineffective assistance presents a mixed question of law and fact.13

[2]

On appeal from a proceeding for postconviction relief, the trial court's findings of fact will be upheld unless such findings

are clearly erroneous.14
[3]

*947 Determinations regarding whether counsel was deficient and whether the defendant was prejudiced are questions

of law that we review independently of the lower court's decision.15

V. ANALYSIS
In this appeal from the denial of postconviction relief, the question is whether trial counsel was ineffective by failing to ask for
a competency hearing before the court allowed Hessler to proceed pro se at sentencing. Hessler argues that an inquiry during
a competency hearing might have revealed he was not competent to stand trial. Even if competent to stand trial, he argues he
may not have been competent to represent himself. Hessler acknowledges that it is traditionally the burden of the petitioner to
more affirmatively demonstrate prejudice, but he argues he was unable to do so in this case because counsel's failure to request
a competency hearing left him with an insufficient record on which to prove a postconviction claim.
[4] [5] [6] We first address whether Hessler's postconviction motion is procedurally barred. A motion for postconviction
relief cannot be used to secure review of issues that were known to the defendant and could have been litigated on direct
review.16 However, when a defendant was represented both at trial and on direct appeal by lawyers employed by the same
office, the defendant's first opportunity to assert ineffective assistance of trial counsel is in a motion for postconviction relief.17
Hessler was represented by the Nebraska Commission on Public Advocacy at trial and on direct appeal. While Hessler also
filed a pro se brief on direct appeal, we will, given the unusual circumstances of the appeal and the gravity of the issues
alleged and sentences imposed, treat these postconviction proceedings as Hessler's first opportunity to raise claims of ineffective
assistance of counsel.18 We also note that while we determined in Hessler I that the trial court did not err in *948 failing to
hold a competency hearing sua sponte,19 this was a different legal question than **515 whether defense counsel should have
requested a competency hearing.20

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 11

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

[7]

[8]

violations.

[9]
21

[10]

Postconviction relief is a very narrow category of relief available only to remedy prejudicial constitutional

The defendant has the burden in postconviction proceedings of demonstrating ineffectiveness of counsel, and

the record must affirmatively support that claim.22 Specifically, the defendant must show, in accordance with Strickland v.
Washington,23 that counsel's performance was deficient; that is, counsel's performance did not equal that of a lawyer with
ordinary training and skill in criminal law in the area.24 Second, the defendant must show that counsel's deficient performance
prejudiced the defense in his or her case; that is, there was a reasonable probability that but for counsel's deficient performance,
the result of the proceeding would have been different.25 The two prongs of this test, deficient performance and prejudice, may
be addressed in either order.26
[11]
[12] In order to demonstrate prejudice from counsel's failure to investigate competency and for failure to seek a
competency hearing, the defendant must demonstrate that there is a reasonable probability that he or she was, in fact, incompetent
and that the trial court would have found the defendant incompetent had a competency hearing been conducted.27 Other courts
have said *949 that in order to successfully advance a claim that counsel was ineffective for failing to obtain or have a
transcribed record for review, a defendant must demonstrate specific prejudice resulting from not having that record.28 Counsel
is not ineffective for failing “to undertake useless procedural challenges merely to create a record impregnable to assault for
claimed inadequacy of counsel.”29
The issue of prejudice in this case is necessarily bound up in the law of competency, and we will turn to that now.30 In doing
so, we consider the state of the law at the time of the proceedings at issue.31
[13]

[14]

An individual has a constitutional right not to be put to trial when lacking “mental competency.”32 This includes

sentencing.33 In Guatney, we said **516 that the test of competency to stand trial is whether the defendant has the capacity
to understand the nature and object of the proceedings against him, to comprehend his own condition in reference to such
proceedings, and to make a rational defense.34 We held that the defendant in Guatney was clearly competent when expert
witnesses agreed he could appreciate the proceedings in court; understand the nature of the roles that the judge, the prosecutor,
and the defense attorney would play; and cooperate with his attorneys to provide for a defense.35 The defendant's unstable
emotional state, paranoid ideation, occasional outbursts in court and *950 “desire for undeserved punishment rather than
justice,” did not render him incompetent.36
[15]

A criminal defendant also has a constitutional right to waive the assistance of counsel and conduct his or her own

defense.37 In Godinez v. Moran,38 the U.S. Supreme Court held that the competency standard for determining whether a
defendant may waive the right to counsel and plead guilty is the same as the standard for determining whether a defendant is
competent to stand trial.
The defendant in Godinez was evaluated by two psychiatrists prior to trial. Both concluded that despite a suicide attempt after
the crimes, the defendant was able to understand the pending proceedings and assist counsel in his defense. Two months after
pleading not guilty, the defendant sought to discharge his attorneys, plead guilty, and represent himself at sentencing so he could
prevent the presentation of mitigating evidence and be sentenced to death. The court found the defendant to be competent and
accepted his plea as freely and voluntarily given and his waiver of counsel as knowingly and intelligently made.39
After being sentenced to death, the defendant asked for post-conviction relief, asserting that the trial court erred in allowing him
to represent himself and in accepting his plea. The Ninth Circuit Court of Appeals granted the motion, reasoning that competency
to waive constitutional rights required a higher level of the “capacity for ‘reasoned choice’ ”40 than did the requirement to stand
trial, which is that a defendant have a “ ‘rational and factual understanding of the proceedings and is capable of assisting his

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 12

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

counsel.’ ”41 The U.S. Supreme Court disagreed. It noted that the decision to plead guilty is no more *951 complicated than
the sum total of decisions a defendant must make during the course of a trial when represented by counsel, such as whether to
take the witness stand, waive the right to a jury trial, and other strategic choices.42
[16] The Court reiterated that “a criminal defendant's ability to represent himself has no bearing upon his competence to choose
self-representation.”43 “Requiring **517 that a criminal defendant be competent,” the Court said, “has a modest aim: It seeks
to ensure that he has the capacity to understand the proceedings and to assist counsel.”44
Subsequently, in State v. Dunster (Dunster I )45 and State v. Dunster (Dunster II ),46 we upheld the defendant's decision to
waive counsel, plead guilty, and proceed pro se at the sentencing hearing despite defendant's strategy of pursuing “ ‘suicide by
state.’ ”47 The defendant was on Prozac, Depakote, and Librium and was diagnosed with bipolar disorder. However, he had
told the court that the medication and his disorder did not affect his ability to understand what was going on around him.48
The trial court later conducted a competency hearing requested by counsel during a brief moment after pleading guilty when
the defendant stated he wished to have counsel. A psychiatrist testified that the defendant was well oriented and understood
the charges and the possible consequences. The defendant was subsequently allowed to again waive counsel and proceed to
represent himself at sentencing.
After sentencing, the defendant filed a motion for new trial based on previously undisclosed medical records indicating an acute
psychotic episode and undiagnosed depression. The trial court stated that the defendant's mental condition had “ ‘ebbed and
flowed’ ” during the sentencing hearing, but that he was *952 legally competent, and the motion for new trial was denied.49
We affirmed, reasoning that the record and the trial court's specific findings of competency made it clear that had the newly
discovered evidence been known, the trial court would have reached the same conclusion.50
Later, in the case of State v. Gunther,51 we affirmed the trial court's implicit determination of competency as part of the waiver of
counsel colloquy when there was no separate hearing on competency. Like the defendant in Dunster I, the defendant in Gunther
wished to proceed pro se at trial and at sentencing in order to be put to death.52 Although no notice of aggravating circumstances
had been filed, and the death penalty was thus not a possibility, the defendant wished to discharge his attorneys because he
thought they were colluding with the prosecution to deny him the death penalty.53 We held that the record showed the defendant
was sufficiently aware of his right to have counsel and to understand the charges against him, the possible sentences, and
the possible consequences of foregoing counsel.54 He was accordingly legally competent to stand trial and represent himself,
despite paranoid thoughts and a desire for capital punishment.
[17]

[18]

[19]

There are no fixed or immutable signs of incompetence.55 As the above **518 cases illustrate, a defendant

can meet the “modest aim”56 of legal competency, despite paranoia, emotional disorders, unstable mental conditions, and
suicidal tendencies. The desire for capital punishment certainly does not create a reasonable probability of incompetency.57 This
is *953 not an overly uncommon or inherently irrational trial strategy. Furthermore, a rule requiring reversal when a capital
defendant chooses self-representation and insists on the death penalty “could easily be misused by a knowledgeable defendant
who wished to embed his trial with reversible error.”58
[20]

Hearing voices representing messages from God does not, without evidence of how the messages affect the defendant's

ability to comprehend the trial proceedings and make a rational defense, demonstrate incompetence.59 And as one court noted,
psychiatric clinicians are especially careful in characterizing religious beliefs or experiences as delusional.60

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 13

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

The fundamental question is whether the defendant's mental disorder or condition prevents the defendant from having the
capacity to understand the nature and object of the proceedings, to comprehend the defendant's own condition in reference to
such proceedings, and to make a rational defense.61
[21] In the hundreds of pages of medical records, Hessler's correspondence, and psychological reports and evaluations, and
in the testimony of Hessler's trial counsel and of Hessler himself, there is no indication that Hessler was incompetent to stand
trial. Neither did Hessler's actions before the sentencing panel indicate he was unable to maneuver through those proceedings.
The “Interlocutory Statement of the Defendant” was unusually worded. It was thus difficult, but not impossible, to understand.
The sentiment conveyed in the statement was reportedly guided by Hessler's religious experiences and beliefs. The vocabulary
was apparently derived from religious books *954 Hessler was reading. This does not demonstrate a reasonable probability
that Hessler was incompetent at the time of sentencing. Hessler testified that he never spoke in such an unusual manner. Pickens
did not observe any form of incoherent or unusual speech when he met with Hessler shortly before the sentencing hearing.
Hessler's written communications on other matters to prison staff reflects a completely different tone and content which were
appropriate to Hessler's age and education and the topic at hand.
The only other possible evidence presented by Hessler relating to incompetence **519 was Pickens' report that Hessler said he
heard voices relaying God's messages and that he had to obey God's commands. But Pickens also described these as “thoughts
which resemble voices.” And, at the evidentiary hearing, Hessler failed to acknowledge ever having heard voices. He also failed
to present any evidence explaining in more detail the nature of these “voices” and how they might have affected his ability to
understand the sentencing proceedings.
As already discussed, we will not assume that hearing messages from God and following God's perceived commands, without
more, demonstrate incompetence. Hessler provided no evidence that the alleged “voices” made him incompetent. Similarly, the
evidence that Hessler was prescribed psychiatric medications which he may or may not have been taking at the time of sentencing
does not demonstrate incompetence, absent some expert testimony connecting the medications to his ability to understand the
proceedings and assist in his defense.
Mowbray and Pickens testified that at the time of sentencing, there was no doubt Hessler was competent under the standards
set forth in Guatney.62 They knew their client. Hessler's general demeanor and his responses to questions specifically geared
toward assessing competency demonstrated to Mowbray and Pickens that he understood the nature of the proceedings and was
capable of assisting counsel (or himself).
Hessler's profession that he was under God's control was not new. Similar sentiments had been shared with Arias, who concluded
that Hessler demonstrated a “clear and organized *955 attempt to portray himself in an overly negative light, particularly
with regard to psychotic symptoms to explain his behavior.” Prison psychological records similarly report a tendency of
“exaggerating” symptoms. A report near the time of sentencing stated that Hessler was displaying appropriate thought patterns
consistent with reality and on track. As noted by the district court, rather than meeting his burden of affirmatively demonstrating
incompetence, the record developed at the evidentiary hearing affirmatively shows that Hessler met the legal standard of
competency required to waive counsel and proceed pro se at sentencing.
In fact, Hessler ultimately concedes he failed to demonstrate a reasonable probability that he would have been found incompetent
had trial counsel demanded a competency hearing prior to the sentencing hearing. Thus, he failed to show prejudice in the
traditional sense required at postconviction. Hessler instead argues the prejudice lies in the absence of a meaningful record with
which he could prove such incompetency.
We have already discussed the substantial record developed at trial and during the evidentiary hearing on the issue of
competency. What Hessler is truly arguing is that trial counsel's failure to call for a competency hearing resulted in the possible
loss of vital additions to that evidence. Because competency changes over time, Hessler argues he can never obtain the evidence
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 14

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

that trial counsel failed to obtain at the time of the sentencing hearing and he can never know what that evidence would or
would not have been.
Recognizing that the law does not consider this to be proof of prejudice, Hessler suggests we adopt a special prejudice rule for
death penalty cases. Under the proposed rule, counsel is put on “inquiry notice” **520 63 when a defendant reports hearing
voices. Once put on notice, counsel is per se ineffective for failing to call for a competency hearing, unless there is a strategic
reason not to do so.
[22] We decline to adopt such a rule. Counsel is not required to move for a competency hearing at every alleged sign of
mental illness. Counsel is not required “to undertake useless *956 procedural challenges merely to create a record impregnable
to assault for claimed inadequacy of counsel.”64 Insofar as the failure to call into question the defendant's competency could
conceivably be deemed prejudicial because of a lost moment in time, the defendant must still demonstrate specific prejudice
resulting from not having the hearing.65 That showing is not made through mere speculation that a hearing might have revealed
something more.
At Hessler's disposal was a large medical file, several witnesses to Hessler's behavior, numerous exemplars of Hessler's written
communications, and several psychological assessments and reports. Yet, Hessler did not present any testimony or opinion
which even attempted a retrospective evaluation of the probability that Hessler was incompetent at the time of the sentencing
hearing. Perhaps most notably, Hessler did not present the testimony of the prison psychiatrist who was treating Hessler at the
time of the sentencing hearing and who presumably would have some insight into his competency.
Hessler was granted an evidentiary hearing and was granted the appointment of counsel at the evidentiary hearing. He was
given an opportunity to present evidence demonstrating that had counsel called for a competency hearing, he would have been
found incompetent to stand trial and waive counsel. He failed to make such a showing. Accordingly, the district court properly
denied postconviction relief.

VI. CONCLUSION
Hessler failed to demonstrate that a constitutional violation occurred when trial counsel did not move for a competency hearing
before the sentencing hearing. We affirm the judgment of the district court denying postconviction relief.
Affirmed.

HEAVICAN, C.J., and WRIGHT, J., not participating.
All Citations
282 Neb. 935, 807 N.W.2d 504
Footnotes
State v. Hessler, 274 Neb. 478, 741 N.W.2d 406 (2007).
1
See Neb.Rev.Stat. § 29–2523 (Reissue 2008).
2
Hessler I, supra note 1.
3
Id.
4
Id.
5
Id.
6

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 15

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
40
41
42
43
44
45
46
47
48
49
50
51
52
53

Id. at 509, 741 N.W.2d at 429.
Id.
Id.
Id. at 509–10, 741 N.W.2d at 429.
Id. at 510, 741 N.W.2d at 429–30.
State v. Guatney, 207 Neb. 501, 299 N.W.2d 538 (1980).
State v. McGhee, 280 Neb. 558, 787 N.W.2d 700 (2010).
State v. Poindexter, 277 Neb. 936, 766 N.W.2d 391 (2009).
State v. Yos–Chiguil, 281 Neb. 618, 798 N.W.2d 832 (2011).
State v. Ryan, 248 Neb. 405, 534 N.W.2d 766 (1995), abrogated on other grounds, State v. Mata, 275 Neb. 1, 745 N.W.2d 229 (2008).
State v. Dunster, 278 Neb. 268, 769 N.W.2d 401 (2009).
See State v. Johnson, 4 Neb.App. 776, 551 N.W.2d 742 (1996).
State v. Hessler, supra note 1.
Lawrence v. State, 969 So.2d 294 (Fla.2007).
See State v. Boppre, 280 Neb. 774, 790 N.W.2d 417 (2010).
State v. Ray, 266 Neb. 659, 668 N.W.2d 52 (2003).
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).
See State v. Watkins, 277 Neb. 428, 762 N.W.2d 589 (2009).
See id.
State v. Amaya, 276 Neb. 818, 758 N.W.2d 22 (2008).
See, Matheney v. Anderson, 377 F.3d 740 (7th Cir.2004); Hull v. Kyler, 190 F.3d 88 (3d Cir.1999); Williamson v. Ward, 110 F.3d 1508
(10th Cir.1997); Futch v. Dugger, 874 F.2d 1483 (11th Cir.1989); Felde v. Butler, 817 F.2d 281 (5th Cir.1987); Nelson v. State, 43
So.3d 20 (Fla.2010); Ridgley v. State, 148 Idaho 671, 227 P.3d 925 (2010).
See, e.g., Bates v. State, 3 So.3d 1091 (Fla.2009).
People v. Shelburne, 104 Cal.App.3d 737, 744, 163 Cal.Rptr. 767, 772 (1980).
See Hull v. Kyler, supra note 27.
See, State v. Iromuanya, 272 Neb. 178, 719 N.W.2d 263 (2006); State v. Billups, 263 Neb. 511, 641 N.W.2d 71 (2002).
See Indiana v. Edwards, 554 U.S. 164, 128 S.Ct. 2379, 171 L.Ed.2d 345 (2008).
See, e.g., State v. Hittle, 257 Neb. 344, 598 N.W.2d 20 (1999); State v. Johnson, supra note 18; Neb.Rev.Stat. § 29–1823(1) (Reissue
2008).
State v. Guatney, supra note 12.
Id.
Id. at 505, 299 N.W.2d at 541.
See State v. Lewis, 280 Neb. 246, 785 N.W.2d 834 (2010).
Godinez v. Moran, 509 U.S. 389, 113 S.Ct. 2680, 125 L.Ed.2d 321 (1993).
Id.
See 509 U.S. at 397, 113 S.Ct. 2680.
See 509 U.S. at 394, 113 S.Ct. 2680.
Godinez v. Moran, supra note 38.
509 U.S. at 400, 113 S.Ct. 2680 (emphasis in original).
509 U.S. at 402, 113 S.Ct. 2680.
State v. Dunster, 262 Neb. 329, 631 N.W.2d 879 (2001).
State v. Dunster, 270 Neb. 773, 707 N.W.2d 412 (2005).
Id. at 779, 707 N.W.2d at 417.
Dunster II, supra note 46. See, also, Dunster I, supra note 45.
Dunster II, supra note 46, 270 Neb. at 783, 707 N.W.2d at 420.
Id.
State v. Gunther, 271 Neb. 874, 716 N.W.2d 691 (2006).
Id.
Id.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 16

State v. Hessler, 282 Neb. 935 (2011)
807 N.W.2d 504

54
55
56
57
58
59

60
61
62
63
64
65

Id.
Drope v. Missouri, 420 U.S. 162, 95 S.Ct. 896, 43 L.Ed.2d 103 (1975).
Godinez v. Moran, supra note 38, 509 U.S. at 402, 113 S.Ct. 2680.
See, also, e.g., State v. Cowans, 87 Ohio St.3d 68, 717 N.E.2d 298 (1999).
People v. Taylor, 47 Cal.4th 850, 865, 220 P.3d 872, 882, 102 Cal.Rptr.3d 852, 865 (2009). See, also, e.g., State v. Cowans, supra
note 57.
See, Crawley v. Dinwiddie, 584 F.3d 916 (10th Cir.2009); Ford v. Bowersox, 256 F.3d 783 (8th Cir.2001); State v. Paulino, 127
Conn.App. 51, 12 A.3d 628 (2011); State v. Young, 623 So.2d 689 (La.App.1993); State v. Hope, 96 N.C.App. 498, 386 S.E.2d 224
(1989). See, also, e.g., Williams v. State, 396 So.2d 267 (Fla.App.1981); Calambro v. District Court, 114 Nev. 961, 964 P.2d 794
(1998).
See Bottoson v. Moore, 234 F.3d 526 (11th Cir.2000).
State v. Guatney, supra note 12.
See State v. Guatney, supra note 12.
Brief for appellant at 14.
People v. Shelburne, supra note 29, 104 Cal.App.3d at 744, 163 Cal.Rptr. at 772.
See, e.g., Bates v. State, supra note 28.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix H 17

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

Appendix I

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

274 Neb. 478
Supreme Court of Nebraska.

STATE of Nebraska, Appellee
v.
Jeffrey HESSLER, Appellant.
No. S–05–629.
|
Nov. 30, 2007.
Synopsis
Background: Defendant was convicted by a jury in the District Court, Scotts Bluff County, Randall L. Lippstreu, J., of first
degree murder, kidnapping, first degree sexual assault on a child, and use of a firearm to commit a felony and was sentenced
to death. Defendant appealed.

Holdings: The Supreme Court, Miller-Lerman, J., held that:
[1] denial of defendant's motion to plead guilty to felony murder was not an abuse of discretion;
[2] use of defendant's prior sexual assault of different victim to prove the aggravating circumstance that defendant had a prior
history of serious assaultive criminal activity was not an abuse of discretion;
[3] trial court's failure to excuse four jurors for cause did not constitute reversible error;
[4] denial of defendant's motion to change venue was not an abuse of discretion;
[5] trial court was not required to conduct competency hearing to determine whether defendant was competent to waive counsel
during sentencing hearing; and
[6] waiver of counsel during sentencing hearing was knowing, voluntary, and intelligent.
Affirmed.

West Headnotes (30)
[1]

Criminal Law

Plea of Guilty

Criminal Law

Amendments and rulings as to indictment or pleas

A trial court is given discretion as to whether to accept a guilty plea; an appellate court will overturn that decision
only where there is an abuse of discretion.
1 Cases that cite this headnote

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 1

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

[2]

Criminal Law
Jury

Selection and impaneling

Discretion of court

The retention or rejection of a venireperson as a juror is a matter of discretion with the trial court and is subject to
reversal only when clearly wrong.
1 Cases that cite this headnote
[3]

Criminal Law

Discretion of court

Criminal Law

Change of venue

A motion for change of venue is addressed to the discretion of the trial judge, whose ruling will not be disturbed
absent an abuse of discretion.
1 Cases that cite this headnote
[4]

Criminal Law

Constitutional issues in general

The constitutionality of a statute is a question of law, regarding which the Nebraska Supreme Court is obligated to
reach a conclusion independent of the determination reached by the trial court.

[5]

Criminal Law

Failure or Refusal to Give Instructions

To establish reversible error from a court's refusal to give a requested instruction, an appellant has the burden to show
that (1) the tendered instruction is a correct statement of the law, (2) the tendered instruction is warranted by the
evidence, and (3) the appellant was prejudiced by the court's refusal to give the tendered instruction.
3 Cases that cite this headnote
[6]

Criminal Law

Counsel

In determining whether a defendant's waiver of counsel was voluntary, knowing, and intelligent, an appellate court
applies a clearly erroneous standard of review.
2 Cases that cite this headnote
[7]

Criminal Law

Requisites and Proceedings for Entry

Trial court denial of defendant's motion to plead guilty to felony murder was not an abuse of discretion; the State
originally charged defendant with premeditated murder and felony murder, and the trial court determined that if the
guilty plea to felony murder was accepted there would be confusion as to whether defendant should thereafter be tried
for premeditated murder.

[8]

Criminal Law

Right to plead guilty; mental competence

Criminal Law

Plea of No Contest or Nolo Contendere

A criminal defendant has no absolute right to have his or her plea of guilty or nolo contendere accepted even if the
plea is voluntarily and intelligently made.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 2

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

[9]

Criminal Law

Amendments and rulings as to indictment or pleas

The Supreme Court will overturn a decision on whether to accept a plea of guilty only where there is an abuse of
discretion.
1 Cases that cite this headnote
[10]

Criminal Law

Discretion of Lower Court

A judicial abuse of discretion exists only when the reasons or rulings of a trial judge are clearly untenable, unfairly
depriving a litigant of a substantial right and denying a just result in matters submitted for disposition.
1 Cases that cite this headnote
[11]

Sentencing and Punishment

Nature, degree, or seriousness of other offense

The trial court's use of defendant's prior sexual assault of different victim to prove the aggravating circumstance that
defendant had a prior history of serious assaultive criminal activity was not an abuse of discretion, in prosecution
for first degree murder and other crimes; the use of the prior offense to prove an aggravating circumstance did not
increase the penalty for the prior offense and did not expose defendant to new jeopardy for the offense. Neb.Rev.St.
§ 29–2523(1)(a).
2 Cases that cite this headnote
[12]

Double Jeopardy

Enhanced offense or punishment

The use of a prior offense to prove an aggravating circumstance did not increase the penalty for the prior offense
and did not expose the defendant to new jeopardy for such offense. U.S.C.A. Const.Amend. 5; Neb.Rev.St. § 29–
2523(1)(a).

[13]

Criminal Law

Overruling challenges to jurors

The trial court's failure to excuse four jurors for cause did not constitute reversible error, in first degree murder
prosecution, where the four jurors were removed by defendant and the State's use of peremptory challenges and did
not actually sit on the jury.
1 Cases that cite this headnote
[14]

Criminal Law

Overruling challenges to jurors

The erroneous overruling of a challenge for cause will not warrant reversal unless it is shown on appeal that an
objectionable juror was forced upon the challenging party and sat upon the jury after the party exhausted his or her
peremptory challenges.
2 Cases that cite this headnote
[15]

Jury

Belief of juror that opinion will not affect verdict in general

The trial court's failure to excuse juror for cause was not clearly erroneous, in prosecution for first degree murder, even
though juror initially stated that he had formed an opinion regarding defendant's guilt; juror stated that his opinion was
not so strong that he could not set it aside and take an oath to render a fair and impartial verdict, and juror indicated
that he understood that the State had the burden of proving defendant guilty. Neb.Rev.St. § 29–2006(2).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 3

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

1 Cases that cite this headnote
[16]

Criminal Law

Selection and impaneling

In decisions regarding challenges to potential jurors, deference to the trial court is appropriate because it is in a position
to assess the demeanor of the venire, and of the individuals who compose it, a factor of critical importance in assessing
the attitude and qualifications of potential jurors.

[17]

Criminal Law

Particular offenses

Trial court denial of defendant's motion to change venue was not an abuse of discretion, in prosecution for first degree
murder and other crimes; defendant did not offer evidence regarding newspaper stories or other publicity regarding
the case, and an impartial jury as selected to hear case.
1 Cases that cite this headnote
[18]

Sentencing and Punishment

Procedure

The state death penalty statutes were not rendered unconstitutional due to the limited role the statutes gave the jury
in capital sentencing; no authority required that a jury find aggravating circumstances, find mitigating circumstances,
weigh aggravating and mitigating circumstances, or have further input into determining the sentence. Neb.Rev.St. §§
29–2520, 29–2521.
3 Cases that cite this headnote
[19]

Sentencing and Punishment

Instructions

The trial court's failure to provide defendant's requested jury instruction in the aggravation phase of the trial that
would have required the jury to unanimously find facts supporting each alleged aggravating circumstance and to set
forth such findings in writing did not prejudice defendant, in prosecution for first degree murder and other crimes;
the court instructed the jury that in order to find that an aggravating circumstance existed, it needed to “unanimously
agree beyond a reasonable doubt that an aggravating circumstance is true” and “unanimously decide that the state
proved each essential element of an aggravating circumstance beyond a reasonable doubt,” and no statute required
the jury to make written findings of facts or to be unanimous regarding the specific facts that supported its verdict.
Neb.Rev.St. §§ 29–2520(4)(f),29–2521(2).
2 Cases that cite this headnote
[20]

Sentencing and Punishment

Hearing

Trial court was not required to conduct competency hearing to determine whether defendant was competent to waive
counsel during first degree murder sentencing hearing; the proceedings did not provide reason to doubt defendant's
competence to waive counsel, defense counsel never challenged defendant's competence to stand trial, and pleadings
filed by defendant indicated that he understood the factual nature of the proceedings against him, and the potential
consequences of such proceedings.
2 Cases that cite this headnote
[21]

Criminal Law

Capacity and requisites in general

Criminal Law

Waiver of right to counsel

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 4

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

The two-part inquiry into whether a court should accept a defendant's waiver of counsel is, first, a determination that
the defendant is competent to waive counsel and, second, a determination that the waiver is knowing, intelligent, and
voluntary. U.S.C.A. Const.Amend. 6.
3 Cases that cite this headnote
[22]

Criminal Law

Right to plead guilty; mental competence

Criminal Law

Waiver of right to counsel

A court is not required to make a competency determination in every case in which a defendant seeks to plead guilty
or to waive his or her right to counsel; a competency determination is necessary only when the court has reason to
doubt the defendant's competence. U.S.C.A. Const.Amend. 6.
2 Cases that cite this headnote
[23]

Sentencing and Punishment

Counsel

Defendant's waiver of counsel during the sentencing hearing of first degree murder trial was knowing, voluntary,
and intelligent; defendant was represented by counsel throughout the guilt and aggravation phases of trial, the court
questioned defendant extensively regarding his knowledge of his right to counsel and the consequences of waiving
counsel, and defendant informed the court that he was not being coerced into waiving counsel. U.S.C.A. Const.Amend.
6.

[24]

Criminal Law

Capacity and requisites in general

When a criminal defendant has waived the right to counsel, the Supreme Court reviews the record to determine whether
under the totality of the circumstances, the defendant was sufficiently aware of his or her right to counsel and the
possible consequences of his or her decision to forgo the aid of counsel. U.S.C.A. Const.Amend. 6.
2 Cases that cite this headnote
[25]

Sentencing and Punishment

Admissibility

Sentencing panel had the authority to consider the records of the guilt and aggravation phases of trial and to use
such evidence to determine defendant's sentences, in prosecution for first degree murder and other offenses; statute
provided that evidence could be presented as to any matter that the judge deemed relevant to mitigation and sentence
excessiveness. Neb.Rev.St. § 29–2521(2, 3).
2 Cases that cite this headnote
[26]

Sentencing and Punishment

Applicability of rules of evidence in general

The sentencing phase is separate and apart from the trial phase, and the traditional rules of evidence may be relaxed
following conviction so that the sentencing authority can receive all information pertinent to the imposition of
sentence.
1 Cases that cite this headnote
[27]

Sentencing and Punishment

Discretion of court

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 5

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

A sentencing court has broad discretion as to the source and type of evidence and information which may be used in
determining the kind and extent of the punishment to be imposed, and evidence may be presented as to any matter
that the court deems relevant to the sentence.
2 Cases that cite this headnote
[28]

Sentencing and Punishment

Admissibility

The sentencing court, in imposing the death penalty, has the statutory authority to consider the trial record.

[29]

Sentencing and Punishment

Proportionality

Sentence of death for first degree murder was proportionate to sentences imposed in similar cases. Neb.Rev.St. § 29–
2523(1)(a, b, d).
3 Cases that cite this headnote
[30]

Sentencing and Punishment

Proportionality

Proportionality review looks only to other cases in which the death penalty has been imposed and requires the Nebraska
Supreme Court to compare the aggravating and mitigating circumstances of a case with those present in other cases in
which the death penalty was imposed, and ensure that the sentence imposed in a case is no greater than those imposed
in other cases with the same or similar circumstances. Neb.Rev.St. § 29–2521.03.
5 Cases that cite this headnote

**409 Syllabus by the Court
*478 1. Pleas: Appeal and Error. A trial court is given discretion as to whether to accept a guilty plea; an appellate court
will overturn that decision only where there is an abuse of discretion.
2. Trial: Juries: Appeal and Error. The retention or rejection of a venireperson as a juror is a matter of discretion with the
trial court and is subject to reversal only when clearly wrong.
3. Venue: Appeal and Error. A motion for change of venue is addressed to the discretion of the trial judge, whose ruling will
not be disturbed absent an abuse of discretion.
4. Constitutional Law: Statutes: Appeal and Error. The constitutionality of a statute is a question of law, regarding which the
Nebraska Supreme Court is obligated to reach a conclusion independent of the determination reached by the trial court.
**410 5. Jury Instructions: Proof: Appeal and Error. To establish reversible error from a court's refusal to give a requested
instruction, an appellant has the burden to show that (1) the tendered instruction is a correct statement of the law, (2) the
tendered instruction is warranted by the evidence, and (3) the appellant was prejudiced by the court's refusal to give the tendered
instruction.
6. Right to Counsel: Waiver: Appeal and Error. In determining whether a defendant's waiver of counsel was voluntary,
knowing, and intelligent, an appellate court applies a “clearly erroneous” standard of review.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 6

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

7. Criminal Law: Pleas. A criminal defendant has no absolute right to have his or her plea of guilty or nolo contendere accepted
even if the plea is voluntarily and intelligently made.
8. Judges: Words and Phrases. A judicial abuse of discretion exists only when the reasons or rulings of a trial judge are clearly
untenable, unfairly depriving *479 a litigant of a substantial right and denying a just result in matters submitted for disposition.
9. Double Jeopardy: Prior Convictions. The use of a prior offense to prove an aggravating circumstance under Neb.Rev.Stat.
§ 29–2523(1)(a) (Cum.Supp.2006) does not increase the penalty for the prior offense and does not expose the defendant to
new jeopardy for such offense. Because the use of evidence of a prior offense to prove an aggravating circumstance under
§ 29–2523(1)(a) does not expose the defendant to new jeopardy for the prior offense, such use does not violate the Double
Jeopardy Clause.
10. Jurors: Appeal and Error. The erroneous overruling of a challenge for cause will not warrant reversal unless it is shown
on appeal that an objectionable juror was forced upon the challenging party and sat upon the jury after the party exhausted his
or her peremptory challenges.
11. Trial: Juries. In decisions regarding challenges to potential jurors, deference to the trial court is appropriate because it is
in a position to assess the demeanor of the venire, and of the individuals who compose it, a factor of critical importance in
assessing the attitude and qualifications of potential jurors.
12. Right to Counsel: Waiver. The two-part inquiry into whether a court should accept a defendant's waiver of counsel is,
first, a determination that the defendant is competent to waive counsel and, second, a determination that the waiver is knowing,
intelligent, and voluntary.
13. Trial: Mental Competency: Pleas: Right to Counsel: Waiver. A court is not required to make a competency determination
in every case in which a defendant seeks to plead guilty or to waive his or her right to counsel. As in any criminal case, a
competency determination is necessary only when the court has reason to doubt the defendant's competence.
14. Sentences: Rules of Evidence. The sentencing phase is separate and apart from the trial phase, and the traditional rules
of evidence may be relaxed following conviction so that the sentencing authority can receive all information pertinent to the
imposition of sentence.
15. Courts: Sentences: Rules of Evidence. A sentencing court has broad discretion as to the source and type of evidence and
information which may be used in determining the kind and extent of the punishment to be imposed, and evidence may be
presented as to any matter that the court deems relevant to the sentence.
16. Death Penalty: Records. The sentencing court, in imposing the death **411 penalty, has the statutory authority to consider
the trial record.
17. Sentences: Death Penalty: Aggravating and Mitigating Circumstances: Appeal and Error. Proportionality review
under Neb.Rev.Stat. § 29–2521.03 (Cum.Supp.2006) looks only to other cases in which the death penalty has been imposed
and requires the Nebraska Supreme Court to compare the aggravating and mitigating circumstances of a case with those present
in other cases in which the death penalty was imposed, and ensure that the sentence imposed in a case is no greater than those
imposed in other cases with the same or similar circumstances.
Attorneys and Law Firms
James R. Mowbray and Jeffery A. Pickens, of Nebraska Commission on Public Advocacy, for appellant.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 7

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

Jon Bruning, Attorney General, and J. Kirk Brown, Lincoln, for appellee.
WRIGHT, CONNOLLY, GERRARD, STEPHAN, McCORMACK, and MILLER–LERMAN, JJ., and HANNON, Judge,
Retired.
MILLER–LERMAN, J.
*480 I. NATURE OF CASE
Jeffrey Hessler was convicted in the district court for Scotts Bluff County of first degree murder, kidnapping, first degree sexual
assault on a child, and use of a firearm to commit a felony. Following Hessler's conviction for first degree murder, the jury found
that three statutory aggravating circumstances existed. After the convictions and findings of aggravating circumstances but
prior to sentencing, the court granted Hessler's pro se request to waive counsel for the remainder of the case. Hessler appeared
pro se at the sentencing proceeding. In its sentencing order, the sentencing panel accepted the jury's verdicts finding that three
statutory aggravating circumstances existed. The panel further concluded that no statutory or nonstatutory mitigating factors
were established, that mitigating factors did not approach or exceed the weight of the aggravating circumstances, and that a
death sentence would not be excessive or disproportionate to sentences previously imposed in similar circumstances. The panel
therefore sentenced Hessler to death for first degree murder; to life imprisonment without parole for kidnapping; to 40 to 50
years' imprisonment for sexual assault; and to 20 to 25 years' imprisonment for the firearms conviction, with each sentence to
be served consecutively to the others.
This automatic appeal followed. After Hessler filed a pro se brief assigning no error, we appointed counsel to represent Hessler
on appeal. Appointed counsel filed a brief assigning various errors with respect to the guilt, aggravation, and sentencing phases
of the trial. We affirm Hessler's convictions and sentences.

*481 II. STATEMENT OF FACTS
On the morning of February 11, 2003, 15–year–old Heather Guerrero left her home in Gering, Nebraska, to make deliveries
on her newspaper route. Heather never returned home. A search was conducted, and on the morning of February 12, Heather's
body was found in the basement of an abandoned house near Lake Minatare, Nebraska.
During the investigation of Heather's disappearance, a witness who was walking his dog on the morning of February 11, 2003,
reported that he had heard a scream and had seen a silver or tan Nissan Altima drive by at a high rate of speed. A car matching
that description belonged to a friend of Hessler's who had allowed Hessler to drive the car. A search of the car revealed three
boxes of live ammunition, **412 some spent casings, and Hessler's wallet. After police questioned Hessler, Hessler gave
police his semiautomatic handgun. In response to interrogation, Hessler admitted to having sex with Heather but asserted that
it was consensual. Hessler said that after Heather indicated she would not keep the encounter secret, he “freaked out,” took her
to the basement of the abandoned house, and shot her.
On February 26, 2003, the State filed an information charging Hessler with five counts in connection with the death of Heather:
count I, premeditated murder; count II, felony murder; count III, kidnapping; count IV, first degree sexual assault; and count V,
use of a firearm to commit a felony. In connection with counts I and II, the State gave notice of aggravating circumstances and
alleged that under Neb.Rev.Stat. § 29–2523 (Cum.Supp.2006), (1) Hessler had a substantial prior history of serious assaultive
or terrorizing criminal activity (§ 29–2523(1)(a)); (2) the murder was committed in an effort to conceal the commission of the
crimes of the kidnapping and sexual assault of Heather and the sexual assault of another girl, J.B. (§ 29–2523(1)(b)); and (3)
the murder was especially heinous, atrocious, cruel, or manifested exceptional depravity by ordinary standards of morality and
intelligence (§ 29–2523(1)(d)).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 8

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

*482 On May 19, 2003, Hessler made an oral motion to plead guilty to count II, felony murder, and to count IV, first degree
sexual assault. The court responded that it would deny the motion until it had time to research the issue. Hessler filed a written
motion to plead guilty on June 4, and a hearing was held June 18. The court denied the motion in an order dated July 25. The
court stated that Hessler did not have an absolute right to have his plea accepted and that accepting the plea would cause more
uncertainty than finality because both counts I and II charged Hessler with first degree murder and accepting a plea on one
of the counts would create confusion as to whether trial was necessary or permitted on the other count. Hessler attempted to
appeal the July 25 order, but this court dismissed the appeal for lack of jurisdiction. State v. Hessler, 267 Neb. xxii (No. S–
03–967, Feb. 11, 2004).
On April 9, 2004, Hessler filed a motion to plead guilty to the count of felony murder and to all remaining counts other than
premeditated murder. A hearing on the motion was scheduled for April 14. On that day, the State filed a motion to dismiss the
count of felony murder. At the hearing, the court first considered the State's motion to dismiss. The court sustained the motion
to dismiss the count of felony murder and then denied Hessler's motion to plead guilty to that count. Hessler declined to plead
guilty to the remaining counts. Hessler attempted to appeal the April 14 order, but this court again dismissed the appeal. State
v. Hessler, 268 Neb. xxiv (No. S–04–497, Sept. 1, 2004), cert. denied 543 U.S. 1161, 125 S.Ct. 1320, 161 L.Ed.2d 131 (2005).
On October 6, 2004, Hessler filed a plea in bar in which he asserted that he had previously been convicted and sentenced for an
offense relating to another victim which he claimed was an element of the capital murder charge set forth in this case. During
the investigation of the death of Heather, police linked Hessler to the August 20, 2002, sexual assault of J.B., who, like Heather,
was a teenage girl who was delivering newspapers at the time she was assaulted. The State charged Hessler in connection with
the sexual assault of J.B. After the crimes were committed and the charges filed in the instant case, on July 14, 2003, Hessler
pled no contest to first degree sexual assault of *483 J.B. Hessler **413 was sentenced on August 21 to imprisonment for
30 to 42 years for the sexual assault of J.B. He did not appeal the conviction or sentence. In the plea in bar filed in this case,
Hessler asserted that the Double Jeopardy Clause barred use of the sexual assault of J.B. to prove an aggravating circumstance
in the present case because such use would subject him to a second prosecution and punishment for the sexual assault of J.B.
On November 17, 2004, the court overruled Hessler's plea in bar. Hessler attempted to appeal the denial, but on November 24,
we dismissed the appeal for lack of jurisdiction. State v. Hessler, 268 Neb. xxv (No. S–04–1304, Nov. 24, 2004).
Jury selection in Hessler's trial began November 29, 2004. Jury summonses had been sent to 250 people, and potential jurors
were sent a supplemental questionnaire which asked, inter alia, whether the potential juror had formed an opinion about Hessler's
guilt or innocence and the basis for such opinion. The venire included 107 potential jurors. The court excused 65 potential jurors,
leaving 42 potential jurors upon whom the parties could exercise peremptory challenges. Hessler made motions to excuse six
potential jurors for cause. The court overruled the motions after questioning the potential jurors regarding, inter alia, whether
they could set aside their opinions and render impartial verdicts. Hessler later used peremptory challenges to remove four of
the potential jurors he had sought to excuse, and the State used a peremptory challenge to remove one.
Only one of the six potential jurors that Hessler moved to excuse became a member of the jury. That juror was R.C.F. In
response to questioning by the court and by Hessler, R.C.F. stated that he had formed the opinion that Hessler was guilty based
on newspaper reports. R.C.F. initially stated, “I do not presume that he's innocent, no, sir.” However, R.C.F. stated in response
to questioning from the court that his opinion was not so strong that he could not set it aside and take an oath to render a fair
and impartial verdict based solely upon the evidence presented at trial and the instructions given by the court. In reply to a
question from Hessler's counsel, R.C.F. responded that Hessler did not need to prove his innocence and stated: “If I felt without
a shadow of a doubt that he was guilty I would *484 say so but I would not ... Hessler does not prove that he's innocent or
guilty, I realize that comes from the State, not from [the defense].” R.C.F. also stated:
I believe in the death penalty but I also believe in a fair and impartial trial and I can set aside those feelings and those opinions
and listen to the facts.
....

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 9

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

... [I]f the facts are such that the death penalty is not warranted, then I could be very fair and impartial.
Following examination of the venire but before the exercise of peremptory challenges, Hessler made an oral motion to change
venue. Hessler asserted that he could not receive a fair trial in Scotts Bluff County and argued that his assertion was supported
by responses to questionnaires indicating that a large number of potential jurors had formed the opinion that he was guilty. The
court overruled the motion to change venue.
At trial, a videotape of the February 12, 2003, interrogation of Hessler was played to the jury. Other evidence at trial included,
inter alia, testimony of a firearms examiner who opined that Hessler's gun fired the cartridge found near Heather's body,
testimony of a medical technologist who testified that DNA testing could not exclude Heather as a contributor to DNA found on
Hessler's clothing and in the car **414 Hessler was using, and testimony of a doctor who performed an autopsy on Heather's
body and who testified that a gunshot wound to the head caused her death and that injuries to her vaginal area could be consistent
with either forcible penetration or consensual sex. On December 7, 2004, the jury returned verdicts of guilty on the counts of
first degree murder, kidnapping, first degree sexual assault, and use of a firearm to commit a felony.
Following the verdicts, and prior to and during the aggravation hearing, Hessler filed various motions, including, inter alia,
motions to declare the Nebraska death penalty statutes unconstitutional on various bases, a motion based on double jeopardy
grounds to prohibit the State from presenting evidence at the aggravation hearing regarding the sexual assault of J.B. and from
seeking a verdict on the aggravating circumstance found in § 29–2523(1)(a) based on such evidence, and a motion for a jury
instruction at the aggravation hearing requiring the jury *485 to make unanimous, written findings of fact in support of any
aggravating circumstances the jury found to exist. Although Hessler later waived counsel, Hessler was represented by counsel
in connection with the court's consideration of his various motions, including his constitutional challenge to the death penalty
statutes, his Double Jeopardy challenge involving J.B., and his jury instruction request. The court overruled the motions. At the
aggravation hearing, the State presented, inter alia, evidence of the sexual assault of J.B. On December 9, 2004, the jury found
that all three aggravating circumstances alleged by the State existed.
On March 31, 2005, Hessler filed a pro se motion titled “Motion to Invoke My Sixth–Amendment Right and to Expurgate
the Advocate of the State and to Delineate Myself.” The court had a hearing scheduled to consider various motions filed by
counsel on the day Hessler filed his pro se motion. At the hearing, the court first considered Hessler's pro se motion. After
questioning Hessler, the court determined that by the motion, Hessler sought to remove his counsel, waive his right to counsel,
and appear pro se at sentencing. The court then questioned Hessler about his “current status and mental abilities” which included
questions regarding his age, his education, and his understanding of the proceedings. In response to the questions, Hessler
indicated that he had been prescribed unspecified “antipsychotics” and “antihypnotic” drugs but that he had not taken his
medications that particular day. The court further questioned Hessler regarding his understanding of his right to counsel, of
what he would forgo if he waived his right to counsel, and of what would be required of him in order to represent himself
in further proceedings. In response to questions regarding his ability to represent himself against the State, which would be
represented by attorneys, Hessler said, “I've got God on my side, God's guiding me.... I just go by what God tells me.” He also
indicated that he was not concerned “because [his] wishes are the same as the State.” Hessler further indicated that although
he was not generally dissatisfied with his counsel's performance, he wanted to represent himself because counsel “refuse [d] to
comply with [his] wishes.” Following such questioning, the court found that Hessler had “knowingly, *486 intelligently, [and]
voluntarily decided to represent himself in this case.” The court nevertheless instructed counsel to prepare for the sentencing
hearing and to be on standby at sentencing in the event that Hessler changed his mind and wished to consult with counsel.
Although Hessler indicated his intent to withdraw various motions made by counsel, **415 including a motion challenging
electrocution as a method of execution, the court allowed counsel to present evidence in support of such motions in order to
make a complete record.
On May 16, 2005, the sentencing proceeding was held before a sentencing panel that included the trial judge and two other
judges. Hessler appeared pro se but his former counsel was present on standby. At the beginning of the hearing, the presiding
judge again questioned Hessler regarding his decision to appear pro se. Hessler indicated that he still wanted to appear pro
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 10

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

se, that he understood his right to counsel and the consequences of proceeding without counsel, and that no one had made
promises or threats or done anything to get him to waive counsel. The court again stated its finding that Hessler knowingly,
intelligently, and voluntarily waived his right to counsel but told Hessler that he could inform the court if at any time he wished
to be assisted by standby counsel.
At the sentencing hearing, Hessler offered into evidence, and the court received, a document signed by Hessler titled
“Interlocutory Statement of the Defendant.” In the document, Hessler requested the sentencing panel “to bring the Justice and
Wrath of GOD onto myself.” He further requested that “the True Intentions of This Court follows GOD'S COMMANDS and
My Wishes and that is to ONLY to be the following.... I, JEFFREY ALAN HESSLER, MUST BE PUT TO DEATH WITHOUT
DIALECTIC.”
The document continued for several more pages in which Hessler discussed his remorse for the death of Heather, his opinion
that death was the proper punishment, his feelings regarding the progress of the trial, and his life in general. Hessler offered no
other evidence which would bear on mitigating circumstances or other factors to be considered in connection with sentencing.
The State asked the court “to take judicial notice of all the exhibits that were received at trial and the aggravation hearing *487
as well.” The court had previously received into evidence “a two volume transcript of the proceedings of both the trial and
the aggravation hearing,” and the court stated that it would “make all the exhibits from the two proceedings available for the
three-judge panel for their consideration and deliberations.” The State offered no further evidence. Hessler declined to make a
closing statement in his own behalf. The State made a closing statement in which it urged the panel to impose a death sentence
for first degree murder and to impose the maximum sentences on the other counts. Hessler declined to rebut the State's closing
statement. The court informed Hessler that he had a “final opportunity to make a statement to the court” regarding anything he
wanted the court to consider. Hessler declined to make a statement.
Later that day, the sentencing panel announced its decision and entered its sentencing order. The panel recited the relevant
facts and, finding the facts true beyond a reasonable doubt, unanimously accepted the jury's verdicts. The panel next found that
the three asserted aggravating circumstances existed beyond a reasonable doubt and unanimously accepted the jury's findings
regarding aggravating circumstances. The panel then considered mitigating circumstances but unanimously concluded that no
statutory and no nonstatutory mitigating factors were established in this case. The panel further unanimously concluded beyond
a reasonable doubt that an imposition of death would not be excessive or disproportionate to sentences previously imposed in
similar circumstances. The panel finally **416 unanimously concluded that (1) aggravating circumstances justified imposition
of a death sentence; (2) mitigating circumstances did not approach or exceed the weight given to aggravating circumstances;
and (3) a death sentence would not be excessive or disproportionate to penalties imposed in similar cases, considering both the
crime and the defendant. The panel imposed sentences of death for first degree murder, life imprisonment without parole for
kidnapping, imprisonment for 40 to 50 years for first degree sexual assault on a child, and imprisonment of 20 to 25 years for
use of a firearm to commit a felony. The panel ordered that each sentence be served consecutively to the others.
*488 This automatic appeal followed.

III. ASSIGNMENTS OF ERROR
On August 9, 2005, Hessler filed a pro se appellant's brief in which he assigned no error. Instead, in the brief, Hessler repeated
much of the content of the document he entered into evidence at the sentencing hearing. A replacement brief order was issued
by the Clerk of the Supreme Court, and in response, Hessler informed this court that he did not want nor did he file this appeal
and that he would not file any more briefs or other statements. This court on September 28, 2005, appointed counsel to represent
Hessler in this automatic appeal. Counsel subsequently filed an appellant's brief on Hessler's behalf.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 11

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

Hessler, through counsel, asserts that the district court erred in (1) denying his motions to plead guilty to felony murder; (2)
violating the Double Jeopardy Clause by allowing the State to use the sexual assault of J.B. to prove an aggravating circumstance;
(3) failing to excuse for cause potential jurors who had formed opinions regarding Hessler's guilt; (4) overruling his motion to
change venue; (5) overruling his motion to declare Nebraska death penalty statutes unconstitutional on various bases, including
(a) vagueness of aggravating circumstances described in § 29–2523(1)(a), (b), and (d); (b) failure to require or allow the jury
to determine mitigating circumstances, to assign a weight to aggravating circumstances, and to determine the sentence; and (c)
unconstitutionally penalizing a defendant's exercise of the right to a jury trial on aggravating circumstances; (6) denying his
request for an instruction in the aggravation phase requiring the jury to make unanimous, written findings of fact to support
each aggravating circumstance found to exist; (7) granting his request to waive counsel and appear pro se at sentencing and
failing to make a determination regarding his competency to waive counsel; and (8) receiving into evidence at sentencing the
records of the guilt and aggravation phases of the trial.

IV. STANDARDS OF REVIEW
[1] A trial court is given discretion as to whether to accept a guilty plea; this court will overturn that decision only where
*489 there is an abuse of discretion. State v. Brown, 268 Neb. 943, 689 N.W.2d 347 (2004).
[2] The retention or rejection of a venireperson as a juror is a matter of discretion with the trial court and is subject to reversal
only when clearly wrong. State v. Quintana, 261 Neb. 38, 621 N.W.2d 121 (2001).
[3] A motion for change of venue is addressed to the discretion of the trial judge, whose ruling will not be disturbed absent
an abuse of discretion. State v. Rodriguez, 272 Neb. 930, 726 N.W.2d 157 (2007).
**417 [4] The constitutionality of a statute is a question of law, regarding which the Nebraska Supreme Court is obligated
to reach a conclusion independent of the determination reached by the trial court. State v. Marrs, 272 Neb. 573, 723 N.W.2d
499 (2006).
[5] To establish reversible error from a court's refusal to give a requested instruction, an appellant has the burden to show
that (1) the tendered instruction is a correct statement of the law, (2) the tendered instruction is warranted by the evidence,
and (3) the appellant was prejudiced by the court's refusal to give the tendered instruction. State v. Blair, 272 Neb. 951, 726
N.W.2d 185 (2007).
[6] In determining whether a defendant's waiver of counsel was voluntary, knowing, and intelligent, an appellate court applies
a “clearly erroneous” standard of review. State v. Gunther, 271 Neb. 874, 716 N.W.2d 691 (2006).

V. ANALYSIS
1. No Abuse of Discretion in Denial of Motions to Plead Guilty to Felony Murder
[7] In his first assignment of error, Hessler asserts that the district court erred when it denied his motions to plead guilty to the
felony murder count. Although the assignment of error mentions the granting of the State's motion to dismiss the felony murder
count, Hessler makes no specific argument regarding the dismissal. We therefore treat the assignment of error as limited to the
denial of Hessler's motions to plead guilty to felony murder. See In re Interest of Michael U., 273 Neb. 198, 728 N.W.2d 116
(2007) (errors assigned but not argued will not be *490 addressed by appellate court). A trial court is given discretion as to
whether to accept a guilty plea; this court will overturn that decision only where there is an abuse of discretion. Brown, supra.
We conclude that the court did not abuse its discretion when it denied Hessler's motions to plead guilty to felony murder.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 12

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

As noted above, the State originally charged Hessler with both premeditated murder and felony murder and denominated the
two as separate counts in the information. Hessler twice moved the court to allow him to plead guilty to felony murder, and the
court denied both motions. In its order denying Hessler's first motion to plead guilty, the court noted that if the plea to felony
murder were accepted, there would be confusion as to whether Hessler should thereafter also be tried for premeditated murder.
The court determined that accepting the plea “would create more uncertainty than finality, would not eliminate the need for a
full trial of the facts either at the evidentiary phase or the sentencing phase, and would not significantly save costs or court time.”
Hessler asserts that the court's reasons are clearly untenable. He argues that the State assumed the risk of his pleading to one
count when it charged premeditated murder and felony murder as separate counts and that the court acted as a safety net and
unfairly assisted the prosecution by saving it from this tactical error. Hessler asserts that he had valid reasons to plead guilty to
felony murder, including a strategy to avoid the death penalty, his feelings of remorse and desire to accept responsibility for the
crime, and a desire to spare his family and the victim's family the emotional trauma of a trial.
[8]

[9]

[10]

With regard to whether courts must accept a defendant's plea of guilty, we have stated:

It is well established that a criminal defendant has no absolute right to have **418 his or her plea of guilty or nolo contendere
accepted even if the plea is voluntarily and intelligently made.... Our cases recognize that a trial court has a large measure
of discretion in deciding whether to accept a guilty plea.
State v. Brown, 268 Neb. 943, 947, 689 N.W.2d 347, 351 (2004) (citations omitted). We stated in Brown that our jurisprudence
*491 grants trial courts “wide discretion in rejecting plea agreements for substantive reasons.” 268 Neb. at 950, 689 N.W.2d
at 352. This court will overturn a decision on whether to accept a plea of guilty only where there is an abuse of discretion. Id.
A judicial abuse of discretion exists only when the reasons or rulings of a trial judge are clearly untenable, unfairly depriving
a litigant of a substantial right and denying a just result in matters submitted for disposition. State v. Davlin, 272 Neb. 139,
719 N.W.2d 243 (2006).
Although we do not necessarily agree with each substantive reason recited by the court, we find no abuse of discretion in the
decision to deny the motions to plead guilty to felony murder. Hessler had no absolute right to plead guilty, see Brown, supra,
and therefore, the ruling did not deprive him of a substantial right. Nor did the ruling deny Hessler a just result. Hessler argues
that his desire to plead guilty to felony murder was part of a strategy to avoid the death penalty. However, felony murder and
premeditated murder are both theories of first degree murder subject to the death penalty. See State v. Nesbitt, 264 Neb. 612,
633, 650 N.W.2d 766, 785 (2002) ( “premeditated murder and felony murder are simply alternate methods of committing first
degree murder”). Had Hessler pled guilty to felony murder, he still would have stood convicted of first degree murder and
the death penalty still would have been a possible sentence. Also, a plea to felony murder would not necessarily have spared
Hessler's family and the victim's family the emotional trauma of a trial on other counts. With the death penalty still a possible
sentence, trial still would have been required on the aggravating circumstances, and the sentencing panel still would have been
required to consider the circumstances of the crime. The State likely would have presented much of the evidence it presented
in the guilt phase of the trial at the aggravation and sentencing phases if Hessler had been allowed to plead.
Because the denial did not deprive Hessler of a substantial right or a just result, we conclude that the court's denial of Hessler's
motions to plead guilty to felony murder was within the court's “wide discretion.” See Brown, supra. We reject Hessler's first
assignment of error.

*492 2. No Double Jeopardy Violation in Use of Prior Sexual Assault of Another Victim to Prove Aggravating Circumstance
[11] In his second assignment of error, Hessler asserts that the district court erred in various rulings. As Hessler argues this
assignment of error, his general claim is that the court erred in allowing the State to use his prior sexual assault of J.B. to
prove the aggravating circumstance of § 29–2533(1)(a), prior history of serious assaultive criminal activity, and that such use

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 13

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

subjected him to a second punishment for that crime in violation of the Double Jeopardy Clause. We conclude that use of the
prior sexual assault of J.B. to prove an aggravating circumstance did not violate the Double Jeopardy Clause.
Hessler argues that as the crime in the present case was charged, the sexual assault of J.B. was an element of the offense of
capital murder, and that it violated the Double Jeopardy Clause to use the prior **419 assault, for which he had already
been tried and punished, as an element of another crime. In support of his argument, Hessler cites two U.S. Supreme Court
cases, Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002), and Sattazahn v. Pennsylvania, 537 U.S. 101,
123 S.Ct. 732, 154 L.Ed.2d 588 (2003). In Ring, the U.S. Supreme Court, in holding that the Sixth Amendment requires that
aggravating circumstances be found by a jury, stated that “aggravating factors operate as ‘the functional equivalent of an element
of a greater offense.’ ” 536 U.S. at 609, 122 S.Ct. 2428 (quoting Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147
L.Ed.2d 435 (2000)). In Sattazahn, three justices of the Court cited and quoted Ring and stated that “for purposes of the Sixth
Amendment's jury-trial guarantee, the underlying offense of ‘murder’ is a distinct, lesser included offense of ‘murder plus one
or more aggravating circumstances.’ ” 537 U.S. at 111, 123 S.Ct. 732. In determining whether the Double Jeopardy Clause
applied to capital sentencing proceedings to determine the existence of aggravating circumstances, the three justices found no
reason to distinguish between what constitutes an offense for Sixth Amendment jury purposes and what constitutes an offense
for Fifth Amendment double jeopardy purposes. Id. Hessler argues *493 that these statements in Ring and Sattazahn mean
that aggravating circumstances are elements of the offense of capital murder and that therefore, the sexual assault of J.B., which
was alleged as an aggravating circumstance, was a lesser-included offense of the capital murder of Heather.
We note initially that the Nebraska Legislature has provided that “the aggravating circumstances are not intended to constitute
elements of the crime generally unless subsequently so required by the state or federal constitution.” Neb.Rev.Stat. § 29–2519(2)
(d) (Cum.Supp.2006). We do not believe that the explanatory comments in Ring and Sattazahn lead to the conclusion that an
aggravating circumstance should be treated as an element of capital murder, and we reject Hessler's suggestion that we treat
an aggravating circumstance as an element of capital murder. In Ring, the Court referred to aggravating circumstances as the
“functional equivalents” of elements only for the purpose of resolving the question of whether a jury was required to find
aggravating circumstances. In Schriro v. Summerlin, 542 U.S. 348, 124 S.Ct. 2519, 159 L.Ed.2d 442 (2004), the Court stated
that the holding in Ring did not alter the range of conduct that the statutes at issue subjected to the death penalty, but instead
altered the method for determining whether conduct was punishable by death by requiring a jury determination of aggravating
circumstances. These statements in Schriro indicate that the Court did not consider aggravating circumstances to be substantive
elements of the crime of capital murder. Instead, the Court considered aggravating circumstances as functional equivalents of
elements for the limited purpose of determining whether Sixth Amendment jury guarantees extended to findings of aggravating
circumstances.
Sattazahn v. Pennsylvania, 537 U.S. 101, 123 S.Ct. 732, 154 L.Ed.2d 588 (2003), also does not support Hessler's argument. The
issue in Sattazahn was whether the Double Jeopardy Clause prohibited a second capital sentencing for the same crime. Three
justices of the Court in Sattazahn stated, “If a jury unanimously concludes that a State has failed to meet its burden of proving
the existence of one or more aggravating circumstances, double-jeopardy protections attach to that ‘acquittal’ on the offense of
‘murder plus aggravating circumstance(s).’ ” *494 **420 537 U.S. at 112, 123 S.Ct. 732. The three justices determined that
double jeopardy protections would attach once a jury concluded that no aggravating circumstances existed and that therefore, a
second capital sentencing would be prohibited. The Court in Sattazahn did not state that double jeopardy protections prohibited
the use of evidence of prior crimes to establish an aggravating circumstance in a subsequent case involving a different crime.
Furthermore, the portions of Sattazahn on which Hessler relies were from a section of the opinion that was joined by only three
justices, and the views expressed by the three were not endorsed by a majority of the Court. See State v. Mata, 266 Neb. 668,
668 N.W.2d 448 (2003) (rejecting similar argument based on Sattazahn).
The issue in the present case is different from those in Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002),
and Sattazahn, supra. The issue here is whether evidence of a prior offense can be used to prove prior history as an aggravating
circumstance in a capital trial involving a later offense. This question is more similar to the question of whether the sentence for
a subsequent crime may be enhanced based on prior crimes. In Witte v. United States, 515 U.S. 389, 115 S.Ct. 2199, 132 L.Ed.2d

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 14

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

351 (1995), the Court stated that the consideration of prior conduct in connection with sentencing for a subsequent offense does
not result in additional punishment for such prior conduct. The Court stated that enhancement or recidivism statutes do not
change the penalty imposed for the earlier offense and stated:
In repeatedly upholding such recidivism statutes, we have rejected double jeopardy challenges because the enhanced
punishment imposed for the later offense “is not to be viewed as either a new jeopardy or additional penalty for the earlier
crimes,” but instead as “a stiffened penalty for the latest crime, which is considered to be an aggravated offense because a
repetitive one.”
515 U.S. at 400, 115 S.Ct. 2199.
[12] Under this reasoning, we determine that the use of a prior offense to prove an aggravating circumstance under § 29–
2523(1)(a) does not increase the penalty for the prior offense and does not expose the defendant to new jeopardy for *495 such
offense. Instead, the finding of an aggravating circumstance is used to increase the potential punishment for the latest crime
which in the present case is first degree murder. We therefore conclude that because the use of evidence of a prior offense to
prove an aggravating circumstance under § 29–2523(1)(a) does not expose the defendant to new jeopardy for the prior offense,
such use does not violate the Double Jeopardy Clause.
In sum, in the present case, evidence regarding the sexual assault of J.B. was used to prove that an aggravating circumstance
existed and to enhance the potential punishment for Hessler's conviction for the first degree murder of Heather. Such evidence
was not used to prove a substantive element of the crime of first degree murder, and the use of such evidence did not subject
Hessler to additional punishment for the sexual assault of J.B. We conclude that the use of evidence of Hessler's sexual assault
of J.B. did not violate the Double Jeopardy Clause and that Hessler's second assignment of error is without merit.

3. No Reversible Error in Overruling of Motions to Excuse Jurors for Cause
[13] In his third assignment of error, Hessler asserts that the district court erred when it overruled his motions to excuse various
potential jurors for cause. The retention or rejection of a venireperson as a juror is a matter of discretion **421 with the trial
court and is subject to reversal only when clearly wrong. State v. Quintana, 261 Neb. 38, 621 N.W.2d 121 (2001). The court
overruled Hessler's challenges with respect to six potential jurors, but in his brief, Hessler makes arguments with respect to only
five of the six. Hessler argues that the five should have been excused for cause because each person had formed the opinion that
Hessler was guilty and did not adequately demonstrate that he or she could act as an impartial juror despite such opinion. Only
one of the five, R.C.F., actually became a member of the jury. Three were removed by Hessler's use of peremptory challenges,
and one was removed by the State's use of a peremptory challenge. We conclude that reversal is not warranted based on those
challenged individuals who did not become members of the jury and that the court did not err in overruling Hessler's motion
to excuse R.C.F.
*496 Hessler argues that each potential juror should have been struck for cause pursuant to Neb.Rev.Stat. § 29–2006(2)
(Reissue 1995), which states that good cause to challenge a juror includes that “he has formed or expressed an opinion as to
the guilt or innocence of the accused.” Section 29–2006(2) further provides that if a potential juror has formed an opinion, the
court should examine him or her regarding the grounds for such opinion. If the opinion was formed based upon “conversations
with witnesses of the transactions or reading reports of their testimony or hearing them testify,” dismissal is mandatory. Id. See,
also, State v. Myers, 190 Neb. 466, 209 N.W.2d 345 (1973). However, if the opinion was formed based on “reading newspaper
statements, communications, comments or reports, or upon rumor or hearsay” then the person may still serve if (1) the potential
juror “shall say on oath that he feels able, notwithstanding such opinion, to render an impartial verdict upon the law and the
evidence” and (2) the court is satisfied that the potential juror “is impartial and will render such verdict.” § 29–2006(2).
[14] We have stated that “the erroneous overruling of a challenge for cause will not warrant reversal unless it is shown on
appeal that an objectionable juror was forced upon the challenging party and sat upon the jury after the party exhausted his

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 15

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

or her peremptory challenges.” State v. Quintana, 261 Neb. at 52, 621 N.W.2d at 134. In this case, four of the five potential
jurors that Hessler complains of on appeal were struck by the use of peremptory challenges. Under Quintana, there can be no
reversal based on a challenge to a potential juror if that person was not ultimately included on the jury, even if the defendant
was required to use a peremptory challenge to remove the person. Therefore, reversal is not warranted in this case based on the
overruling of Hessler's challenges to those persons who did not become members of the jury.
[15] [16] The only challenged individual who became a member of the jury was R.C.F. Although R.C.F. initially stated that
he had formed an opinion regarding Hessler's guilt, R.C.F. also stated that such opinion was based on newspaper reports and
that his opinion was not so strong that he could not set it aside and take an oath to render a fair and impartial verdict. Although
during questioning by defense counsel, R.C.F. stated that “I do *497 not presume that he's innocent, no, sir,” R.C.F. also said,
inter alia, that “Hessler does not prove that he's innocent or guilty, I realize that comes from the State, not from [the defense].”
Viewed in context, we believe that despite R.C.F.'s initial statements that he had formed an opinion and that he did not presume
Hessler to be innocent, other later statements made by **422 R.C.F. indicate he understood that as a juror, he needed to be and
could be impartial, and that the State had the burden to prove Hessler guilty rather than Hessler's having the burden to prove
himself innocent. We believe the court reasonably could have assessed R.C.F.'s statements and his demeanor and concluded that
R.C.F. could render an impartial verdict. In this respect, we note that deference is given to a trial court's determinations in these
matters. The U.S. Supreme Court recently stated that in decisions regarding challenges to potential jurors, “[d]eference to the
trial court is appropriate because it is in a position to assess the demeanor of the venire, and of the individuals who compose it,
a factor of critical importance in assessing the attitude and qualifications of potential jurors.” Uttecht v. Brown, 551 U.S. 1, 127
S.Ct. 2218, 2224, 167 L.Ed.2d 1014 (2007). Based on our review of the questioning of R.C.F., and taking R.C.F.'s responses as
a whole and giving proper deference to the court's assessment of R.C.F.'s demeanor, we conclude that the court was not clearly
erroneous in overruling Hessler's motion to excuse R.C.F.
Reversal cannot be based on challenges to potential jurors who did not become members of the jury, and the court was not
clearly wrong when it overruled the motion to excuse R.C.F. We therefore reject Hessler's third assignment of error.

4. No Error in Denial of Motion to Change Venue
[17] In his fourth assignment of error, Hessler asserts that the district court erred in denying his request to change venue on the
basis that he could not receive a fair trial in Scotts Bluff County. A motion for change of venue is addressed to the discretion of
the trial judge, whose ruling will not be disturbed absent an abuse of discretion. State v. Rodriguez, 272 Neb. 930, 726 N.W.2d
157 (2007). We conclude that the court did not abuse its discretion when it denied Hessler's request to change venue.
*498 Hessler did not move to change venue prior to jury selection, and he did not offer evidence regarding newspaper stories
or other publicity regarding the crime. Instead, his arguments in favor of changing venue were based on voir dire examinations
of potential jurors. Hessler noted that a large number of potential jurors had seen or heard reports of the crime and had formed
opinions regarding Hessler's guilt. He argues on appeal that the court did not exercise sufficient care during jury selection
because the court did not strike various persons for cause and because R.C.F. became a member of the jury. Hessler asserts that
jury selection was complicated by the large number of persons who had formed opinions based on news reports, and he notes
that many had to be excused based on such opinions. Hessler argues that the jury selection process demonstrated that “local
conditions and pretrial publicity made it impossible for [him] to secure a fair and impartial jury in Scotts Bluff County,” brief
for appellant at 62, and that therefore, he was denied his right to an impartial jury.
In State v. Quintana, 261 Neb. 38, 54, 621 N.W.2d 121, 135 (2001), we noted that jurors who had heard publicity about the
case “agreed that they could set aside any information that they knew about the case and that they would make decisions solely
from what they heard in court.” Because the record in Quintana showed that an impartial jury had been chosen, we concluded
that the defendant had not shown that he could not receive a fair trial in the county at issue and that the court did not abuse its
discretion in denying the defendant's motion to change venue.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 16

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

Similar to Quintana, we determine that Hessler has not shown that a change of **423 venue was necessary, because an impartial
jury was in fact selected, and that Hessler therefore did not show that he could not receive a fair trial in Scotts Bluff County.
As noted above, R.C.F. was the only person actually on the jury of whom Hessler complains on appeal. As we determined
above, the record shows that in response to questioning, R.C.F. indicated that he could render an impartial verdict. Hessler
makes no other argument that the jury was not impartial; he argues only that it was difficult to select a jury because of alleged
partiality in the venire.
*499 Because Hessler has not shown that his actual jury was partial, he has not shown that it was impossible to seat an
impartial jury or that he could not receive a fair trial in Scotts Bluff County. We therefore conclude that the court did not abuse
its discretion when it denied Hessler's motion for change of venue, and we reject his fourth assignment of error.

5. Death Penalty Statutes Not Shown to Be Unconstitutional
In his fifth assignment of error, Hessler asserts that the district court erred when it denied his motions to declare the Nebraska
death penalty statutes unconstitutional. The constitutionality of a statute is a question of law, regarding which the Nebraska
Supreme Court is obligated to reach a conclusion independent of the determination reached by the trial court. State v. Marrs,
272 Neb. 573, 723 N.W.2d 499 (2006). Hessler argues that the death penalty statutes are unconstitutional in various respects. He
asserts first that the three statutory aggravating circumstances alleged in this case are unconstitutionally vague and indefinite.
The aggravating circumstances alleged in this case were § 29–2523(1)(a), “substantial prior history of serious assaultive or
terrorizing criminal activity”; § 29–2523(1)(b), “murder was committed in an effort to conceal the commission of a crime”;
and § 29–2523(1)(d), murder that is “especially heinous, atrocious, [and] cruel.” Hessler also asserts that the death penalty
statutes are unconstitutional with respect to the limited role the statutes give the jury in capital sentencing. He specifically
argues that the statutes are unconstitutional in that they fail to allow the jury to consider mitigating circumstances, to assign
a weight to aggravating circumstances, and to suggest, recommend, or determine whether a death sentence or a life sentence
should be given. Hessler also argues that the statutory requirement that a sentencing panel determines the sentence even when
a jury determines aggravating circumstances is an unconstitutional penalty on the defendant's exercise of his or her right to a
jury trial in the aggravation phase. As a matter of law, we reject each of Hessler's assertions that the Nebraska death penalty
statutes are unconstitutional.

*500 (a) Aggravating Circumstances
With respect to § 29–2523(1)(a), (b), and (d), Hessler asserts that each of these aggravating circumstances is unconstitutionally
vague. We note that this court has previously rejected similar challenges regarding each of the aggravating circumstances.
Challenges to § 29–2523(1)(a) were rejected in State v. Bjorklund, 258 Neb. 432, 604 N.W.2d 169 (2000); State v. Ryan, 248
Neb. 405, 534 N.W.2d 766 (1995); and State v. Holtan, 197 Neb. 544, 250 N.W.2d 876 (1977), disapproved on other grounds,
State v. Palmer, 224 Neb. 282, 399 N.W.2d 706 (1986). Challenges to § 29–2523(1)(b) were rejected in Bjorklund, supra; State
v. Lotter, 255 Neb. 456, 586 N.W.2d 591 (1998), modified 255 Neb. 889, 587 N.W.2d 673 (1999); and State v. Moore, 250
Neb. 805, 553 N.W.2d 120 (1996), disapproved on other grounds, State v. Reeves, 258 Neb. 511, 604 N.W.2d 151 (2000). And
challenges to **424 § 29–2523(1)(d) were rejected in State v. Gales, 269 Neb. 443, 694 N.W.2d 124 (2005); Bjorklund, supra;
and State v. Ryan, 233 Neb. 74, 444 N.W.2d 610 (1989). Hessler has cited no subsequent federal or state authority that would
call such rulings into question, and Hessler has not articulated any persuasive arguments why our prior reasoning is faulty or
any other reason why this court should overrule such precedent. We therefore reject Hessler's arguments that the aggravating
circumstances set forth in § 29–2523(1)(a), (b), and (d) are unconstitutionally vague and indefinite.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 17

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

(b) Jury's Role in Capital Sentencing
[18] Hessler's remaining arguments generally deal with the jury's role in capital sentencing. Under Nebraska death penalty
sentencing statutes, after the guilt phase of the trial, the jury's only role in sentencing is to find whether aggravating circumstances
exist. Pursuant to Neb.Rev.Stat. § 29–2520 (Cum.Supp.2006), a jury determines whether aggravating circumstances exist unless
the defendant waives his or her right to such a jury determination. Pursuant to Neb.Rev.Stat. § 29–2521 (Cum.Supp.2006), after
a jury has found aggravating circumstances or the defendant has waived the right to such jury determination, a panel of three
judges determines the sentence, which *501 determination includes finding mitigating circumstances, balancing aggravating
and mitigating circumstances, and conducting a proportionality review.
Hessler asserts that the death penalty statutes are unconstitutional because they do not require the jury to (1) find mitigating
circumstances; (2) weigh aggravating and mitigating circumstances; or (3) suggest, recommend, or determine whether a sentence
of life or a sentence of death should be imposed. Hessler argues that the statutory scheme is “irrational, unworkable, incoherent,
and incapable of rendering a fair and just determination of life and death” brief for appellant at 68, because the sentencing
panel, which was not the fact finder during the aggravation phase, is not in as good a position as the jury to assign a weight
to the aggravating circumstances, to weigh aggravating circumstances against mitigating circumstances, and to determine the
sentence.
In State v. Gales, 265 Neb. 598, 658 N.W.2d 604 (2003) (Gales I), we noted that the U.S. Supreme Court in Ring v. Arizona,
536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002), held that there is a Sixth Amendment right to have a jury determine the
existence of any aggravating circumstance upon which a capital sentence is based. However, we determined in Gales I that the
holding in Ring was not so broad as to require that a jury make additional determinations with regard to capital sentencing. We
stated that we did not read Ring or other authority “to require that the determination of mitigating circumstances, the balancing
function, or proportionality review be undertaken by a jury.” 265 Neb. at 628–29, 658 N.W.2d at 627. In State v. Gales, 269
Neb. 443, 694 N.W.2d 124 (2005) (Gales II), we again rejected an argument that a jury is required to determine mitigating
circumstances and to have input into the appropriate sentence in capital cases. We determined that the defendant in Gales II
presented no basis to reconsider our decision in Gales I, and we noted that later holdings in the U.S. Supreme Court, see United
States v. Booker, 543 U.S. 220, 125 S.Ct. 738, 160 L.Ed.2d 621 (2005), only reinforced our prior decision.
Similarly, in the present case, Hessler has cited no authority that would require us to reconsider our decisions in Gales I and Gales
II. While Ring requires that a jury find aggravating *502 circumstances, neither Ring nor other authority requires **425 that
a jury find mitigating circumstances, weigh aggravating and mitigating circumstances, or have further input into determining
the sentence. We are not persuaded by Hessler's arguments, and in the absence of authority, we reject his assertions that a jury
must make such determinations.

(c) Exercise of Right to Jury in Aggravation Phase
As a final challenge to the constitutionality of the death penalty statutes, Hessler asserts that the statutory scheme improperly
penalizes a defendant's exercise of the right to have a jury find aggravating circumstances. Hessler argues that if a defendant
prefers to have the same fact finder determine both the aggravating circumstances and the sentence, the defendant must waive
the right to have a jury find aggravating circumstances and instead must allow the sentencing panel to find aggravating
circumstances because the statutory scheme does not allow a jury to determine the sentence. Hessler argues that being forced
to make such a choice unconstitutionally burdens the defendant's assertion of the right to a jury determination of aggravating
circumstances.
Hessler relies on United States v. Jackson, 390 U.S. 570, 88 S.Ct. 1209, 20 L.Ed.2d 138 (1968), to support this argument. In
Jackson, the U.S. Supreme Court found unconstitutional a federal statutory provision that authorized the imposition of a death

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 18

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

sentence only when a jury recommended the death sentence. Under the statute, if the defendant waived jury trial or pled guilty,
the maximum possible sentence the court could impose was a life sentence. The Court determined that the statutory provision
was unconstitutional because it improperly coerced or encouraged the defendant to waive his or her Sixth Amendment right to
a jury or his or her Fifth Amendment right to plead not guilty and because it needlessly penalized the defendant who asserted
such rights.
We do not find Hessler's reliance on Jackson applicable or persuasive. Unlike Jackson, under the Nebraska death penalty statutes,
a defendant cannot avoid the risk of a death penalty by waiving the right to a jury determination of aggravating circumstances;
even if the defendant waived such right, the *503 sentencing panel could still impose a death penalty. Under the statutory
provision in Jackson, the defendant could completely avoid the death penalty by waiving a jury trial or by pleading guilty.
Under the Nebraska statutes, there is no such direct benefit achieved at the expense of waiving the right to a jury as there was in
Jackson. By waiving the right to a jury under the Nebraska statutes, the sole benefit is that the defendant avoids the circumstance
wherein the jury as fact finder finds aggravating circumstances and the judicial panel as fact finder determines the sentence.
While the sentencing panel might be more thoroughly versed about the case if it had also found aggravating circumstances,
this does not mean that the sentencing panel would necessarily make a sentencing decision that was more favorable to the
defendant. Unlike Jackson, in which the benefit to waiving the right to a jury was the elimination of exposure to the death
penalty, the Nebraska statutory scheme does not provide a clear advantage to a defendant who waives his or her right to have a
jury determine aggravating circumstances. The Nebraska statutory scheme does not improperly coerce or encourage a defendant
to waive his or her right to a jury and does not penalize a defendant who asserts such right. We reject Hessler's argument that
the statutory scheme is unconstitutional pursuant to Jackson.

**426 (d) Conclusion
Having concluded that each of Hessler's challenges to the constitutionality of Nebraska death penalty statutes is without merit,
as a matter of law, we reject Hessler's fifth assignment of error.

6. No Error in Refusal of Instruction Requiring Jury to Make Unanimous, Written Findings of Fact in Aggravation Phase
[19] In his sixth assignment of error, Hessler asserts that the court erred when it refused his requested instruction in the
aggravation phase of the trial that would have required the jury to unanimously find facts supporting each alleged aggravating
circumstance and to set forth such findings in writing. To establish reversible error from a court's refusal to give a requested
*504 instruction, an appellant has the burden to show that (1) the tendered instruction is a correct statement of the law, (2)
the tendered instruction is warranted by the evidence, and (3) the appellant was prejudiced by the court's refusal to give the
tendered instruction. State v. Blair, 272 Neb. 951, 726 N.W.2d 185 (2007). We conclude that the court did not err in refusing
the instruction, because the instruction did not accurately state the law and Hessler has not shown that he was prejudiced by
the refusal to give the instruction.
Hessler requested an instruction to the jury in the aggravation phase which read:
You, the jury, shall make written findings of fact based upon the trial of guilt and the aggravation hearing, identifying which, if
any, of the alleged aggravating circumstances have been proven to exist beyond a reasonable doubt. Each finding of fact with
respect to each alleged aggravating circumstance shall be unanimous. If you are unable to reach a unanimous finding of fact
with respect to an aggravating circumstance, you must find that the State did not prove the alleged aggravating circumstance.
Hessler argues that the instruction was necessary to avoid the burden on the right to a jury trial found to be unconstitutional in
United States v. Jackson, 390 U.S. 570, 88 S.Ct. 1209, 20 L.Ed.2d 138 (1968). Hessler asserts that if the instruction were given, it
could ameliorate the negative effects wherein the jury finds aggravating circumstances and the sentencing panel determines the
sentences. He argues that when the jury finds aggravating circumstances, the sentencing panel is not adequately familiar with the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 19

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

facts underlying the aggravating circumstances to properly weigh such circumstances. Hessler also notes that if the sentencing
panel made findings on aggravating circumstances, the panel would be statutorily required to be unanimous regarding the facts
supporting an aggravating circumstance and to set forth such facts in a written order. Hessler argues that the jury should also
be required to be unanimous regarding the specific facts that support an aggravating circumstance and that the jury should be
required to set forth such facts in writing in order to better inform the sentencing panel's decision.
*505 We note that in the aggravation phase in this case, the court instructed the jury that in order to find that an aggravating
circumstance existed, it needed to “unanimously agree beyond a reasonable doubt that an aggravating circumstance is true” and
“unanimously decide that the state proved each essential element of an aggravating circumstance beyond a reasonable doubt.”
Because the court properly instructed the jury that it needed to be unanimous in finding that the State proved the existence of
an aggravating circumstance and each element of such circumstance and that the Nebraska death penalty statutes require no
more, Hessler **427 has failed to demonstrate any error of law in the instruction given or prejudice from the failure to give
the instruction he requested.
Nebraska statutes require that when the right to a jury determination of aggravating circumstances has been waived and the
sentencing panel finds aggravating circumstances, the “panel shall make written findings of fact ... identifying which, if any, of
the alleged aggravating circumstances have been proven” and that “[e]ach finding of fact with respect to each alleged aggravating
circumstance shall be unanimous.” § 29–2521(2). However, when the jury determines aggravating circumstances, the statutes
provide only that the jury “shall deliberate and return a verdict as to the existence or nonexistence of each alleged aggravating
circumstance,” that “[e]ach aggravating circumstance shall be proved beyond a reasonable doubt,” and that “[e]ach verdict with
respect to each alleged aggravating circumstance shall be unanimous.” § 29–2520(4)(f). The statutes do not require a jury to
make written findings of fact or to be unanimous regarding the specific facts that support its verdict. The statutes require only that
the jury return a verdict as to each alleged aggravating circumstance and that each such verdict be unanimous. The instructions
given by the court in this case accurately stated the law, and the instruction requested by Hessler did not accurately state the law.
Hessler's reliance on United States v. Jackson, 390 U.S. 570, 88 S.Ct. 1209, 20 L.Ed.2d 138 (1968), in connection with this
assignment of error is not persuasive. As noted in connection with the previous assignment of error, Hessler asserts that there
are inherent disadvantages in the situation where the jury finds *506 aggravating circumstances and the sentencing panel
determines the sentence and that such disadvantages coerce or encourage a defendant to waive his or her right to a jury
determination of aggravating circumstances and needlessly penalize defendants who assert such right. Hessler asserts that if the
jury were required to make unanimous written findings of fact, it would lessen these perceived disadvantages. As we concluded
in connection with the previous assignment of error, the Nebraska statutes are not unconstitutional under Jackson. The statutes
do not require unanimous written findings of fact, and no such requirement need be imposed in order to save the statutes from
being unconstitutional.
Neither Jackson nor other authority requires that the jury make unanimous written findings of fact. Because the tendered
instruction was not a correct statement of law and because Hessler has shown no prejudice, the court's refusal to give Hessler's
requested instruction was not reversible error. We reject Hessler's sixth assignment of error.

7. District Court Did Not Err in Granting Hessler's Waiver of Right to Counsel and Allowing Him to Appear Pro Se at Sentencing
[20] Hessler, through appellate counsel, asserts that the district court erred when it granted his pro se motion to waive counsel
and allowed him to appear pro se at the sentencing proceeding. He specifically claims that the court erred when it failed
to conduct a hearing to determine his competency to waive counsel and when it found that he knowingly, voluntarily, and
intelligently waived his right to counsel. On the record before us, we conclude that the court did not err in granting Hessler's
motion to waive counsel.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 20

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

(a) Standards for Determining Whether Defendant May Waive Counsel
Hessler cites **428 Godinez v. Moran, 509 U.S. 389, 113 S.Ct. 2680, 125 L.Ed.2d 321 (1993), and asserts that the inquiry
into whether a defendant should be allowed to waive counsel is a two-step process in which the court considers, first, whether
the defendant is competent to waive counsel and, second, whether *507 the defendant has knowingly and voluntarily waived
counsel. Hessler argues that the court failed to follow Godinez because the court did not sua sponte conduct a competency
hearing and did not make an explicit finding that he was competent to waive counsel. He also claims that the Court erred when
it determined that his waiver of counsel was made knowingly, voluntarily, and intelligently.
[21] In Godinez, the U.S. Supreme Court referred to what it described as a “two-part inquiry,” 509 U.S. at 401, 113 S.Ct.
2680, into whether a court should accept a defendant's waiver of counsel. The Court indicated that where a defendant seeks to
waive counsel, the trial court must be assured that the defendant is competent to do so and that “[i]n addition to determining
that a defendant who seeks to plead guilty or waive counsel is competent, a trial court must satisfy itself that the waiver of his
constitutional rights is knowing and voluntary.” 509 U.S. at 400, 113 S.Ct. 2680. The two-part inquiry set forth in Godinez is
therefore, first, a determination that the defendant is competent to waive counsel and, second, a determination that the waiver
is knowing and voluntary.
[22] The Court in Godinez also stated that the standard for determining whether a defendant is competent to waive counsel is
the same as the standard for determining whether a defendant is competent to stand trial. In this regard, the Court stated that the
standard for competence is “whether the defendant has ‘sufficient present ability to consult with his lawyer with a reasonable
degree of rational understanding’ and has ‘a rational as well as factual understanding of the proceedings against him.’ ” 509
U.S. at 396, 113 S.Ct. 2680. See People v. Halvorsen, 42 Cal.4th 379, 165 P.3d 512, 64 Cal.Rptr.3d 721 (2007) (recognizing
Godinez' holding that standard for competency to waive trial is same as standard for competency to stand trial where defendant
argued that court should have had doubt regarding his competency to stand trial after court concluded he was incapable of
representing himself). Finally, in a footnote in Godinez, the Court noted:
We do not mean to suggest, of course, that a court is required to make a competency determination in every case in which a
defendant seeks to plead guilty or to waive *508 his right to counsel. As in any criminal case, a competency determination
is necessary only when a court has reason to doubt the defendant's competence.
509 U.S. at 401 n. 13, 113 S.Ct. 2680.
In response to Hessler's arguments, the State asserts that the court's inquiry in this case met the requirements set forth in State
v. Dunster, 262 Neb. 329, 631 N.W.2d 879 (2001), and that the record supported a finding that Hessler's waiver of counsel
was made knowingly, voluntarily, and intelligently. In Dunster, we stated, “A defendant may waive the constitutional right to
counsel, so long as the waiver is made knowingly, voluntarily, and intelligently.” 262 Neb. at 349, 631 N.W.2d at 898. However,
we also noted in Dunster that before granting the defendant's request to discharge counsel, defense counsel had questioned
the defendant's competence to waive counsel and the trial court received evidence relative to the defendant's competence and
determined that the defendant was competent. In concluding that the trial court in Dunster did not err in granting the request
to **429 discharge counsel, we determined that “[t]he record shows that [the defendant] was competent and his request to
discharge counsel was made knowingly, intelligently, and voluntarily.” 262 Neb. at 355, 631 N.W.2d at 902. Thus, as is apparent
in Dunster, our jurisprudence is consistent with the two-part inquiry in Godinez v. Moran, 509 U.S. 389, 113 S.Ct. 2680, 125
L.Ed.2d 321 (1993), which requires both that the trial court be assured that the defendant is competent to waive counsel and
that the waiver is made knowingly, voluntarily, and intelligently.

(b) On the Record Before Us, the District Court Did Not Have Reason to Doubt Hessler's Competence and No Competency
Hearing Was Required

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 21

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

Although the analysis of whether a defendant may waive counsel is a two-part inquiry involving competence and waiver, a
formal competency determination is not necessary in every case in which a defendant seeks to waive counsel. As noted above,
pursuant to footnote 13 in Godinez, an explicit competency determination is necessary only when the court has reason to doubt
the defendant's competence. Unlike Dunster, *509 supra, trial counsel in this case did not move for a competency hearing as
a predicate to the court's consideration of Hessler's motion to waive counsel. Limiting our consideration only to the record on
appeal, as we must, we determine that the proceedings did not provide reason to doubt Hessler's competence to waive counsel
and that the court did not err when a competency hearing was not conducted, nor did it err when it did not make an explicit
determination that Hessler was competent to waive counsel.
As noted above, the standard for determining competence is “whether the defendant has ‘sufficient present ability to consult
with his lawyer with a reasonable degree of rational understanding’ and has ‘a rational as well as factual understanding of the
proceedings against him.’ ” Godinez, 509 U.S. at 396, 113 S.Ct. 2680. When Hessler filed his motion to waive counsel, he
was still represented by counsel, and counsel did not move for a determination of Hessler's competence at that time, compare
Dunster, supra, and there is no indication in the record on appeal that counsel had earlier challenged Hessler's competence to
stand trial. There was no indication throughout pretrial proceedings and the trial itself that Hessler was unable to consult with
counsel with a reasonable degree of rational understanding. To the contrary, the record contains references to consultations
between Hessler and his counsel, both prior to and during the trial.
With respect to whether Hessler had a rational and factual understanding of the proceedings, we note that the court had observed
Hessler over many months prior to trial and at trial, and that although Hessler indicated he was not on medications on the day
the court considered his request to waive counsel, the court was in a position to be satisfied that any medication Hessler was or
was not on did not compromise his present competence to waive counsel. See LaHood v. State, 171 S.W.3d 613 (Tex.App.2005)
(stating, generally, that although defendant was on medication, competency inquiry not mandated where there was no indication
of present inability to communicate or understand proceeding). See, also, U.S. v. Dalman, 994 F.2d 537 (8th Cir.1993). We also
note that although Hessler's pro se filings, including his motion to waive counsel, contain irrelevant matter, they nevertheless
indicate that Hessler understood the *510 factual nature of the proceedings against him and the potential consequences of such
proceedings. Such filings indicate that he had a rational and factual **430 understanding that he was being prosecuted for
the death of Heather and that the death penalty was a potential punishment for that crime. See People v. Halvorsen, 42 Cal.4th
379, 403, 165 P.3d 512, 529, 64 Cal.Rptr.3d 721, 741 (2007) (concluding that although defendant's “ ‘rambling, marginally
relevant speeches' ” might evidence some form of mental illness, record did not show that defendant lacked understanding of
nature of proceedings and that more than “ ‘bizarre actions' ” or “ ‘bizarre statements' ” were required to raise doubt about
competence). On the record before us and under the standard set forth in Godinez v. Moran, 509 U.S. 389, 113 S.Ct. 2680, 125
L.Ed.2d 321 (1993), we believe that the trial court could reasonably determine that Hessler appeared to have an understanding
of the proceedings and that therefore, the court did not have reason to doubt Hessler's competence to waive counsel. Thus,
on this record, the court did not err when it did not declare a doubt regarding Hessler's competence and did not conduct a
competency hearing, nor did it err when it did not make an explicit competency determination in connection with Hessler's
motion to waive counsel.

(c) District Court Did Not Err in Finding Hessler's Waiver of Counsel Was Knowing, Voluntary, and Intelligent
[23] [24] Hessler claims that even if he was competent, his waiver of counsel was not knowing, voluntary, and intelligent. We
determine that the court was not clearly erroneous in finding that his waiver of counsel was knowing, voluntary, and intelligent.
When a criminal defendant has waived the right to counsel, this court reviews the record to determine whether under the totality
of the circumstances, the defendant was sufficiently aware of his or her right to counsel and the possible consequences of his
or her decision to forgo the aid of counsel. State v. Gunther, 271 Neb. 874, 716 N.W.2d 691 (2006).
We note that Hessler was represented by counsel throughout pretrial proceedings and during the guilt and aggravation phases
of his trial. In other cases, we have found that the fact that a defendant has had the advice of counsel throughout the *511

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 22

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

prosecution is an indication that the defendant's waiver of counsel and election to proceed pro se was knowing and voluntary.
Gunther, supra; State v. Wilson, 252 Neb. 637, 564 N.W.2d 241 (1997). The fact that Hessler was represented at earlier stages
indicates that he was aware of his right to counsel and that he knew what he would forgo if he waived counsel.
We also note that the court questioned Hessler extensively regarding his knowledge of his right to counsel and the consequences
of waiving counsel. Hessler's answers indicated that he was aware of his right to counsel and that he knew the consequences
of waiving such right. The court also questioned Hessler regarding whether his waiver was voluntary, and Hessler's answers
indicated that he was not being forced or coerced into waiving counsel. Based on our review of the record, we conclude that
under the totality of the circumstances, Hessler was aware of his right to counsel and the consequences of waiving such right
and that the court was not clearly erroneous in its determination that Hessler's waiver of counsel was knowing, voluntary, and
intelligent.

(d) Conclusion
On the record before us, we cannot say that the court erred when it did not sua sponte conduct a competency hearing, and there
was no error when the court did not make an explicit determination that Hessler was competent to waive counsel. Further, the
court was not clearly erroneous in its determination that Hessler's waiver was knowing, voluntary, and intelligent. We therefore
conclude that on this record, **431 the district court did not err in granting Hessler's motion to waive counsel and appear pro
se at sentencing. Accordingly, we reject Hessler's seventh assignment of error.

8. No Error in Receipt of Records of Guilt and Aggravation Phases of Trial at Sentencing Proceeding
[25] In his final assignment of error, Hessler asserts that the district court erred in the sentencing phase by receiving into
evidence the records of the guilt and aggravation phases of the trial and in using such evidence to determine his sentences.
Hessler *512 argues that the sentencing panel's receipt of such evidence was erroneous because it was not authorized by
statute. We conclude that the court was authorized to consider such evidence and did not err in admitting it.
[26] [27] [28] We have stated that the sentencing phase is separate and apart from the trial phase and that the traditional
rules of evidence may be relaxed following conviction so that the sentencing authority can receive all information pertinent to
the imposition of sentence. State v. Bjorklund, 258 Neb. 432, 604 N.W.2d 169 (2000). We have also stated that a sentencing
court has broad discretion as to the source and type of evidence and information which may be used in determining the kind
and extent of the punishment to be imposed, and evidence may be presented as to any matter that the court deems relevant to
the sentence. Id. We have also stated that “the sentencing court, in imposing the death penalty, has ... the statutory authority to
consider the trial record.” State v. Ryan, 248 Neb. 405, 442, 534 N.W.2d 766, 790 (1995). We cited § 29–2521 (Reissue 1995)
as the statutory basis for these statements in Ryan and Bjorklund. The version of § 29–2521 in effect at the time of Ryan and
Bjorklund provided that in the sentencing proceeding, “evidence may be presented as to any matter that the court deems relevant
to sentence,” including matters relating to aggravating and mitigating circumstances, and that “[a]ny such evidence which the
court deems to have probative value may be received.” As indicated below, we believe the principles referred to in Ryan and
Bjorklund apply under the current version of Nebraska's death penalty statutes.
In the current version, § 29–2521(2) (Cum.Supp.2006) addresses sentencing determination proceedings wherein the defendant
has waived the right to a jury determination of aggravating circumstances and the sentencing panel decides aggravating
circumstances. Section 29–2521(2) contains provisions similar to those quoted above from the prior version. Section 29–
2521(3) of the current version addresses sentencing determination proceedings wherein, as in the present case, a jury has found
aggravating circumstances and a sentencing *513 panel determines the sentence. Section 29–2521(3) provides that evidence
may be presented as to “any matter that the presiding judge deems relevant to ... mitigation ... and ... sentence excessiveness or
disproportionality.” The statute further provides that “[a]ny such evidence which the presiding judge deems to have probative

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 23

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

value may be received.” We determine that the current version of § 29–2521(2) and (3) gives the sentencing panel statutory
authority to consider the trial record.
Section 29–2521 gives broad discretion to the presiding judge of the sentencing panel to determine the type of evidence relevant
to the sentencing determination. In addition, the death penalty statutes read as a whole make clear that the sentencing panel
needs to consider evidence of the crime and of aggravating circumstances in order to properly perform its **432 balancing
and proportionality sentencing functions. Under Neb.Rev.Stat. § 29–2522 (Cum.Supp.2006), the sentencing panel is required to
determine whether aggravating circumstances justify imposition of a death sentence, whether mitigating circumstances exceed
or approach the weight of aggravating circumstances, and whether a death sentence is excessive or disproportionate to the
penalty imposed in similar cases “considering both the crime and the defendant.” The records of the guilt and aggravation phases
of the trial clearly have probative value regarding these issues. The sentencing panel needs to understand the circumstances of
the crime to “consider ... both the crime and the defendant.” Id. The record of the guilt phase provides information regarding
the circumstances of the crime which aids the sentencing panel in determining whether a death sentence would be excessive
or disproportionate, and the record of the aggravation phase assists the sentencing panel in the conduct of its balancing duty.
Receipt of the records of the guilt and aggravation phases is authorized under the discretion given the presiding judge under
§ 29–2521.
We conclude that the court in this case did not err by receiving evidence of the guilt and aggravation phases of the trial in the
sentencing hearing. We reject Hessler's final assignment of error.

*514 9. Hessler's Sentence Is Proportional to Those in Similar Cases
[29] [30] Finally, we are required to determine whether the death sentence imposed on Hessler is proportional to sentences
imposed in similar cases. Pursuant to Neb.Rev.Stat. § 29–2521.03 (Reissue 1995), this court is required, upon appeal, to
determine the propriety of a death sentence by conducting a proportionality review. Proportionality review under § 29–2521.03
looks only to other cases in which the death penalty has been imposed, State v. Bjorklund, 258 Neb. 432, 604 N.W.2d 169
(2000), and requires us to compare the aggravating and mitigating circumstances of this case with those present in other cases
in which the death penalty was imposed, and ensure that the sentence imposed in this case is no greater than those imposed in
other cases with the same or similar circumstances, State v. Gales, 269 Neb. 443, 694 N.W.2d 124 (2005). See, State v. Dunster,
262 Neb. 329, 631 N.W.2d 879 (2001); Bjorklund, supra; State v. Lotter, 255 Neb. 456, 586 N.W.2d 591 (1998).
In the present case, the State alleged, and the jury and sentencing panel found, the existence of three statutory aggravating
circumstances: (1) Hessler had a substantial prior history of serious assaultive or terrorizing criminal activity (§ 29–2523(1)
(a)); (2) the murder was committed in an effort to conceal the commission of the crimes of the kidnapping and sexual assault of
Heather and the sexual assault of another girl, J.B. (§ 29–2523(1)(b)); and (3) the murder was especially heinous, atrocious, cruel,
or manifested exceptional depravity by ordinary standards of morality and intelligence (§ 29–2523(1)(d)). At sentencing, Hessler
offered no evidence other than his “Interlocutory Statement of the Defendant” that would bear on mitigating circumstances, and
the sentencing panel concluded that no statutory and no nonstatutory mitigating circumstances were established. The panel also
concluded that a death sentence would not be excessive or disproportionate to penalties imposed in similar cases, considering
both the crime and the defendant.
We have reviewed our relevant decisions on direct appeal from other cases in which aggravating circumstances were found and
the death penalty was imposed by the district court. See, e.g., Gales, supra (and **433 cases gathered therein). In considering
*515 proportionality in its sentencing order, the sentencing panel in this case took particular note of the circumstances presented
in Gales, supra; State v. Joubert, 224 Neb. 411, 399 N.W.2d 237 (1986); Bjorklund, supra; and State v. Otey, 205 Neb. 90,
287 N.W.2d 36 (1979). We also find these cases to be of particular note in considering the proportionality of the sentence in
this case. In Gales, the defendant was convicted of the first degree murder of a 13–year–old girl he had sexually assaulted,
the first degree murder of the girl's 7–year–old brother, and the attempted second degree murder of the children's mother. The

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 24

State v. Hessler, 274 Neb. 478 (2007)
741 N.W.2d 406

defendant in Gales was sentenced to death based upon, inter alia, aggravating circumstances under § 29–2523(1)(a), (b), and
(d). In Joubert, the defendant was convicted of the first degree murders of a 13–year–old boy and a 12–year–old boy, both of
whom disappeared during early morning hours, one while delivering newspapers. The defendant in Joubert was sentenced to
death based upon aggravating circumstances under § 29–2523(1)(a), (b), and (d). In Bjorklund, the defendant was convicted
of the first degree murder of an 18–year–old girl he had sexually assaulted, and the defendant was sentenced to death based
upon aggravating circumstances under § 29–2523(1)(a), (b), and (d). In Otey, the defendant was convicted of the first degree
murder of a woman he had sexually assaulted, and the defendant was sentenced to death based upon aggravating circumstances
under § 29–2523(1)(b) and (d). We further note State v. Williams, 205 Neb. 56, 287 N.W.2d 18 (1979), in which the defendant
was convicted of the first degree murders of two women and the sexual assault of another woman and was sentenced to death
based upon aggravating circumstances similar to those in the present case. Having reviewed the relevant cases, we find that the
imposition of the death sentence in this case is proportional to that in the same or similar circumstances.

VI. CONCLUSION
Having rejected each of Hessler's assignments of error and having found that the death sentence imposed in this case is
proportional, we affirm Hessler's convictions and sentences.
Affirmed.

HEAVICAN, C.J., not participating.
All Citations
274 Neb. 478, 741 N.W.2d 406
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Appendix J 25

